<html>
<title> - ONE YEAR LATER: ARE WE PREPARED?</title>
<body><pre>[Senate Hearing 109-747]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-747
 
                    ONE YEAR LATER: ARE WE PREPARED?

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                   SEPTEMBER 7, 2006--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
31-329                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                      Bruce Evans, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                   Subcommittee on Homeland Security

                  JUDD GREGG, New Hampshire, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
TED STEVENS, Alaska                  DANIEL K. INOUYE, Hawaii
ARLEN SPECTER, Pennsylvania          PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
WAYNE ALLARD, Colorado               DIANNE FEINSTEIN, California

                           Professional Staff
                             Rebecca Davies
                              Carol Cribbs
                            Shannon O'Keefe
                             Nancy Perkins
                           Mark Van de Water
                       Charles Kieffer (Minority)
                        Chip Walgren (Minority)
                         Scott Nance (Minority)
                      Drenan E. Dudley (Minority)

                         Administrative Support

                            Christa Thompson


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Judd Gregg..........................     1
Statement of Hon. R. David Paulison, Director, Federal Emergency 
  Management Agency, Department of Homeland Security.............     2
Preparedness Efforts at the Federal and Local Levels.............     3
Prepared Statement of R. David Paulison..........................     4
Improved Command, Control, Coordination and Situational Awareness     5
Extensive Communications Enhancements............................     8
Timely and Effective Service to Disaster Victims.................    10
Improved Logistics...............................................    11
Debris Removal Process Enhancements..............................    12
Personal Preparedness............................................    12
Statement of Senator Robert C. Byrd..............................    13
Statement of Hon. George W. Foresman, Under Secretary for 
  Preparedness, Department of Homeland Security..................    14
Prevention, Protection, Response and Recovery....................    14
Preparedness Efforts at the Federal and Local Level..............    15
Prevention, Protection, Response and Recovery....................    16
Prepared Statement of George W. Foresman.........................    17
Statement of Admiral Thad W. Allen, Commandant, United States 
  Coast Guard, Department of Homeland Security...................    21
    Prepared Statement of........................................    22
Is DHS Ready for Another Category 3, 4, or 5 Hurricane...........    26
To What Extent Should the Military be Used as a First Response...    28
Prepared Statement of Senator Richard C. Shelby..................    29
Communications...................................................    30
Preparedness and Response Missions...............................    32
Port Security and Preparedness...................................    33
West Virginia's Involvement in Mass Evacuation Planning..........    34
First Responder Training.........................................    35
Technology Used for Remapping Flood Zones........................    36
North Command....................................................    36
Federal Coordination.............................................    37
Prepared Statement of Senator Mary L. Landrieu...................    38
Flooding in New Mexico...........................................    41
Harmony in Working Together......................................    42
Statement of Bruce Baughman, President, National Emergency 
  Management Association.........................................    44
    Prepared Statement of........................................    47
Statement of Ellis M. Stanley, Sr., Certified Emergency Manager, 
  General Manager, Emergency Preparedness Department, City of Los 
  Angeles........................................................    54
    Prepared Statement of........................................    56
Additional Committee Questions...................................    64
Questions Submitted by Senator Richard C. Shelby.................    64
USCG Preparedness and Response Capability........................    64
Ports and Coastal Waters.........................................    64
Intelligence Information.........................................    65
Avian Influenza..................................................    66
Communication With State and Local Level.........................    66
DHS Standards on Environmental Threats...........................    67
Urban Area Security Initiative...................................    67
Operations Centers...............................................    68
Education and Outreach Efforts...................................    69
Disbursement of Aid to Communities...............................    70
FEMA Reimbursement...............................................    71
Questions Submitted by Senator Robert C. Byrd....................    72
Splitting Preparedness and Response..............................    72
Measuring Preparedness...........................................    72
Medical Preparedness.............................................    74


                    ONE YEAR LATER: ARE WE PREPARED?

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2006

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:59 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Cochran, Domenici, Shelby, Allard, 
and Byrd.
    Also present: Senator Landrieu.


                OPENING STATEMENT OF SENATOR JUDD GREGG


    Senator Gregg. We will begin the hearing. It is a little 
bit early, but I understand Senator Byrd is going to be a 
little late. When he gets here, as a courtesy we may interrupt 
the statements of the witnesses so that Senator Byrd can make a 
statement if he wishes to make one.
    The purpose of this hearing is to review where we stand 
relative to our preparedness a year after Katrina and 5 years 
after 9/11. Obviously the American people want to know, they 
expect to know, and, more importantly, they expect that their 
government is ready to deal with catastrophic events, whether 
they are manmade or brought to us by the weather. We know that 
the potential for those events is around the corner, 
regrettably. We cannot predict exactly when they may occur, but 
unfortunately we do know that they probably will occur.
    Obviously, Katrina showed some very significant problems in 
our response capability; the question is have we learned 
lessons and are we ready to deal with an event, hopefully not 
of that level of catastrophe, but an event of that nature, 
especially with hurricane season bearing down on us. In fact, 
we are right in the middle of it. I guess we are up to the 
letter ``F'' already.
    In addition, there is the question of, as a result of 9/11, 
what have we learned, and how much have we been able to 
integrate the preparedness effort between the Federal 
Government, the State and the local communities, which is an 
element of critical concern obviously to everyone.
    I greatly appreciate the members of this panel 
participating and those of our second panel. We obviously have 
the leadership here of the government relative to dealing with 
dramatic events and national disasters. We have Mr. Paulison, 
who is the acting head of FEMA, and we have Mr. Foresman, who 
is the head of the Office of Preparedness, and of course 
Admiral Allen, who is the head of the Coast Guard.
    Your agencies have been charged with protecting the 
American people and making sure that if events occur, which 
harm our people, that there is somebody on the ground helping 
them out and giving them every form of assistance that we can 
humanly deliver. So we would like to hear from you as to where 
we stand and are we ready, and if we are not ready, what do we 
need to do to get ready?
    We will start with you, Mr. Paulison.

STATEMENT OF HON. R. DAVID PAULISON, DIRECTOR, FEDERAL 
            EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF 
            HOMELAND SECURITY
    Mr. Paulison. Thank you, Mr. Chairman. I think I speak for 
all three of us and we appreciate the opportunity to come here. 
We appreciate the invitation and obviously when we finish we 
would like to answer any questions you might have.
    This 2005 hurricane season obviously challenged the entire 
country and challenged the Nation. 90,000 square miles of land 
impacted; 118 million cubic yards of debris, more than 
Hurricane Andrew and the Twin Towers combined; 2.1 million 
people evacuated for Hurricane Katrina alone; 1.7 million 
registrations; and FEMA assisted over 900,000 households during 
this period of time.
    Despite everyone recognizing the enormity of the disaster, 
FEMA could not, and did not live up to this country's 
expectations. The true test of this Nation and FEMA is, how we 
respond to the challenge of rebuilding our emergency management 
response capability. This Nation responded with generosity and 
unprecedented outpouring of support through financial and 
volunteer assistance. The President responded by committing to 
doing what it takes to support the recovery and rebuilding of 
the gulf coast, and this Congress and the taxpayers responded 
by providing over $110 billion for the Gulf Coast recovery.
    Now it is up to FEMA to respond also. We have done so. We 
have responded with leadership. The President and Secretary 
Chertoff have provided strong leadership in setting direction 
for FEMA and so too has Congress and, quite frankly, including 
this committee also.
    We at FEMA have built a strong team of leaders, each of 
whom brings decades of emergency management experience. The 
President nominated and the Senate confirmed me for this 
position. I too bring a lot of experience to the table, and I 
am very thankful for your confirmation.
    We have staffed the key leadership roles at FEMA 
headquarters, at our regional and field offices with good 
people, leaders who have experience. They are seasoned and 
knowledgeable about their respective areas of expertise.
    We have also responded by building strong partnerships. We 
are working closer with our departmental partners, the Coast 
Guard, Preparedness, and our Operations Directorate, so we can 
now operate as an integrated and focused team to meet the needs 
of the States and our citizens; particularly those who have 
been victims of disaster.
    We have forged stronger bonds with our Federal partners, 
the Department of Defense, NORTHCOM, the Corps of Engineers, 
Department of Transportation, the National Guard Bureau, HHS, 
and GSA, to make sure we can clarify our disaster roles in 
prescript mission assignments so they know what we are going to 
do.


          PREPAREDNESS EFFORTS AT THE FEDERAL AND LOCAL LEVELS


    We have worked actively to strengthen our relationship with 
our local and State partners. I have met with almost every 
governor and State emergency manager from Texas to Maine to 
make sure we can clarify roles, find out what the issues are in 
advance of hurricane preparedness.
    We must be better focused and better prepared than we have 
been in the past. We, FEMA, are intent on becoming the Nation's 
preeminent national emergency management agency, leading and 
supporting an efficient and effective response, an all-hazards 
response, to any disaster that may confront the American 
people. We have improved in every area of capability to be 
prepared for this hurricane season.
    What we did was take all the reports that came out of 
Congress, the White House, GAO, and the Inspector General's 
office, and focus on those very clearly. We also took a 
practice that we have used in the first responder world, 
primarily what I have used in my community, of reassessing 
disaster response and how we responded, whether it is a mass 
migration, floods, civil disturbances, hurricanes like Andrew, 
or airplane crashes like Value Jet; to do after-action reports 
that look very carefully at those things that worked well and 
did not work well.
    I have broken it down into several areas. The first piece 
is, communications, where I saw the biggest flaw. Major 
breakdown in communications between State and local government, 
between State and Federal Government, and quite frankly inside 
the Federal Government. We have worked over the last several 
months very diligently to put a communications system in place 
that does not just involve equipment, but mostly protocols 
dealing with our concept of operations of how we are going to 
share information; enforcing a unified command system so 
regardless of where information comes into the system, whether 
it comes in from a constituent to you, to the President, or it 
comes in from the first responder or from our teams in the 
field, that that information is shared to everyone in the 
system, using better use of our satellite imagery, upgrading 
our radio system, and making sure that we are ready in advance, 
ready to go on day one.
    The second piece is the logistics, having the right things 
at the right place at the right time. We have broken that into 
several pieces. One, making sure we have enough supplies. We 
have tripled and quadrupled our supplies of water, food, blue 
tarps, ice, medicines, all those things that we supply, and 
pre-staged those supplies, and also have the flexibility of 
predeploying those. I think Hurricane Ernesto exemplified our 
flexibility in being able to move those supplies around. The 
hurricane was first destined to go into Texas and it moved to 
Louisiana, then Mississippi, Alabama and even into Florida. In 
fact, I sent my wife home to put our shutters up. The hurricane 
ended up ending in North Carolina, moving up through the 
Northeast Atlantic States.
    We were able to move those supplies through a new tracking 
system that we have, with a very sophisticated GPS system where 
we have total asset visibility. We were able to move those 
supplies and to track that hurricane through the entire system.
    We have also developed a strategic partnership with the 
Defense Logistics Agency to make sure we have backup. As we 
move our supplies out of our warehouses, they will be behind us 
moving those things back in.
    We have looked at our debris contracts. We have put over 
500 debris contractors on our website that are preregistered. 
That allows small businesses to get involved in the disaster 
response, but also allows the local communities the flexibility 
of deciding how they are going to move debris from their 
community.
    We have also put dozens of prescripted mission assignments 
in place with different agencies throughout the Federal 
Government and also put contingency contracts in place so we do 
not end up doing contracts, sole source contracts and no-bid 
contracts, at the last minute, that are sloppily written and 
difficult to enforce. So, we have these things in place to 
avoid delays. People know exactly what the responsibilities are 
and we know what their capabilities are as we go into the 
system.
    We have looked at our victim registration piece. We now 
have the capability of registering over 200,000 people a day, 
not just by telephone but also online. Also we are going to be 
putting people in shelters to register them as they come into 
the shelters. Now we have a new mobile capability, because one 
of the lessons we learned in Katrina was that people sometimes 
could not get to our registration centers. So we have the 
capability of going out to them and registering them out in the 
field. We also now have the capability of doing over 20,000 
house inspections a day to make the system go much more 
smoothly and also cut down on our waste, fraud, and abuse.
    I know the challenges are great. We know they are great. 
But so is our determination to make this the premier agency; 
not only to meet, but exceed the expectations of this Congress 
and also the American public.
    Mr. Chairman, thank you for the opportunity of speaking 
here today and I will obviously be happy to answer any 
questions you might have. Thank you.
    [The statement follows:]

                Prepared Statement of R. David Paulison

    Good morning Chairman Gregg, Ranking Member Byrd, and Members of 
the Committee. I am R. David Paulison, the Director of the Federal 
Emergency Management Agency (FEMA). On behalf of FEMA and the 
Department of Homeland Security (DHS), I am honored to appear before 
you today to discuss FEMA's commitment to incorporate the lessons 
learned following last year's catastrophic disasters. We must employ 
the lessons learned so when the next disaster strikes we are better 
prepared to protect lives, prevent suffering, reduce property loss and 
respond more effectively.
Hurricanes Katrina and Rita--Changing the Face of Emergency Management
    As we all know too well, Hurricane Katrina was the single worst 
disaster in American history, and it struck during the single worst 
hurricane season on record, with 27 named storms. Hurricanes Katrina 
and Rita were two of the most intense hurricanes ever recorded during 
an Atlantic hurricane season. FEMA delivered more commodities, 
activated more response teams, housed more victims, and distributed 
more money in response to Hurricanes Katrina and Rita than for any 
other disaster in the history of this country. The agency supported the 
largest evacuation in U.S. history through FEMA's Urban Search & Rescue 
teams and assisted other first responders such as the U.S. Coast Guard 
in the rescue of 36,000 individuals.
    Despite these extraordinary and historic efforts, there were 
shortcomings at all levels of government in planning, coordination, 
communication and response to Hurricane Katrina. It is clear that the 
Federal Government can no longer work within the traditional emergency 
management approach that ``waits for State or local governments to be 
overwhelmed.'' Rather, I submit that FEMA and the entire Federal 
Government must be a partner with State and local governments 
throughout the disaster preparedness, planning and recovery phase to 
ensure an effective, aligned and integrated response and recovery. 
Personal preparedness also plays a critical role. One of the most 
important lessons coming out of Hurricane Katrina is the necessity for 
changing how America looks at emergency management.
    Immediately following Hurricane Katrina, FEMA and its partners in 
the Department of Homeland Security (DHS) began compiling and 
evaluating the lessons learned to identify the core functional areas 
needing improvement. FEMA and DHS also reviewed after-action reports 
and recommendations from Congress, the White House report entitled, The 
Federal Response to Hurricane Katrina: Lessons Learned, the DHS 
Inspector General's Report and relevant reports from other 
organizations to best capture lessons learned and the core changes 
needed. As a result of these intensive collaborative post-Katrina 
analyses of response and recovery programs, FEMA has taken steps to 
become a more agile organization and maximize performance for all types 
of disasters regardless of size, cause, or complexity.
    We do not take these steps forward in a haphazard way. We are 
working purposefully toward reshaping FEMA in a coordinated fashion, on 
all levels, to transform the agency to become the Nation's Preeminent 
Emergency Management Agency. By strengthening our core competencies, 
employing advanced technologies and taking a business approach to our 
supporting management processes, we intend to be a leader and model 
agency in developing emergency management capabilities at all levels of 
government. It is our goal and our mission to be ready and capable of 
supporting all-hazards, incident management, recovery, mitigation, and 
continuity programs. We will take these actions in partnership with our 
Departmental colleagues such as the Preparedness Directorate, 
Operations Branch and the Coast Guard. As well, we will nurture and 
expand on our relationships with the Federal family, State and local 
government, the private sector and not-for-profit entities.
    FEMA's current approach is to lean forward aggressively and be 
ready to respond during the current hurricane season. We are confident 
in our people, our experience, and the improvements we have made since 
Hurricane Katrina. Innovative and effective techniques and technologies 
employed in the response to Hurricanes Rita and Wilma have been 
institutionalized. Numerous key initiatives are in place that have 
improved FEMA's capabilities for the 2006 Hurricane Season. Just as 
important, however, is the applicability of these new techniques and 
technologies to any disaster, whether caused by Mother Nature or 
terrorists.

2006 Hurricane Season Improvements
    Since Hurricane Katrina, FEMA has made significant improvements in 
core operational competencies: command and control coordination and 
situational awareness, communications, disaster victim basic services, 
logistics, pre-scripted mission assignments, and debris removal. We 
also have been aggressively working to improve our internal operations 
by adopting and fostering a business approach to emergency management. 
This is supported by pursuing increased staffing and upgraded equipment 
and support services for the Agency. Secretary Chertoff, other members 
of the Department's leadership team, and I have been meeting with 
senior elected officials in hurricane prone States as part of a broad 
outreach effort to highlight the Department's commitment to improved 
emergency preparedness, readiness for the hurricane season, and 
incident management. Our goal is to develop a more effective national 
response and instill public confidence. By supplementing State and 
local response capabilities at the appropriate point during a disaster, 
and capitalizing on partnerships, we will improve disaster response and 
recovery.
   improved command, control, coordination and situational awareness
    DHS/FEMA has established communications and operation systems that 
will ensure ``unity of effort, unity of command'' through rigorous 
adherence to the principles of the National Incident Management System 
(NIMS). Improved coordination procedures, protocols, and reporting 
processes have also been implemented for more effective operation of 
the National Response Coordination Center (NRCC) as a component of the 
National Operations Center (NOC).
    Upgraded Emergency Operations Centers.--FEMA's NRCC has improved 
its disaster response and coordination capabilities. The facility has 
been upgraded and new equipment, video capabilities, and software have 
been installed to improve the interface, coordination, and exchange of 
information with the NOC, other Federal Departments and Agencies, and 
State and local emergency managers. The improved capabilities includes 
the new DHS common operating picture (COP) that resides on the Homeland 
Security Information Network (HSIN). Although the COP is in its initial 
stages of development, its use during last week's Tropical Storm 
Ernesto provided the way ahead for a unifying effort and improved 
situational awareness. Training to support the HSIN/COP system is 
initially focused on Departments and Agencies providing support during 
hurricane season, the NRCC, the FEMA Regions, DHS Components, Joint 
Field Offices, the National Infrastructure Coordinating Center, and the 
NOC. In addition to the improvements to the NRCC's information 
technology systems, audio-visual equipment, and Video Tele-Conference 
(VTC) capabilities, upgrades are being made to the FEMA Region IV 
(Atlanta) and Region VI (Denton) Regional Response Coordination Centers 
(RRCC) to improve their disaster response operational coordination and 
information exchange capabilities.
    Pre-designated Disaster Leadership.--Secretary Chertoff and I have 
already pre-designated five leadership teams to ensure better 
coordination of the Federal Government's response and recovery efforts 
in support of our State and local partners. The five teams draw upon 
the expertise of 27 Federal officials designated as Principal Federal 
Officials (PFO), Deputy PFOs (DPFO), and Federal Coordinating Officers 
(FCO) and are assigned to the Gulf Coast Region, Florida, the Northeast 
region, the Mid-Atlantic region, and Texas. The PFOs and DPFOs serve as 
the Secretary's representatives on the ground and primary point of 
contact for State and local officials within their area of authority. 
All of these Federal Government representatives will support impacted 
State and local governments and will improve FEMA's and the 
Department's ability to respond quickly and delineate roles more 
effectively.
    Emergency Response Teams.--FEMA's Emergency Response Teams (ERT) 
will be deployed with satellite phone capability to State emergency 
operations centers to establish unified incident command at key local 
emergency operations centers and to coordinate with local officials and 
be able to report information rapidly from the local level. This 
concept was successfully used in the responses to Hurricanes Rita and 
Wilma and will be continued in this year's hurricane season.
    Department Situation Awareness Teams.--DHS's capabilities will be 
further enhanced with the introduction of the DHS Situational Awareness 
Teams (DSATs) and their interoperable communications assets. The DSATs 
are designed to provide the DHS Secretary and the Principal Federal 
Official (PFO) with situational awareness and real time disaster 
activity information early on in the disaster when chaos and fog are 
common place. The DSATs capabilities include ICE Agents with a variety 
of communications gear ranging from radios to satellite video as well 
as an accompanying DHS Public Affairs team.
    Federal Incident Support Teams.--FEMA has created two new Federal 
Incident Response Support Teams (FIRST), which are now operational. 
Federal Incident Support Teams and equipment are designed to provide 
DHS/FEMA with the capability to directly support State, local, and 
tribal government disaster operations on scene as well as provide 
communications support and situational awareness to the State and 
Federal decision makers. The teams are small, can be rapidly deployed, 
can provide technical advice and situational awareness, can facilitate 
alternative communications, and can assist in requesting and employing 
lifesaving Federal assets.
    To enhance support for the DSAT and FIRSTs, survivable and 
interoperable communications capabilities are being augmented and 
greater emphasis is being placed on the types and availability of 
communications equipment, frequency management, and cross-coordination 
of operational support capability. The ultimate goal is for the 
information gathered by the DSAT and the FIRSTs to be shared and 
coordinated among all levels. The DSAT role upon direction of the PFO 
is to fill specific gaps in situational awareness when other resources 
are not available or appropriate
    Search and Rescue Coordination.--Efforts have been taken to better 
blend the capabilities of Coast Guard, Federal military, State National 
Guard, local police and fire departments, and other assets to improve 
search and rescue capabilities. Our 28 Federal Urban Search and Rescue 
Task Forces and 108 National Disaster Medical System teams are ready 
for deployment to support the needs of disaster victims and first 
responders where needed. As an example of our efforts to enhance 
response capabilities, FEMA's Urban Search and Rescue staff is working 
with DHS components, such as the U.S. Coast Guard, and other Federal 
agencies, including the Department of the Interior (Park Service), and 
the Department of Defense, to define roles, responsibilities and 
available resources for expanding search and rescue scope and 
capabilities to include water and wilderness capabilities. The intent 
is to expand the search and rescue capabilities of the Federal 
Government and to ensure they will be more fully integrated with those 
of State and local governments.
    Department of Defense Coordination.--To ensure better 
synchronization, coordination, and readiness with the active duty 
military, whose personnel and capabilities can be critical in a major 
disaster response, the Department of Defense (DOD) is placing a Defense 
Coordinating Officer (DCO)--typically deployed as lead field 
coordinator for the employment of DOD resources during an incident--
permanently in each of FEMA's ten regional offices for ongoing 
preparedness and response coordination in disasters. This will improve 
Federal coordination in the immediate response and smooth out and 
expedite the provision of DOD support. FEMA is also streamlining the 
way it seeks assistance from the DOD by pre-scripting mission 
assignments in advance of the hurricane season so that time is not lost 
during the critical response period. There are 16 pre-scripted Mission 
Assignments involving such functions as airlift, transportation, 
communications, imagery, route clearance, housing and feeding, fuel 
distribution, staging and establishing mobilization centers, and 
medical treatment support that have been prepared and approved. In 
addition, the Regions maintain close coordination with the Regional 
Emergency Preparedness Liaison Officer staff.

Experienced Disaster Staffing Increased
    A larger number of disaster workers means FEMA will be able to 
respond more quickly to the needs of victims over a greater area in the 
event of a large or catastrophic disaster and will provide a more rapid 
and focused response to smaller incidents. However, I simply will not 
bring anyone to FEMA leadership who does not extensive relevant 
experience. FEMA now has seasoned emergency professionals to lead our 
core areas such as our Response and Recovery Divisions, as well as 
filling positions such as the Regional Directors and Deputy Directors. 
Many of our employees, including myself, have personal experience as 
hurricane or disaster victims.
    On the staff level, FEMA has approximately 2,000 full time career 
employees--it is the size of a high school in a metropolitan area. Most 
of FEMA's employees are Disaster Assistance Employees (DAE) or Cadre on 
call Response Employees (CORE). Immediately following Hurricane 
Katrina, FEMA increased the size of FEMA's Disaster Assistance 
employees (DAE) cadre by 100 percent (approximately 4,000 pre-Katrina; 
approximately 8,000 today). In addition, FEMA is currently filling more 
than 700 2-year Cadre on call Response Employees (CORE) positions for 
Hurricane Katrina in FEMA Headquarters and Regional offices. FEMA also 
has approximately 2,500 2-year CORE positions in four Transitional 
Recovery offices (TROs) in the Gulf Coast region.
    Of the 8,000 DAEs FEMA has trained 3,000 disaster ``generalist'' 
surge cadre employees for ready deployment during the height of the 
2006 hurricane season and has increased its capacity to deploy and 
communicate with these disaster employees. These generalist surge 
employees have been trained across a number of basic functions 
including Community Relations, Individual Assistance, Public 
Assistance, and Logistics. They can quickly canvas areas immediately 
following a disaster to inform the public of FEMA's programs, assessing 
the communities' needs, and serving as strike team members for shelter 
or hotel populations. These generalists will free up FEMA's more 
specialized and experienced workers to address more complex specific 
issues.
    Within the National Processing Service Center FEMA is converting 
more than 4,000 disaster temporary employee positions to 2-year CORE 
term positions to improve retention and increase surge capacity.
National Incident Management System (NIMS) Integration Center (NIC)
    The NIMS Integration Center is working with other FEMA and DHS 
components as well as the interagency community to ensure operational 
readiness for disasters of all kinds, regardless of cause. The NIC also 
will coordinate and broker agency and interagency planning initiatives 
in support of operational response and recovery objectives for the 
NIMS.
    NIMS Incident Command System (ICS) Train the Trainer courses are 
being conducted in all States and Territories. Over 3 million first 
responders and disaster workers have completed the NIMS training. The 
NIC will also be offering several new training programs in support of 
disaster response.
    The NIC will provide the central activity to ensure the NIMS is a 
continuously improving system of response that unites all responders in 
the United States through common organizational structures, common 
terminology for resources, and interoperable equipment and 
communications. These activities will be constantly evaluated and 
improved based on lessons learned and on the evolution of technology 
and protocols as directed in HSPD-5. The NIC is developing a national 
mutual aid and resource management system that includes first responder 
and emergency worker credentialing based on national standards, 
supports the NIMS, and will ultimately allow Federal, State, and local 
governments to order and track response resources more quickly and 
effectively.
    Following consultation with our State and Federal partners, the 
NIMS guidance document will be updated based on lessons learned from 
Hurricane Katrina. In addition, the fiscal year 2007 NIMS Compliance 
Requirements will be released by October 1, 2006. Currently, the NIC is 
working with DHS' Preparedness Directorate's Office of Grants and 
Training to monitor the States' NIMS compliance for the fiscal year 
2005 State Homeland Security Grant Program. fiscal year 2006 NIMS 
Compliance will be monitored in fiscal year 2007 by the NIC in 
partnership with the DHS Office of Grants & Training, and will focus on 
23 specific compliance activities

Continuity of Operations (COOP)
    To support its continuity of operations or COOP lead agent 
responsibilities, FEMA has developed a national COOP outreach program 
focused on assisting Federal, State and local jurisdictions in their 
continuity preparedness. To support this effort, continuity of 
operations working groups (CWG) have been established in the National 
Capital Region and in many of our largest cities across the country. 
FEMA's goal is to establish these working groups in all 50 States and 
territories by fiscal year 2008. The CWGs established with the Federal 
Executive Boards in New Orleans, Houston, and Miami prior to the 
hurricanes of 2005, for example, and the many COOP training and 
exercise activities conducted by these organizations prior to the 
hurricanes, were instrumental in facilitating the Federal Government's 
timely recovery and reconstitution efforts following Hurricanes 
Katrina, Rita, and Wilma.

                 EXTENSIVE COMMUNICATIONS ENHANCEMENTS

    An overarching problem during Katrina was the fact our 
communications system broke down. It was broken between the local 
community and the State, between the State and the Federal Government, 
and quite frankly, inside the Federal Government itself. Recognizing 
this shortfall, DHS/FEMA, in conjunction with the National 
Communications System (NCS) which is responsible for Emergency Support 
Function #2--Communications, has implemented a wide range of 
enhancements.
    In addition, FEMA Public Affairs has been working with the DHS 
Public Affairs on improvements to external and public affairs processes 
during an incident to ensure the delivery of a coordinated message.
    Emergency Communications Working Group.--To plan for the most 
comprehensive strategy possible for communications, DHS is leading the 
Emergency Communications Working Group (ECWG). FEMA and the NCS are 
members of this group. FEMA's Chief Information Officer and Mobile 
Emergency Response Support (MERS) Program Manager are working hand in 
hand with NCS to improve disaster communications capabilities.
    Interoperability Exercises.--FEMA continues to participate in 
communications interoperability exercises and tests that began before 
the June 1, 2006, Hurricane Season. These exercises have been used to 
validate interoperability among Federal, State and local emergency 
management officials. Some of the exercises included DICE (Defense 
Interoperability Exercise/Testing) conducted in February and March 
2006;, 2006; Grecian Firebolt 2006 (Joint Secure Communications 
exercise) conducted from June 12-24, 2006; and JUICE 2006 (Joint User 
Interoperability Communications Exercise) conducted in August of 2006. 
FEMA MERS also periodically tests its readiness in a series of 
readiness capability (REDCAP) exercises. The REDCAP exercises have been 
conducted in October 2005 and July 2006. All of these exercises and 
other measures have improved the ability of disaster responders at all 
levels to communicate with each other during disaster responses. In the 
event of a hurricane, communication resources will be pre-deployed to 
staging areas surrounding the expected landfall area. These resources 
will then be promptly dispatched to an effected area when requested. 
These communications plans will support command and control, 
evacuation, search and rescue, and other response activities.
    New Communications Initiatives Recently Funded.--Congress approved 
$5 million in supplemental funding in September 2005 and an additional 
$70 million in supplemental funds in June 2006, for FEMA's Office of 
National Security Coordination (ONSC). With this funding ONSC is 
implementing the following initiatives:
    The Mobile Radio Station (MRS).--Will be used to communicate 
official news and information to disaster area residents and officials 
when local radio broadcast capabilities have been disrupted by a major 
disaster. The MRS will be a rapidly deployable, AM and FM radio 
transmitter system that can be tuned to the frequencies of disrupted FM 
and most AM radio stations. The MRS will have an integral radio studio 
and can also use satellite communications for linking remote broadcast 
studio facilities. The MRS will be housed in a trailer capable of being 
transported to the disaster region by truck or air transport.
    Emergency Alert System (EAS) Primary Entry Point (PEP) Radio 
Station Improvements.--FEMA is upgrading several Gulf region PEP radio 
stations to be able to operate through hurricanes. The Federal 
Government provides PEP radio stations with fuel, generators and other 
capabilities that allow them to stay on the air in times of disasters. 
For example, the WWL station in New Orleans had on-site fuel and backup 
power generators provided by FEMA that enabled this station to continue 
operations throughout Hurricane Katrina.
    FEMA National Radio (FNARS).--FNARS will provide for continuation 
of Phase I of the FNARS high-frequency (HF) radio system modernization 
to the Katrina affected States. The modernization will help to replace 
logistically unsupportable equipment and will add new capabilities such 
as secure e-mail and user-friendly operator interfaces. The FNARS is 
designed to back up landline based systems and ensure continued 
connectivity between the Federal, State, and territorial governments in 
times of commercial telecommunications infrastructure outage.
    National Warning System (NAWAS) Satellite Capability.--FEMA will 
develop a satellite-based NAWAS capability for the Katrina-affected 
States. The current NAWAS is a private line telephone system used to 
convey warnings and other information to Federal, State, and local 
governments. To improve the security, reliability, and survivability of 
the NAWAS system, independent satellite paths will be used for 
connectivity within the network and will provide a collaborative 
environment with text, voice, video, and data services that can operate 
through floods and other hazardous conditions.
    Emergency Cellular and Land Mobile Radio Relay Vans.--During 
Hurricane Katrina, 1,477 cell towers were disrupted and both cellular 
and land mobile radio relays were flooded or damaged throughout a 
multi-State region. To respond to such conditions in the future, FEMA 
is purchasing contingency cell telephone Switch on Wheels (SOWs) with 
mobile cell towers and land mobile radio relay capabilities. These SOWs 
can receive E911 calls from the public and first responders, will help 
to locate people in distress, and will provide a satellite based 
backhaul into the public telephone and cellular networks. The SOWs will 
also enable the government to send out broadcast text alert messages to 
selected cell phones in a disaster area. The end result will be an 
assured cellular network for government and first responders that is 
also helpful to the public. Each SOW will include phones and will also 
integrate VHF, UHF, and SHF land mobile radio (LMR) interoperable radio 
relay capabilities.
    Public Address Bulletin Boards & Voice Systems.--During Hurricane 
Katrina, there was a lack of situational awareness and alerting for the 
displaced public, especially in shelters and during evacuation. FEMA 
will provide trailers with roadside electronic bulletin board 
capabilities as well as public address systems to improve situational 
awareness in large public shelters.
    Deploy the Geo-Targeted Alerting System (GTAS) to the Katrina-
affected States.--During disasters, the Federal Government does not 
have a geo-targeted alerting capability to warn the public via 
telephones or cellular phones that they are in harms way. GTAS is a 
joint DHS and NOAA program to help warn the public in specific danger 
zones, whether the zone covers an entire city or is focused on a 
particular building or neighborhood. The GTAS will integrate near-real-
time weather and hazard predictions with collaborative alert zone 
determinations. The GTAS will provide Federal, State, and local 
officials a capability to precisely target alerts to those who are most 
at risk. Funds will help to deploy an initial GTAS capability to the 
Katrina affected States.
    Deploy Digital EAS Capabilities to the Katrina Affected States.--
The Digital EAS (DEAS) enables the government to use public 
television's digital broadcasts to send out text, voice, and video 
alerts. These alerts can be sent to public shelters, roadside signs, 
and numerous other devices that have a capability to either directly 
receive these broadcasts or that can receive DEAS alert messages 
through approved relay sites. This effort funds the deployment of a 
mobile DEAS transmitter van for use in an area where the public TV 
station is disrupted and also helps with the DEAS provisioning of 
public television affiliates in the Katrina affected States.
    Deploy DHS Internet-based Alerting for the Katrina Affected 
States.--The DHS Web Alert and Relay Network (WARN) will provide the 
Federal Government with a capability to alert the public through an 
opt-in web based alerting service and other web based services. The DHS 
WARN will provide the public with warning information based on location 
(such as a zip code) and type of event (flood, tornado, explosion, 
etc.).
    Mobile Integrated Public Alert and Warning System (IPAWS) 
Coordination Centers.--Three IPAWS Coordination Centers will provide 
mobile facilities with collaborative alert and warning displays and 
will help to coordinate Federal, State, and local warnings over other 
public warning systems (such as the EAS, GTAS, DHS WARN, SOWs, and DEAS 
networks described above). In addition, these IPAWS Coordination 
Centers will provide connectivity to the National Operations Center and 
the FEMA Operations Center.

            TIMELY AND EFFECTIVE SERVICE TO DISASTER VICTIMS

    FEMA's top priority when facing any disaster is to provide timely 
and effective assistance to disaster victims. Many of FEMA's processes 
that have worked well in the past for smaller disasters were no match 
for a Katina-size event. FEMA is always looking for ways to improve its 
delivery of services. For the catastrophic Katrina, we sought through 
trial and error new and innovative ways of service delivery in an 
effort to speed much-needed assistance into the hands of individual 
victims and State and local governments. Some of the more immediate 
tangible FEMA initiatives are described below.
    Planning for Medical Needs.--FEMA is undertaking a coordinated 
emergency preparedness planning effort in partnership with the Office 
of Equal Rights and State and local officials to develop plans for 
immediate and adequate sheltering and housing of people with 
disabilities; and to develop accessible resources to provide 
information about FEMA programs and assistance, as well as about 
available disability support organizations. Additional responsibilities 
include developing processes for quickly restoring assistive and 
adaptive implements, planning which enables reconnection with medical 
facilities and pharmacies for ongoing medical needs, and developing 
plans which facilitate restoration of the support system which enables 
people with disabilities to resume their normal functions as quickly as 
possible.
    Preparedness for people with disabilities is integrated into both 
program guidance and specific training for State and local Emergency 
Management Agencies and for service and advocacy agencies and 
organizations that work with them. These organizations cooperated with 
FEMA's Training Division and Office of Equal Rights in developing 
public information and education materials, and in developing training 
and guidance for emergency management system disability support 
personnel at all levels.
    Medical evacuations are also a particular concern for special needs 
populations. The National Disaster Medical System (NDMS) is a statutory 
Federal partnership to supplement State and local medical resources 
during disasters, major emergencies or military contingencies. The NDMS 
Federal Partners are the Departments of Homeland Security (DHS), Health 
and Human Services (HHS), Defense (DOD) and Veterans Affairs (VA). Each 
of the NDMS Federal Partners has a specific role in the mission. The 
Department of Defense is responsible for coordinating/facilitating 
patient movement. NDMS patient movement begins at an Aeromedical 
Staging facility co-located with an airfield. Patients arrive at the 
NDMS site via personal or local transportation assets for evaluation 
and treatment. Patients arrive at the NDMS site via personal or local 
transportation assets. Patients that require care beyond the local 
capacity may be regulated to an NDMS receiving facility outside the 
local area. Patients would be transferred via NDMS DOD assets to an 
NDMS DOD or VA Federal Coordinating Center (FCC). The FCC would re-
regulate the patient to an NDMS participating civilian facility and 
coordinate the transport to the NDMS participating facility. All 
movement by ground, helicopter or other local assets is coordinated by 
the local EMS. NDMS is not configured to perform patient extraction or 
local transportation.
    Improving Shelter Population Management.--FEMA is working with the 
American Red Cross, the nation's largest operator of major congregate 
care shelters during disasters, to develop and improve methods to 
better identify and more quickly assist those who have evacuated to a 
congregate care shelter. Immediately following a Presidentially 
declared disaster, this tracking capability will assist FEMA and the 
Red Cross in further developing and implementing methods for quickly 
identifying and reunifying missing and separated children and family 
members during a disaster.
    Increasing Registration Capacity.--During the days and weeks 
following Hurricanes Katrina and Rita, FEMA surpassed 100,000 
registrations a day, shattering all previous records of intake. While 
call center capacity was at its highest levels ever, FEMA is pursuing 
even more robust contract and contingency surge capabilities that will 
allow for rapid expansion to a registration intake capacity of up to 
200,000 per day. FEMA's Internet-based and telephone 800# registration 
capability have been increased, allowing us to handle more 
registrations than ever before. This increased capability will help 
reduce registration wait times, allow more people to apply for 
assistance more quickly, and make Helpline agents available immediately 
to provide callers follow-up information on their applications.
    Deterring Fraud, Waste and Abuse.--While FEMA's primary concern is 
always helping the disaster victim, we are also committed to being a 
good steward of taxpayer dollars. FEMA now conducts real-time identity 
and address verification during the registration process, for both 
internet and phone applications, providing another--but expedient--
layer of verification to minimize waste, fraud and abuse. This identity 
and occupancy verification is accomplished with systems interface with 
the databases designed to assist us catch errors and prevent fraud. Our 
system now also identifies types of property to prevent registrations 
from invalid addresses such as post office boxes, vacant lots and 
commercial properties. FEMA has also instituted changes to the 
expedited assistance program, which is the most susceptible to fraud 
and abuse, by requiring additional verifications and placing a $500 cap 
on this immediate, short-term assistance. We have also put a hold on 
our debit card program until enhanced security measures can be put in 
place. FEMA has worked with our volunteer organization partners to 
create an authorization program for extended stays in hotels that may 
result from a catastrophic incident. This program will prevent the 
abuses seen when the program transitioned from Section 403 (Public 
Assistance) to Section 408 (Individual Assistance) following Hurricane 
Katrina. These measures will help protect the government from fraud, 
waste and abuse while still providing assistance to disaster victims in 
the most expeditious manner possible. Almost $115 million in FEMA-
provided assistance has been approved for recoupment; to date we have 
recovered over $3 million.
    Piloting Deployable Mobile Registration Intake Centers (MRICs).--
Recognizing that many disaster victims may be stranded or in congregate 
care shelters with no power and/or communications, and unable to 
register for assistance, FEMA is piloting a new program in the 2006 
hurricane season that uses Mobile Registrations Intake Centers. The 
MRICs will immediately deploy to large congregate care shelters and 
other areas with large numbers of individuals displaced in the 
aftermath of a disaster and provide an on-site capability to quickly 
register for FEMA assistance. Both laptops and cell phones will be made 
available with the MRICs for people to register online or call our 
800#.
    Expanding Home Inspections Capacity.--For many applicants, moving 
forward in the recovery process does not begin until they are able to 
get back into their homes. FEMA's Individual and Household Assistance 
program provides disaster victims the financial resources to begin 
their recovery. Except for Expedited Assistance, these funds become 
available only after we have physically inspected the applicant's home 
and recorded eligible losses. In the next few months, FEMA will award 
new inspection contracts that will nearly triple the current daily home 
inspection capacity from 15,000 per day to 40,000 per day. This added 
capacity will increase the speed of delivering grant assistance to the 
applicants.
    Disaster Assistance Policy Review.--Based on this past year's 
experience we are developing new policies and updating others to 
minimize confusion and maximize the timeliness of providing help to 
disaster victims. We have clarified appropriate use and authorization 
of Stafford Act emergency sheltering funds (Section 403 assistance) 
versus disaster housing assistance funds (Section 408 assistance) for 
disaster victims. These new and revised policies will clarify State and 
local roles, improve communications with disaster victims, and 
facilitate the transition from sheltering to temporary housing.

                           IMPROVED LOGISTICS

    FEMA is working hard to develop a sophisticated, efficient, agile 
national logistics supply system capable of meeting emergent needs, 
responsive to trends, and anticipatory of long-term requirements. We 
want to ensure that the right commodities such as food, water and ice, 
can be provided at the right time and at the right place to meet victim 
needs.
    Increased Supplies for Surge Needs.--FEMA has improved its 
logistics and commodity distribution capabilities by replenishing and 
restocking essential disaster commodities at logistics and staging 
facilities. Compared to last year, FEMA's stockpiles of disaster 
commodities, namely food, water and ice, have been greatly increased. 
Last year, we had 180 truckloads of Meals-Ready-to-Eat (MREs) (10,000 
people served per day per truck) compared to 770 today. Also, we've 
increased our water and ice supplies by 150 and 300 percent, 
respectively, to serve up to one million people in a single week. FEMA 
headquarters signed an agreement in March with the Defense Logistics 
Agency to ensure procurement, delivery, and vendor managed inventories 
so that stockpiles of emergency meals, water, and plastic sheeting, as 
well as medical supplies and pharmaceuticals to assist FEMA's National 
Disaster Medical System and Urban Search and Rescue Task Forces, are 
available. For this year's hurricane season, there will be greater 
emphasis on providing commercial type meals with packaging similar to 
that used for MREs but that are better matched to the general 
population's nutritional and caloric requirements. In addition to 
replenishing and restocking essential disaster commodities such as 
water, ice, fuel, generators and tarps that FEMA has on hand at 
logistics and staging areas across the United States, FEMA will 
continue working with vendors to have a ready supply of needed 
commodities and assets for surge capability beyond FEMA's ``on hand'' 
capacity.
    New 21st Century Tracking System.--FEMA has implemented a new 21st 
Century tracking system, which includes a Global Positioning Systems 
program that will improve our visibility of disaster assets and 
commodities from requisition to delivery of disaster commodities within 
States, thus enhancing logistics management. This new capability, the 
Total Asset Visibility Project: Phase I, will provide FEMA with an 
improved ability to manage its inventory of certain commodities and to 
track the location of trailers carrying commodities such as water, ice, 
emergency meals, plastic sheeting, tarps, generators, cots, blankets, 
Joint Field Office kits, and material handling equipment distributed 
from the FEMA Logistics Centers in FEMA Region IV (Atlanta) and Region 
VI (Fort Worth). This tracking will provide real time status to FEMA 
and the States being assisted by this supplemental Federal assistance 
and will result in more effective and efficient delivery of relief 
supplies to disaster victims. FEMA will continue its efforts to expand 
this tracking system to encompass other centers. We plan to expand this 
capability nationwide.
    Leaning Forward Pre-Positioning of Commodities.--Building on a 
strong system of strategic pre-positioning of Federal commodities 
developed in the last 2 years for quick deployment of assets to 
hurricane-prone States, FEMA has been closely coordinating with the 
States to improve commodity delivery. States have been providing 
detailed information to FEMA regarding precise staging areas and points 
of distribution to the most valuable pre-determined locations to best 
reach populations in need. States will take ownership of Federal 
commodities and are charged with their distribution to individual 
citizens. While assets have been pre-positioned based on the needs of 
each State, the presence of goods (MREs, helicopters, ice, etc.) in one 
State does not mean that those assets are assigned exclusively to that 
State.

                  DEBRIS REMOVAL PROCESS ENHANCEMENTS

    The expeditious removal of debris is critical to the affected 
State's and local ability to quickly recover from disaster. In 
Hurricane Katrina, the debris volume was unprecedented. FEMA's Recovery 
Division is developing Debris Removal Process Enhancements to ensure 
that policies are applied consistently for cost-sharing for Federal 
contracting through the U.S. Army Corps of Engineers and local 
government contracting. Further, FEMA has established a Debris 
Contractor Registry website where debris removal contractors licensed 
in particular States can post their contact information. State and 
local governments can access this database for information about 
contractors whom they may pre-select for projects associated with 
disasters in their State or county. In addition, FEMA has developed 
various other guidance documents on debris removal for local 
governments. We also provide training on debris management, including 
contracting and monitoring to State and local governments. These 
initiatives reduce the confusion surrounding debris removal contractors 
and debris removal eligibility and allow debris removal operations to 
move ahead more quickly and with greater financial integrity.

                         PERSONAL PREPAREDNESS

    Although I am saving this for last, it is one of the most important 
aspects of readiness. While FEMA and other government organizations 
work to bolster capabilities and readiness for disasters, it has become 
increasingly essential for individuals and families to be prepared. 
Personal preparedness, regardless of Federal or local government 
capabilities, is always the best preparedness. Preparing for 72 hours 
after a disaster is not only recommended, it is expected. Hurricane 
Katrina has taught us all that first responders are often unable to 
enter a disaster site to perform rescue and life-saving activities due 
to dangerous conditions. All able-bodied people must assume greater 
responsibility for their safety and that of their loved ones and pets, 
especially during the hours immediately after a disaster. The more 
citizens can take care of themselves and their families during 
disasters, the more emergency managers will be able to develop plans 
and allocate resources to those who need them most. Individuals, 
employees, and families should go to Ready.gov or FEMA.gov to learn how 
to prepare their disaster kits and evacuation plans.
Conclusion
    As FEMA moves towards the 21st Century, we are working towards 
achieving an important goal, which is to make FEMA the preeminent 
emergency management agency. However, preparation for improved 
emergency management must be a continuous process, and I, my leadership 
team, and the men and women of FEMA are committed to continuous 
improvement. FEMA is dedicated to making additional significant 
enhancements beyond this hurricane season to further strengthen the 
Nation's preparedness and ability to respond and recover from 
disasters, whatever their cause. We look forward to continuing our 
partnerships with the States, tribal and local governments, as well as 
the private sector, community and faith-based organizations and 
individuals in strengthening our mitigation, preparedness, response and 
recovery for disasters.
    Going forward, FEMA will provide service of value by developing and 
improving our operational competencies and fostering a business 
approach to our operations, never losing sight of those we are 
committed to serving, the American public, in a compassionate way.
    Mr. Chairman, Ranking member, and Members of the Committee, thank 
you again for the opportunity to appear before you today. I would be 
pleased to answer any questions you may have.

    Senator Gregg. Thank you, and we will have some questions.
    Mr. Paulison. I am sure.
    Senator Gregg. But before we turn to our next witness, I 
would ask if Senator Byrd wishes to make an opening statement.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Yes, thank you, Mr. Chairman.
    It has been 5 years since the attacks on September 11. It 
has been 3\1/2\ years since the President and Congress created 
the Department of Homeland Security. It has been 1 year since 
the devastation of Hurricane Katrina. So the question before us 
today is this: Are we prepared? We know that we will be tested. 
It might be another hurricane. It might be an earthquake. It 
might be a pandemic influenza or a terrorist attack. No matter 
what it is, we will be tested. When disaster strikes, whether 
it is a natural disaster or a terrorist attack, our citizens 
will expect to get help from their government in their time of 
need.
    Just last year, the President designated 155 Federal 
disasters. Not a corner of our Nation has been left untouched 
by some disaster. More than 6,500 lives have been lost to 
disasters in the United States since 1979. Hurricane Katrina by 
itself was responsible for more than 1,300 deaths. When the 
Northridge earthquake hit California, FEMA was ready. When the 
Midwest had devastating floods, FEMA was ready. When domestic 
terrorists detonated a bomb in Oklahoma City, FEMA was ready. 
When foreign terrorists struck on 9/11, FEMA was ready. When 
anthrax spores from an unknown source brought death and fear to 
our country, FEMA and other Federal agencies were ready.
    Regrettably, 2\1/2\ years after the creation of the 
Department, when Hurricane Katrina struck the Gulf Coast, FEMA 
was no longer up to the task. The administration allowed FEMA 
to wither on the vine. The White House's report on lessons 
learned from Hurricane Katrina indicated that we need a 
preparedness vision and that we must create a culture of 
preparedness. The White House can use all kinds of catch 
phrases, but what we really need is to be ready. Ready to 
fortify structures to mitigate the loss of life and property, 
ready to deploy in advance of disasters, ready to respond, 
ready to help those affected by a disaster to recover.
    Prepare, mitigate, respond, and recover; one cannot be done 
without the other. I simply do not understand why the 
administration has broken FEMA into pieces, separated the 
preparedness and response missions, and failed to provide the 
agency with effective leadership.
    When Congress debated the law that created the Department 
of Homeland Security, I said this: ``Homeland security is a 
serious and dangerous matter involving the lives and 
livelihoods of millions of Americans.'' Well, that is as true 
today as it was then. I am frustrated with how long it has 
taken to build a coherent homeland security system. In the past 
year, the Department has taken many steps to improve our 
preparation and response capabilities, including hiring 
experienced leaders. However, I fear that we have not done 
enough. I fear that we are so focused on figuring out how best 
to respond to the last disaster that we are not preparing for 
the next potential disaster, no matter what it might be or 
where.
    So, I know your jobs are difficult. I look forward to 
hearing from you. I commend Chairman Gregg for calling this 
hearing.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator. I appreciate that 
statement.
    We will now turn to the Office of Preparedness, Mr. 
Foresman.

STATEMENT OF HON. GEORGE W. FORESMAN, UNDER SECRETARY 
            FOR PREPAREDNESS, DEPARTMENT OF HOMELAND 
            SECURITY
    Mr. Foresman. Good morning, Mr. Chairman, Ranking Member 
Byrd, and members of the committee. Thank you all for the 
opportunity to appear before you.

             PREVENTION, PROTECTION, RESPONSE AND RECOVERY

    We are here, as both you and Senator Byrd have said, to 
talk about the important work to strengthen the Nation's level 
of preparedness as it relates to the broad mission of 
prevention, protection, response, and recovery. Mr. Chairman, 
we are especially pleased that you are holding this important 
hearing today during September, which is National Preparedness 
Month. Today's hearing provides the backdrop to discuss the 
roles and progress of all levels of government to strengthen 
America's preparedness, clearly with a focus on the Department 
of Homeland Security. It is also a chance to reinforce the 
American public--to the American public that the 
responsibilities for our safety and security transcend 
government, the private sector, and the nonprofit sectors. 
Americans have a critical role for their own safety and 
security.
    Accordingly, with more than 1,100 partner organizations 
nationwide, we continue to work to educate citizens about the 
importance of personal preparedness while at the same time we 
are working across government and with the private sector to 
meet our obligations. One example of our outreach efforts came 
just yesterday as the Department announced a partnership with 
the American Association of Retired Persons, the American Red 
Cross, the National Organization on Disability, and the 
National Fire Protection Association. This joint effort allows 
us to broaden our message to older and disabled Americans, two 
particularly vulnerable populations, among many, that may bear 
the worst effects of any emergency or disaster.
    Mr. Chairman and members of the committee, this past June a 
study conducted by the Ad Council on behalf of the Department's 
Ready Campaign recorded positive increases in preparedness 
behaviors by individual Americans. It found that from 2005 to 
2006 the proportion of Americans who said that they had taken 
any steps to prepare for an emergency increased from 45 percent 
to 55 percent. The number who have taken steps to develop a 
personal disaster kit has risen 10 percent to 54 percent. And 
there has been a 7 percent increase, up to 39 percent, in the 
number of families who have sat down together and developed a 
family disaster plan.
    These numbers, while promising, are against the backdrop of 
91 percent of all respondents who say that it is very or 
somewhat important for all Americans to be prepared for 
emergencies and disasters. Clearly, those who know that they 
need to prepare are not fully prepared.
    There is more work to be done in government, the private 
sector, and with our citizens. But Mr. Chairman and members of 
the committee, we are seeing improvements in each of the 
categories: government, the private sector, nonprofits, and 
with the American public.

          PREPAREDNESS EFFORTS AT THE FEDERAL AND LOCAL LEVEL

    Accordingly, let me first briefly discuss our preparedness 
efforts at the Federal level, as Director Paulison has done and 
as Admiral Allen will do, and then I will offer some State and 
local snapshots. I want to note for the committee that, while 
we are focusing on today's discussions on the hurricane threat, 
the steps we are taking will have a direct impact on a wide 
range of efforts to prevent, protect, respond, and recover 
against the full range of hazards and threats that form 
America's risk environment.
    Since Katrina one of the most fundamental things that we 
have done with the White House, Senate, and House of 
Representatives after-action reports is to take the combined 
224 recommendations from those three reports and a host of 
others and identify those critical actions that had to be 
accomplished in advance of the upcoming hurricane season and 
those that will require more time. We are not simply 
documenting lessons. We are implementing the lessons.
    Secretary Chertoff and President Bush have made the 
accomplishment of these top priorities and are holding people 
accountable for progress. But I will note that our talented men 
and women in the Department are holding themselves accountable 
as well. We are here to meet the needs of our fellow citizens 
and we do this so that when they are in the face of adversity 
we are there to meet their needs. But we are also doing this 
through our support to local and State partners, who are the 
primary responders to any community that is in crisis.
    Secretary Chertoff's direction for the updates to the 
national response plan was very clear: to marginalize 
bureaucracy, streamline decisionmaking, and to make sure that 
the plan is responsive and robust. This will ensure that the 
national response plan will remain flexible enough to deal with 
the full range of unexpected events, including those like 
Katrina that are of a catastrophic nature.
    We also now, as Director Paulison said, have a common 
picture in place, with tools to make sure that the 
decisionmakers across the Federal Government, in coordination 
with our State and local partners, have the information needed 
to make mutually supportive decisions on a timely basis; 
information that will be critical in preparing for, responding 
to, and recovering from any emergency or disaster.

             PREVENTION, PROTECTION, RESPONSE AND RECOVERY

    In the aftermath of Hurricane Katrina, the nation-wide plan 
review was requested by this Congress and the President and it 
showed that we are not where we need to be as a Nation with 
regard to our shared responsibility to manage our readiness for 
catastrophic events. However, let me be very clear with the 
committee today. The findings of the nationwide plan review 
should not be construed in any way to reflect a lack of 
dedication or effort by individual States and communities. 
Rather, the survey and review reflects the lack of a shared 
national vision for how prepared we really need to be, both 
individually and collectively, in the absence of a 
comprehensive national approach to preparedness that has been 
present for more than two decades that I have been in this 
business.
    Mr. Chairman, members of the committee, I would offer that 
I have been in this business for nearly a quarter of a century, 
and until the development and release of the national response 
plan in conjunction with the national preparedness goal, in 
conjunction with the 15 planning scenarios, and in conjunction 
with the target capabilities list, America did not have a 
shared vision of what constituted preparedness among all 
relevant stakeholders. We do now, and we are building on this 
each and every day, the same way a home is built, piece by 
piece using blueprints.
    This new and unified integrated approach allows 
communities, States, and the private sector and the Federal 
inter-agency to be focused on the same destination; a shared 
culture of preparedness. Preparedness cannot simply be a name 
on an organizational chart or a step in a continuum of actions. 
It must be a culture that drives by its very nature what we do 
to integrate the various actions we must take as a Nation to 
manage risk.
    Mr. Chairman, in closing let me say that there is a new 
paradigm of leadership inside of the Department of Homeland 
Security. Sitting before you today represents 90 years of 
leadership in crisis management, from search and rescue to 
firefighting, to disaster response to dealing with terrorist 
attacks. The leadership team that is before you at this table 
is representative of the experienced team that Secretary 
Chertoff has assembled at the Department of Homeland Security.
    At the end of the day, the American people care less about 
plans and processes and more about success and action. Success 
and action depend on good strong quality leadership. The 
President has led by example, as evident not only in the number 
of visits to the gulf coast region, but in the number of 
meetings that he has had with Secretary Chertoff and the 
Department to ensure that the Nation's preparedness, 
particularly for this hurricane season, is where it needs to 
be.
    We are being held accountable. We look forward to 
continuing to be held accountable as we seek to strengthen 
America's readiness.
    Thank you once again for providing me the opportunity to 
speak with you today and for your continued support to the 
Department in our broad-range missions to prevent, protect, 
respond, and recover. I along with my colleagues, Director 
Paulison and Admiral Allen, look forward to the questions that 
you will have for us.
    [The statement follows:]

                Prepared Statement of George W. Foresman

Introduction
    Good morning Chairman Gregg and Senator Byrd. Thank you for the 
opportunity to appear before this Committee to discuss the important 
issue of our Nation's level of preparedness as it relates to 
prevention, protection, response, and recovery.
    While much focus has been placed on hurricanes in light of Katrina, 
the Department of Homeland Security is taking steps to ensure that we 
pursue a broader national preparedness agenda that focuses on an all-
hazards risk management approach. Our focus is not simply one of 
looking to the last emergency or disaster to identify enhancements 
needed. The Department now has a sustained process that unites lessons 
from crises past and current and increases our understanding of those 
that loom on the horizon and beyond. It is an effort that cuts across 
all threats and hazards. Key to this effort is the understanding that 
national preparedness actions must complement and not conflict with 
State and local activities, and that these actions require sustained 
commitment among Congress, Federal agencies, local and State 
governments, the private sector, and the American people.
    We have made considerable progress as a Department in strengthening 
and uniting the pieces that collectively encompass what must become a 
``culture of preparedness.'' To many, preparedness is simply a name on 
an organizational chart, or a step in the cycle of emergency 
management. It must be more. Secretary Chertoff said in announcing the 
Second Stage Review that in the broadest sense, preparedness has a role 
in enhancing the full range of capabilities in the Department of 
Homeland Security. This guides our efforts working every day to 
internally connect the full capabilities of the Department better, 
including with our external partners. But there is more to be done. For 
starters, individual responsibility is a big piece to this big picture.
    The Department approaches individual responsibility from the ground 
up and the top down. The Citizen Corps program, established under the 
USA Freedom Corps initiative shortly after 9/11, operates in every 
State and all 6 U.S. territories at the community level to empower 
every American to take responsibility for his or her safety and 
security--as well as that of their neighbors. This is important. A 
better prepared America will be achieved when government, the private 
sector, and the American people each do their part.
    One of Citizens Corps more successful efforts has been the 
establishment of Citizens Emergency Response Teams, or CERTs. These 
teams, made of ordinary citizens, are trained in such topics as; Fire 
Safety, Search and Rescue, and Disaster Medical Operations. After 
completing training, these teams act to support their local communities 
by assisting the various emergency agencies that prepare for and 
respond to disasters.
    In 2003 the Department of Homeland Security and the Advertising 
Council launched Ready, a national public service advertising campaign 
designed to educate and empower Americans to prepare for and respond to 
emergencies including natural disasters and potential terrorist 
attacks. The goal of the campaign is to get the public involved and 
ultimately to increase the level of basic preparedness across the 
Nation. We understand that government is expected to act decisively in 
the face of adversity. The American people must as well.
    September is National Preparedness Month. To highlight this, the 
Department has engaged local, State and Federal officials as well as 
community, business, and nonprofit partners to join us in our effort to 
educate Americans about emergency preparedness and encourage them to 
make their own ``individual'' plans. As an example, the Department 
recently announced a partnership with AARP, the American Red Cross, the 
National Organization on Disability, and the National Fire Protection 
Association. This joint effort allows us to broaden our message to 
older and disabled Americans, two of many particularly vulnerable 
populations that may bear the worst effects of any disaster.
    Additionally, Citizen Corps Councils and its Program Partners and 
Affiliates across the country have organized outreach efforts, training 
opportunities, and exercises on all-hazards preparedness to bring 
National Preparedness Month home. As of August 30:
  --674 events are registered on the Citizen Corps calendar, including 
        19 national events.
  --All 50 States and three out of six territories have registered 
        events.
    This past June, a study conducted by the Ad Council on behalf of 
the Department's Ready Campaign recorded significant positive increases 
in preparedness behaviors by individual Americans. It found:
  --From 2005 to 2006, the proportion of Americans who said they have 
        taken any steps to prepare for an emergency rose 10 points, 
        from 45 percent to 55 percent
  --91 percent of respondents said it is ``very'' or ``somewhat'' 
        important for all Americans to be prepared for emergencies
  --There were also several notable increases in key preparedness 
        behaviors from 2004 to 2006:
    --Put together an emergency kit: 44 percent in 2004 to 54 percent 
        in 2006
    --Created a family emergency plan: 32 percent in 2004 to 39 percent 
        in 2006
    --Searched for info about preparedness: 28 percent in 2004 to 40 
        percent in 2006
    While there is still a long way to go to ensure that all Americans 
have taken steps to prepare, there are strong indications of progress. 
Mr. Chairman, as buoyed as we are with the progress we have made among 
the American people, we recognize that our Nation's preparedness is a 
shared national responsibility.
    Accordingly, let me first discuss what we are doing at the Federal 
level, then offer State and local snapshots before my esteemed 
colleagues Admiral Thad Allen, Commandant of the United States Coast 
Guard and the Federal Emergency Management Agency's Director Dave 
Paulison, discuss in further detail, specific hurricane preparedness 
activities related to their components.
Implementation of Katrina's Lessons: Federal Perspective
    Despite advances made after 9/11, Hurricane Katrina demonstrated 
that as a Nation we are not truly ready to respond to a catastrophic 
event. Since Katrina, one of the most fundamental things we have done 
with the White House, Senate, and House of Representatives After Action 
Reports, is to take the combined number of recommendations (224) from 
the three reports and identify the critical actions that had to be 
accomplished in advance of the upcoming hurricane season--above all 
else. Secretary Chertoff and President Bush have made the 
accomplishment of these actions top priorities and are holding people 
accountable for progress.
    Forty two percent of the recommendations included in the White 
House, Senate, and House of Representatives Hurricane Katrina After 
Action Reports centered on the need for improved planning--an area 
which has not traditionally been the top funding priority for States. 
As the After Action Reports' recommendations indicate, States need to 
increasingly focus their resources on planning activities. The 
Department is furthering its emphasis to better target Federal 
resources on planning modernization.
    I would also like to acknowledge that we have made critical changes 
to the National Response Plan identified by the Administration and 
Congressional reports. Secretary Chertoff's direction was clear--to 
marginalize bureaucracy and streamline decision-making, and to make 
sure that the plan is responsive and robust--and able to deal with the 
full range of expected events including those that are catastrophic.
    DHS and its partner agencies have also further clarified the 
concept of the Principal Federal Official (PFO) and the Joint Field 
Office (JFO). When a declared Incident of National Significance (INS) 
overwhelms a single jurisdiction or has region-wide impact, effective 
response hinges on combined action and a centralized coordination 
structure. We have taken the initiative to better co-locate local, 
State, and Federal authorities into one Joint Field Office (JFO) to 
better integrate command, streamline communication and situational 
awareness and improve coordination. Admiral Allen will talk about these 
important organizational modifications in greater detail.
    We also now have a Common Operating Picture (COP) in place with 
tools to make sure that the decision makers across the Federal 
Government in coordination with our State and local partners have the 
information they need to make mutually-supportive decisions on a timely 
basis. Everyone must have access to the best information possible as 
quickly as possible.
    It's important to note that at the Assistant Secretary level, the 
Deputy Secretary level, and at the Cabinet Secretary level, a series of 
table top exercises have been conducted over the past four months to 
ensure our ability to integrate across the Federal interagency a 
comprehensive Federal response to a national hurricane threat. The 
progress made by Dave Paulison and his team at FEMA, in logistics 
management enhancements, and the work of Admiral Allen and his team at 
the U.S. Coast Guard on search and rescue coordination represent just 
two examples of how lessons learned from Katrina are translating into 
departmental action. It is not just FEMA preparing for hurricane 
season--it's the entire Department of Homeland Security and the Federal 
Government.

State and Local Coordination for Preparedness
    States and communities in America do an exceptional job every day 
in dealing with the vast majority of emergencies. In the aftermath of 
Hurricane Katrina, the Nationwide Plan Review requested by this 
Congress and the President showed that we are not where we need to be 
as a Nation with regard to our shared responsibility to manage 
catastrophic events. However, that shortfall should not be construed in 
any way to reflect a lack of dedication or effort by individual States 
and communities. Rather it reflects the lack of a shared vision for how 
prepared we really need to be--individually and collectively--and a 
shared system for comprehensive national approach to preparedness to 
focus our efforts and provide the standard tools and processes we need 
to get us there.
    In an evaluation of whether States' basic plans outlined a general 
sequence of actions before, during, and after a catastrophic incident, 
only 41 percent of States were rated as ``Sufficient,'' 54 percent were 
considered ``Partially Sufficient,'' and 5 percent were rated ``Not 
Sufficient.'' The Nationwide Plan Review serves as an important 
baseline assessment of current capabilities for catastrophic events 
nationwide. This information will help us target resources such as 
Federal grants, technical assistance, training, and exercises with our 
local, State, and private sector partners.

An Integrated Approach
    Until the promulgation of the National Response Plan in conjunction 
with the Interim National Preparedness Goal, 15 National Planning 
Scenarios, and the Target Capabilities List, we did not have a shared 
national vision of preparedness so that communities, States, the 
private sector and the Federal interagency community could all be 
focused on the same goal, a shared culture of preparedness.
    Another key change being made at the department is an integrated 
Federal agency, and an intra-Departmental approach to preparedness. 
Just several weeks ago in the midst of a major terrorist threat to 
America, the focus of the Department was making sure that we were 
working with both our Federal inter-agency and our State and local 
partners to put in place stringent measures necessary to prepare for a 
possible terrorist attack. While the Transportation Security 
Administration was implementing measures to protect and prevent, FEMA 
was developing contingency plans for response and recovery. FEMA would 
have played a role in coordinating Federal response in support of State 
and local authorities had the plot not been thwarted.
    Preparedness is not simply about getting ready for disasters. 
Preparedness is about uniting all of our tools of national power to 
manage risk. As Admiral Allen will discuss in greater detail in the 
context of specific U.S. Coast Guard initiatives, interagency 
coordination and outreach are critical activities for our success in 
advancing a national culture of preparedness.
    We have a collective vision now. We are beginning to see improved 
coordination of like missions and assignments across a multitude of DHS 
entities that are responsible for prevention and protection and 
response and recovery--whether it's FEMA, TSA, Infrastructure 
Protection, Customs and Border Protection or other components. We are 
targeting our Federal operational readiness, risk management, 
information flow, and grant programs with State and local and private 
sector partners in a manner that fosters coordination and cooperation. 
Keeping American safe and secure requires interdependence, not 
independence.
    One example of this intersection is the collaboration that is 
happening in the Southwest border States. The Office of Grants and 
Training, Customs and Border Protection, and Immigration and Customs 
Enforcement are offering critical support to State and local 
governments so that they can support our efforts to secure the Nation's 
borders.
    Another example is the ability to leverage satellite technology. 
This technology will help Admiral Allen in the case of an oil spill off 
the coast of America. It will help Director Paulison be better able to 
define the parameters of a major natural disaster and will also give us 
the tools to understand the vulnerabilities if we become aware of 
terrorist a plot targeting a specific facility.

A Risk Based Approach to Providing Grants
    The Department, prior to Katrina, recognized the need for a more 
risk-based approach in delivering Federal resources to cities and 
States. Therefore, we have incorporated a system of assessing risk as a 
large factor in determining how to better target limited resources to 
address the most pressing threats throughout the Nation. Risk analysis 
is a dynamic process. Our data collection and analysis methods are 
designed to inform grant decision making in the face of an evolving and 
complex 21st Century risk environment.
    In this same vein we have targeted funding to much of the Gulf 
Coast this hurricane season in recognition of the greater 
vulnerabilities and vacillating infrastructure there. The Federal 
Government has provided more than $110 billion in resources to the Gulf 
Region. This funding is helping fulfill vital needs, including 
relocation, rental assistance, infrastructure repair, flood insurance 
payments, education, and debris removal. Over $77 billion of the $110 
billion (or 70 percent) either has been dispensed or is available for 
States to draw from.
    This is critical because our ability to help restore the Gulf Coast 
infrastructure will increase their resiliency and ability to prepare 
for another hurricane.

Improved Coordination with the Private Sector
    We are taking a collective integrated approach to a vision of 
``national preparedness'' through our collaborative effort with the 
private sector. Last month our cyber security experts worked quietly 
with their counterparts at Microsoft to address a critical software 
vulnerability. In the interim between identification of the 
vulnerability and development of the solution, the Department was 
closely monitoring Internet activity for additional exploitation of the 
vulnerability. Once a patch was available, the Department's U.S. 
Computer Emergency Readiness Team (US-CERT) coordinated an alert with 
Microsoft. DHS issued an alert through the National Cyber Alert System 
urging the public, private industry, as well as Federal users to apply 
the security patch in order to protect their systems. Overshadowed in 
the news media by the successful foiling of the U.K. terror threat, 
this collaboration is typical of the kind of behind-the-scenes, day-to-
day public-private activity taking place in cyber security and many 
other areas of preparedness.

Conclusion
    Mr. Chairman, based on my nearly 25 years of professional 
involvement in preparedness, I have never seen the Federal Government 
in a stronger posture: more institutionally and organizationally 
integrated; more forward leaning; more capable of leveraging the 
comprehensive tools of national power; and finally, more prepared to 
initiate, anticipate, and respond to the threat continuum. We get 
better each and every day.
    There is a new paradigm of leadership inside the Department of 
Homeland Security. Sitting before you today represents 90 years of 
leadership in crisis management. From search and rescue to fire 
fighting to disaster response, to dealing with terrorist attacks, the 
leadership team that is before you at this table is an archetype of the 
phenomenal leadership that Secretary Chertoff has assembled at the 
Department of Homeland Security.
    At the end of the day, the American people care less about plans 
and process and more about success and action. Success and action 
depend on good, strong, quality leadership. The President has led by 
example as evident in not only the number of visits to the Gulf Coast 
region but also in the number of meetings he has had with Secretary 
Chertoff to address the Nation's preparedness, particularly on 
hurricane preparedness. President Bush is holding the Department 
accountable by setting high expectations, and we are working hard to 
meet those expectations.
    In addition to ensuring the safety of the American people, and 
regaining their trust, we are making significant progress towards 
transitioning Americans away from preparing for the challenges of next 
week, and instead preparing for the challenges of the next decade.
    Thank you once again for providing me the opportunity to speak with 
you today and for your continued support to the Department. I look 
forward to answering any questions you may have.

    Senator Gregg. Thank you. I appreciate that presentation.
    We now turn to Admiral Allen. Before you speak, Admiral, 
let me just say that obviously the Federal Government deserved 
and received a significant amount of criticism for the way 
Katrina was handled. But the one shining light in the whole 
effort was the Coast Guard. Specifically, your personal 
leadership of the Coast Guard and your stepping in to actually 
personally lead the efforts in Katrina recovery. The country is 
very lucky to have you in service and we are very fortunate to 
have the Coast Guard as a resource.
    Admiral Allen.

STATEMENT OF ADMIRAL THAD W. ALLEN, COMMANDANT, UNITED 
            STATES COAST GUARD, DEPARTMENT OF HOMELAND 
            SECURITY
    Admiral Allen. Thank you, Mr. Chairman. It is an honor to 
be here today. Senator Byrd, thank you for the opportunity.
    I prepared a written statement. With your permission, sir, 
I will submit that for the record and make a very brief oral 
statement.
    The Coast Guard is unique within the Federal community of 
responders in that disaster response is just a higher tempo, 
more complex variant of what really our day to day missions 
are. We plan and prepare and respond under operational doctrine 
and we continually revise that based on operations and lessons 
learned, which we have since Katrina and other operations.
    Our historical and institutionalized relationships at the 
sector and district levels across all of our missions and, 
quite frankly, all of our stakeholders are a force multiplier 
for us. They significantly enhance communication and 
coordination during an event and they create interoperability, 
especially where we have created joint harbor operations 
centers.
    We are able to create an adaptive force package to each 
event that takes the particular hazard, incident, or threat and 
be able to counter that with a Coast Guard asset or capability 
that is equal to the challenge. As we speak, we have a force 
package sortieing to Wake Island to survey damage in the wake 
of the passage of Typhoon Ioki. In this case we diverted a 
high-endurance cutter that was under way in the area. They went 
to Kwajalein Atoll. They rendezvoused with a C-130 launched out 
of Barber's Point carrying extra boats and hazardous team 
response personnel. As a result, we were able to mount a 
response 2,000 miles from Hawaii within a matter of hours of 
the passage of the storm. I would also add that this was 
executed under a request for forces from the U.S. Pacific 
Command to the Department of Homeland Security and underscores 
our coordination and interoperability with the Department of 
Defense.
    Finally, I would say that we have learned through our 
experience, starting with the Exxon Valdez spill in 1989, our 
response operations in 9/11, our recovery operations in the 
hurricane season of 2005, and the recent oil spill down in Lake 
Charles, Louisiana, that our preparedness planning must also 
include the restoration of the maritime transportation system 
so that a natural or manmade disaster does not become an 
economic disaster that would be caused by a port closure.
    Finally, regarding the Coast Guard's role in the Department 
of Homeland Security: Sitting beside the leadership team with 
me here today, working with Dave Paulison in FEMA, my 
colleagues in Customs and Border Protection and Immigration and 
Customs Enforcement, we have never been more united closely 
with this leadership team and worked more closely in my career 
in the Coast Guard. We are in the right Department with the 
right team.
    Thank you, sir.
    [The statement follows:]

                Prepared Statement of Admiral Thad Allen

    Good morning Mr. Chairman and distinguished members of the 
Committee. It is a pleasure to appear before you today to discuss the 
preparedness of the Coast Guard today compared to 1 year ago.

Introduction
    Over the course of its celebrated history, a number of significant 
events have shaped the missions and structure of the United States 
Coast Guard. For example, when steam engine technology dominated 
maritime commerce in the mid-19th century, a series of horrific steam 
accidents in the unregulated industry led to the passage of the 
Steamboat Act of 1852 and a precursor to today's Coast Guard marine 
safety missions. Similarly, the tragic sinking of the HMS Titanic in 
1912 provided the impetus for the Coast Guard's ice patrol duties in 
the North Atlantic, a mission that is still executed today. However, 
the events of September 11, 2001, brought the Coast Guard to face its 
greatest operational challenges and potential for change in its role as 
the Nation's premier maritime guardian. While in the throes of 
adjusting its roles to focus on threats from global terrorism, the 
Coast Guard was again faced with scrutinizing its missions and 
capabilities after the passing of Hurricanes Katrina and Rita. One year 
later, the Coast Guard, as part of the Department of Homeland Security 
(DHS), is working closer than ever with our Federal, State and local 
partners to better prepare to respond and recover from any major 
disaster, with clear lines of command and control that have bolstered 
our protection of America. The Coast Guard's continued improvement in 
emergency preparedness can be summarized under three important and 
related areas: (1) changes in its organizational structure, (2) 
refinements in its planning processes and products, and most 
importantly, (3) substantial progress towards fostering interagency 
cooperation.

Winds of Change
    The Coast Guard has traditionally been described as ``the small 
service with the big job.'' This is an understatement considering the 
disparate missions that the Coast Guard tackles on a daily basis: 
marine safety; aids-to-navigation (ATON) maintenance; search and rescue 
(SAR); living marine resources (fisheries law enforcement); ice 
operations; environmental protection; ports, waterways and coastal 
security; drug interdiction; migrant interdiction; other law 
enforcement; and defense readiness. As the events of 9/11 and Hurricane 
Katrina showed, many of the Coast Guard's traditional missions can be 
significantly stretched or modified during catastrophic events. For 
example, the entire aids to navigation system in a particular waterway 
may be destroyed in a major hurricane, thereby inhibiting the recovery 
of maritime traffic flow. Not only will the Coast Guard have to replace 
this critical infrastructure, but it may also be called upon to assist 
the Army Corps of Engineers in removing a staggering amount of waterway 
debris. Major incidents may require the Coast Guard to simultaneously 
perform an increased number of rescues, shuttle vital supplies to 
devastated areas, and enforce safety and security zones to protect life 
and critical infrastructure.
    Today, the Coast Guard is preparing to respond to threats ranging 
from waterborne terrorism to a possible avian influenza pandemic by 
adopting new strategies for enhancing its effectiveness. As a member of 
the Department of Homeland Security, the Coast Guard recognizes that 
these additional responsibilities dictate that it must perform its 
missions in coordination with other agencies, and in a management 
framework that is different from its previous model of separate 
operational and marine safety divisions. Now more than ever, effective 
communications, properly trained personnel, and ``state of the art'' 
equipment/platforms are vital to the Coast Guard to optimize its 
contributions with other agencies in responding to a major emergency.

Organizational Modifications
    Adhering to the spirit of the National Response Plan (NRP), the 
Coast Guard typically manages maritime incidents at the lowest level 
possible. Consequently, the Coast Guard relies on a port-centric 
approach to address its responsibilities under the NRP. This approach 
incorporates three layers of leadership and coordination: a field 
level, a regional level, and a national level. The field level bears 
the primary responsibility for managing an incident, while the regional 
and national components provide resource and policy support as 
requested or recognized. As an incident grows in complexity, or during 
a catastrophic event, the Coast Guard responds by activating a number 
of additional mechanisms in each of the three command layers.
    This multi-tiered approach ensures that the Coast Guard can deliver 
its best response to an incident, and address the myriad of issues that 
will affect municipal, State, and Federal interests. During a major 
event, such as an Incident of National Significance, disciplined and 
well-staffed participation in all three layers coordinates a number of 
priorities, such as:
  --Ensuring field units receive the resources and support needed to 
        confront the incident;
  --Collecting the most up-to-date and accurate information possible 
        between the field and the top leadership elements of the Coast 
        Guard and DHS; and
  --Maintaining full cooperation and partnership with other 
        governmental and non-governmental organizations involved in the 
        emergency.
    One of the most important organizational changes that the Coast 
Guard has pursued in its three-tiered prevention and response structure 
has been the creation of Sectors. First envisioned in 2004, the Sector 
concept was adopted to consolidate the Coast Guard's operational 
resources and missions under a single command umbrella for a particular 
portion of the United States. The major thrust of this reorganization 
is at the field level. In describing the Sector Model for an article in 
Coast Guard Magazine, Mr. Michael Shumaker writes:
    The new Sector organizational construct represents a transformation 
from a Coast Guard traditionally organized around its operational 
programs to one organized around core operational service delivery 
processes. It focuses the coordinated efforts of all assigned 
operational capabilities to accomplish Coast Guard mission objectives. 
It recognizes that in a broad sense, all Coast Guard operational 
activities focus on prevention of an incident or illegal event, or on 
response to an emergency where prompt action mitigates loss of life or 
property, or adverse impact.
    The Coast Guard has nearly completed its implementation of the 
Sector construct across the country. By the end of calendar year 2006, 
40 Marine Safety Offices, 39 Group Commands, 3 Activity Commands, 9 
Vessel Traffic Service Commands, and a few Air Stations will be 
consolidated into 34 distinct Sector Commands. Within ports, the 
Sectors will offer ``one-stop shopping'' for all Coast Guard interests 
and needs presented by other agencies and the public. The regional and 
national command tiers of the Coast Guard have also changed to better 
align with this Sector construct. In January 2006, Coast Guard 
Headquarters undertook a major reorganization of its offices and formed 
three primary directorates to support the Sectors: Response, 
Prevention, and Policy. Finally, Coast Guard Auxiliary sub-regions are 
also aligning their geographic and organizational boundaries to better 
facilitate communications and support to the Coast Guard commands.
    In the past year, the Coast Guard implemented another important 
organizational modification. Based on the lessons learned from 
Hurricane Katrina, DHS and its member agencies solidified the concept 
of the Principal Federal Official (PFO) and the Joint Field Office 
(JFO). During a major incident response, these two entities provide the 
vital coordination and communication between all affected stakeholders. 
Hence, they are cornerstones of the Coast Guard's emergency management 
at the regional command level during a major hurricane or other 
disaster. Designated by the Secretary of Homeland Security, the PFO 
does not become the Incident Commander, nor does the PFO have direct 
authority over the Senior Federal Law Enforcement Officer (SFLEO), 
Federal Coordinating Officer (FCO), or other Federal and State 
officials. Rather, the PFO is tasked with the following 
responsibilities:
  --Ensure that incident management efforts are maximized through 
        effective and efficient coordination;
  --Serve as a primary point of contact and situational awareness 
        locally for the DHS Secretary; and
  --Serve as a channel for media and public communications and as an 
        interface with appropriate jurisdictional officials.
    The PFO is an established tool in emergency response. The Coast 
Guard has been asked to assume the role for five of the six nation's 
pre-designated PFOs for the 2006 hurricane season. As part of the 
ongoing efforts to enhance this new leadership concept, PFOs from both 
the Coast Guard and FEMA have engaged in integrated training to better 
define the position's roles and responsibilities.
    The PFO is supported by the JFO. The JFO is the interagency office 
established with the PFO to support Federal and State response and 
recovery operations. Consequently, Coast Guard personnel will provide 
staff support to this entity, alongside other State and Federal 
representatives, to address the various Emergency Support Functions 
(ESFs) involved in an incident under the NRP. In shouldering its share 
of responsibilities for the JFO concept, the Coast Guard identified its 
primary JFO team members throughout the country and delivered the 
nationwide JFO training during the summer of 2006.
    Based primarily on the realities of resource needs resulting from 
9/11 and Katrina, the Coast Guard continues to review and expand its 
Auxiliary and Reserve force deployment organization and policies as 
well. Reserve and Auxiliary personnel were absolutely critical for 
carrying out the Coast Guard's responsibilities after Katrina. Over 680 
Reservists mobilized in support of the storm's response operations. 
Regular-duty Coast Guard personnel assigned across Louisiana were 
devastated by the effects of the hurricane. The rapid activation of 
Coast Guard Reserve personnel allowed the affected members time to 
attend to their personal hardships while the Coast Guard continued to 
carry out its missions. In another example of continuous improvement 
and to fully capitalize on the capabilities of all members of the Coast 
Guard family, Coast Guard Auxiliarists are now included in the Coast 
Guard's formal Contingency Planner schools, where they can bring a 
unique out-of-service perspective in the development of the Coast 
Guard's policies and directives.

Planning and Training Initiatives
    The Indian diplomat Vijaya Lakshmi Pandit \1\ (viji'u lak'shme 
pun'dit) once stated, ``The more we sweat in peace, the less we bleed 
in war.'' Echoing this concept, the Coast Guard continues to institute 
new and refine existing mechanisms for emergency response planning and 
training. Events in the past five years have starkly shown the 
importance of developing a coordinated and rehearsed response structure 
in all levels of government. Taking its cue from the NRP, the Coast 
Guard is developing a number of initiatives and is supporting a range 
of interagency contingencies to support a robust national emergency 
management structure.
---------------------------------------------------------------------------
    \1\ Pandit, Vijiaya Lakshmi (vijiu lak'shme pun'dit) [key], 1900-
1990, Indian diplomat, sister of Jawaharlal Nehru. She was leader of 
the Indian delegation to the United Nations (1946-51), ambassador to 
the Soviet Union (1947-49) and to the United States (1949-51), 
president of the UN General Assembly (1953-54), and India's high 
commissioner to the United Kingdom (1955-61).
---------------------------------------------------------------------------
    For over a decade, the Coast Guard has been dedicated to 
integrating the National Incident Management System (NIMS) and Incident 
Command System (ICS) within the foundation of its business plan. The 
efforts bore fruit, and today the Coast Guard is recognized as a 
leading component in DHS in its understanding and implementation of the 
ICS concept. All Coast Guard personnel are now required to complete ICS 
Level 100 and 200 training, as well as a familiarization with the NRP. 
This training has expanded to include all elements of the Coast Guard 
family; the Coast Guard Auxiliary has increased the number of its ICS 
100/200 trained members by over 125 percent in the last year alone.
    In addition to implementing ICS service-wide, the Coast Guard is 
addressing its planning and training responsibilities in other specific 
areas. The massive rescue efforts conducted in the aftermath of Katrina 
underscored the need for emergency planners to re-examine the mass 
evacuation and rescue annexes of the NRP. Consequently, the Coast Guard 
is working closely with FEMA and other agency planners in expanding the 
scope and language of Emergency Support Function (ESF) #9, which 
currently addresses only Urban Search and Rescue. Coast Guard members 
participating in these ESF #9 Working Groups and Hurricane Evacuation 
Working Groups are developing new policies and increasing awareness 
concerning coordinated search and rescue, and evacuation initiatives. 
These new changes will be reflected in the upcoming update of the NRP.
    As for new projects being implemented, the Coast Guard is working 
closely with DHS, DOD and other agencies to ensure Coast Guard's 
contingency capabilities and readiness architecture are aligned with 
and integrated into the national preparedness goals of aligning Federal 
capabilities with State and local level needs in disaster preparedness. 
Key areas of emphasis include development of a detailed catalogue of 
tasks the Coast Guard performs in support of specific missions (Mission 
Essential Task List (METLs)), and a larger catalogue of all tasks we 
perform across all mission areas (Universal Task List).
    Other Coast Guard planning components continue to focus on the 
importance of protecting the Nation's critical infrastructure and 
operations during a major emergency. The Coast Guard continues to be a 
major player in the Marine Transportation System (MTS) where the 
service has established MTS Recovery/Surge Units to address post-event 
issues related to infrastructure assessment and recovery. In expanding 
the awareness of this topic, the Coast Guard organized an August 2006 
MTS Recovery Symposium involving a variety of agency and industry 
partners. The Coast Guard is also actively involved in five DHS work 
groups addressing a potential future pandemic influenza. In this area, 
the Coast Guard has been diligently working to address two important 
concepts: (1) supporting Federal quarantine policies and procedures, 
and (2) protecting the operational readiness of all Coast Guard 
personnel. The Coast Guard is working to allocate over $3 million of 
supplemental appropriations earmarked by DHS to develop pandemic 
influenza policies, resource allocation, and training and exercise 
support.
    Coast Guard Sectors continue to develop planning and preparedness 
initiatives related to the historic events of the past 5 years. 
Planning elements in the Sectors continue to work through Local 
Emergency Planning Committees, Area Planning Committees, Area Maritime 
Security Committees, Harbor Safety Committees, Joint Terrorism Task 
Force Offices, Regional Response Teams and other venues to develop and 
strengthen partnerships with Federal, State, local, and tribal 
responders. Through these collaborative efforts, the Coast Guard is 
able to develop and refine contingency plans, exercises, and policies 
that are tailored to address local political, geographical, and 
logistical needs. These planning committees are a vital component in 
keeping the Coast Guard ready for any type of emergency in any U.S. 
location.
    Internal and external training exercises continue to be the bedrock 
for the Coast Guard's emergency preparedness posture. For example, in 
an effort to better prepare the East and Gulf Coast regions for this 
year's hurricane season, the Coast Guard partnered with other agencies 
in a series of exercises held from May through June 2006. Sponsored by 
DHS, the Coast Guard participated in table top exercises held in six 
different FEMA regions, a full-scale exercise in Louisiana, and a 
Catastrophic Assessment Task Force Exercise held in Washington, D.C. 
These exercises addressed key lessons contained in reports released 
after Katrina by the White House, Congress and the Government 
Accountability Office (GAO). Focusing on the integration and 
coordination of different response disciplines like fire, public works, 
private industry, and emergency management, PFOs and senior State 
officials benefited from an environment of frank candor. Other 
preparedness exercises continue to focus on many of the Coast Guard's 
long-standing responsibilities. The Coast Guard is one of the primary 
facilitators of the New Madrid 2007 Spill of National Significance 
(SONS) Exercise. This will be the first SONS exercise focused on the 
Nation's inland waters and will support an awareness of the disaster 
preparedness issues related to the seismically vulnerable New Madrid 
region in the Nation's heartland.

Interagency Coordination and Outreach
    Over the past year, interagency cooperation has risen to the 
forefront of critical issues related to national emergency 
preparedness. Information exchange and mission familiarity are vital 
concepts to all organizations working together to resolve major 
emergencies. In this realm, the Coast Guard has also made a number of 
changes to best carry out its responsibilities. Coordination and 
outreach is one of the most important initiatives that the Coast Guard 
is pursuing.
    One of the most valuable intra departmental relationships fostered 
in DHS is the partnership that continues to evolve between the Coast 
Guard and FEMA. Coast Guard/FEMA cooperation has increased in intensity 
and scope during exercises, in identifying lessons learned, and in 
tracking and implementing remedial actions at the national level. As a 
result of this cross-pollination, both components have been able to 
make a number of improvements to their respective contingency plans, 
such as the joint creation of Pre-Scripted Mission Assignments (PSMAs). 
FEMA and the Coast Guard developed 22 PSMAs relating to ten of the ESFs 
outlined under the NRP. These PSMAs developed at the national level, 
and currently being finalized by FEMA, will allow the Coast Guard to 
more easily perform those missions within Coast Guard capability, but 
outside its normal operational scope. Cooperative successes, such as 
these at the national level, will strengthen the Coast Guard's ability 
to operate at the regional and field levels.
    The Coast Guard has also made a significant number of contributions 
to and benefited from the Nation's joint intelligence picture. Relying 
on new initiatives from different components in its intelligence 
architecture, the Coast Guard continues to strengthen its ability to 
collect and share intelligence related to the maritime domain. For 
example, the Coast Guard Intelligence Coordination Center (ICC) works 
closely with a number of agencies, such as the National 
Counterterrorism Center, Department of Justice (DOJ), Department of 
Transportation (DOT), and the Department of Defense (DOD) to process a 
number of issues related to vessels, crews, passengers, cargo, and 
ports of departure and arrival. The interagency cooperation maintained 
through the ICC continues to be important for monitoring potentially 
dangerous operations, such as liquefied natural gas (LNG) vessel 
movements and intermodal container transfers. Recently, persistence and 
close cooperation by the Coast Guard's intelligence offices with the 
DEA and elements of DOJ and DHS resulted in the ship-board capture of 
Javier Arellano-Felix, a leader of one of North America's most violent 
drug cartels.
    The Coast Guard has taken a leadership role within the DHS to 
ensure that intelligence products generated by the Coast Guard are 
shared rapidly and accurately throughout the Federal Government. Threat 
information and reports of suspicious activities from the maritime 
industry and other maritime stakeholders are shared with appropriate 
members of the intelligence community, appropriate offices within DHS, 
and the National Response Center (NRC). Additionally, the Coast Guard 
and Navy continue to build an effective joint intelligence partnership 
to enhance Maritime Domain Awareness (MDA).
    Finally, the presence of Coast Guard liaisons in a number of 
agencies and countries continues to strengthen the service's 
functionality and awareness. For example, in the past month we have 
prepared to deploy emergency oil spill response personnel and equipment 
to both Lebanon and the Philippines in support of State Department 
initiatives in both those regions. The Coast Guard has dedicated 
liaisons assigned to both DHS and FEMA to perform a variety of 
important functions such as maintaining open lines of communication and 
developing novel solutions to intra departmental problems and 
questions, ranging from the air transport for FEMA's new First Response 
Teams to policies associated with mass evacuations and rescues of 
coastal communities. On the world stage, the Coast Guard maintains a 
network of Coast Guard International Port Security Liaison Officers to 
help coordinate assessments of the maritime anti-terrorism measures 
established in ports that trade with the United States. The Coast Guard 
also participates in the Defense Attache Program. These initiatives 
enable Coast Guard officers to provide valuable information in foreign 
nations where Coast Guard efforts are particularly focused.

Conclusions
    Hurricanes Katrina and Rita altered the traditional response 
paradigms for a number of agencies including the Coast Guard. One year 
later, the service readily recognizes the unique communication and 
mission challenges that a large-scale catastrophic disaster can 
suddenly pose. The Coast Guard's ability to respond to major 
catastrophes is partly attributable to the flexible, multi-mission 
nature of its forces. Perhaps the most important factor contributing to 
the Coast Guard's effectiveness is the fact that its forces are engaged 
in related missions on a daily basis. The Coast Guard will continue to 
be a leading component of the Federal emergency management structure. 
Your continuing support is vital to the service's enduring excellence 
as our Nation's maritime first responder--maintaining its flexible 
organizational structure, seeking out opportunities to partner with 
other governmental and non-governmental agencies, empowering planning 
and preparedness initiatives, and realistically acknowledging its own 
capabilities and limitations.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

         IS DHS READY FOR ANOTHER CATEGORY 3, 4, OR 5 HURRICANE

    Senator Gregg. Thank you, Admiral.
    Let me begin with a question which I think the American 
people want to know, and I will ask each of you individually. 
Is your area of responsibility ready to deal with a category 3, 
4, or even potentially 5 hurricane hitting the American coast?
    Mr. Paulison. Yes, sir, we are. As I said in my statement, 
my oral statement and also my written statement that we 
submitted, we have broken down and taken very seriously the 
after-action reports that came out of this Congress, the White 
House, GAO, the IG's reports, and everybody else. We have a 
basketful of reports. But we are taking it very seriously.
    First of all, we learned personally and we broke it down 
into several categories: communications, logistics, dealing 
with victim registration, how to better house people. We have 
retooled this organization. I think primarily one of the most 
important things along with the communication piece is the type 
of people that I am bringing in to run the organization. Every 
person we are bringing in at the leadership level has at least 
30 years of emergency management, fire, police, or EMS 
background, people who have been there and done that. That is 
what I am filling the leadership of this organization with and 
that is going to help us get into this next phase, next 
hurricane season.
    I think Ernesto showed our adaptability, our ability to 
respond, our logistics supply system with our ability to track 
our supplies now that we did not have before. This hurricane 
was originally scheduled to go into Texas and as it moved 
around the country, finally through Louisiana, Mississippi, 
Alabama, then predicting in Florida, and finally landed in 
North Carolina and going up to the Northeast; we were able to 
adapt to that with our supplies, with our personnel, and follow 
that hurricane all the way around. We were ready to respond 
regardless of where it made landfall.
    I was very pleased with that. I was very, very pleased with 
our unified command system we set up and how we were able to 
share information with the States, with the local communities, 
inside of Homeland Security and outside of Homeland Security. 
That piece we worked on very hard and it worked very well, and 
I am comfortable that we are going to be able to respond.
    Senator Gregg. Mr. Foresman.
    Mr. Foresman. Mr. Chairman, I think I would address it this 
way. I think there are varying stages of readiness among a 
national system of preparedness when you look at it in the 
context of local, State, and Federal and when you look at it in 
the context of government, private sector and the American 
people. Historically, one of the things that was abundantly 
clear as a result of the nationwide plan review is States and 
communities in America have done an exceptional job of dealing 
with emergencies and disasters of the scope, scale, and 
magnitude which were kind of the benchmarks prior to Katrina.
    But I think it underscores that; you mentioned a category 3 
or 4 and I think we would do well. States and communities have 
traditionally done well in that arena. The Federal Government 
has traditionally done well in that arena. But when you get one 
on the scale and scope of a Katrina, a catastrophic event, I 
think there is significant work that needs to be done, not only 
across the Federal Government, but with our State and local 
partners, because we saw significant challenges. The Nation's 
governors really stepped up to the plate and made sure that we 
were able to find places to house thousands, tens of thousands 
of Hurricane Katrina evacuees. But could we repeat that if it 
were an earthquake scenario in the L.A. Basin? Could we repeat 
that in an earthquake scenario with no notice on the New Madrid 
Fault? Clearly there is more work that needs to be done.
    Admiral Allen. I would agree with Under Secretary Foresman 
and add in the larger context of an all-hazards, all-threat 
environment,I think as it relates to hurricane preparedness we 
are much better off this year than we were last year. I think 
there has been extensive steps taken; advanced training. The 
predesignated principal Federal officials and the Federal 
coordinating officers have been trained together and an 
extensive amount of time put into it. We of the Coast Guard 
have prescripted mission assignments with FEMA.
    I am very comfortable where we sit going into the hurricane 
season. But as Under Secretary Foresman said, I think you need 
to look at the all-hazards, all-threat environment across the 
spectrum and, depending on the incident you are going to 
encounter and where it is at, there is still work to be done.
    This coming year the Coast Guard is going to conduct a 
drill in the central Mississippi basin that is going to 
simulate a massive oil spill and hazmat release related to an 
earthquake on the New Madrid Fault. That is the type of thing 
we need to do for continued preparedness against all hazards, 
all threats.
    But as it relates to the hurricane season this year, we are 
much better off than we were last year, sir.

     TO WHAT EXTENT SHOULD THE MILITARY BE USED AS A FIRST RESPONSE

    Senator Gregg. One of the things we learned in Katrina was 
that the Coast Guard was a coherent and cohesive force for 
responding to an event of that size and that nature. Hopefully 
we will never have another event of that nature, but clearly it 
is possible. An earthquake could certainly replicate it, or 
even an attack from a terrorist event.
    To what extent should the military be used as one of the 
primary responders, and specifically not the National Guard but 
the Federal military force as controlled by the President?
    Mr. Foresman. Mr. Chairman, let me see if I can address 
this in two component pieces. First, in the post-9/11 
environment we very much underscore that the Nation faces an 
asymmetric threat from those who would seek to do us harm. As 
we saw after 9/11, we had to project military forces to defend 
America both at home and overseas.
    One of the issues that we have continued to deal with over 
20 years is an overreliance on the military to be able to do 
disaster relief missions, at the expense of preparing State and 
local governments, the Federal civilian community, to be able 
to do this. There is clearly a support role for the military. 
They have provided value added to everything that we are doing 
from a preparedness standpoint. But when we talk about it in 
the context of America, if we think about it we have 15 million 
State and local officials out there; public health, fire, law 
enforcement, a variety of things. One of the great successes 
out of Katrina was the emergency management assistance compact 
is the ability to use inter-state mutual aid to provide 
civilian responders from one State that is not impacted by an 
event to another State that is impacted by an event.
    As we are looking forward from this strategically, we are 
building the Department of Defense into that clear support role 
for emergencies and disasters, but we are not doing it at their 
expense of being able to do their primary national security 
mission. We have invested $18 billion in State and local 
governments and our capabilities and capacities in communities 
across America is dramatically improved from where it was 5 
years ago. When you start applying mutual aid and a layered 
approach to how we put resources to an emergency and disaster, 
we are very confident that we are on the right track.
    Let me be very clear. Secretary Rumsfeld, Assistant 
Secretary McHale have been phenomenally supportive of all of 
our efforts inside of the Department and working with our State 
and local partners.
    Senator Gregg. Mr. Paulison?
    Mr. Paulison. I think Under Secretary Foresman is right on 
target. The military has a major role in support. We have 
signed dozens of prescripted mission assignments with them so 
they know exactly what their role is going to be, we know what 
their capabilities are and what they are willing to do. That is 
good. That is helping us a lot. The involvement with NORTHCOM 
and the Department of Defense in this last hurricane as far as 
being with us on all of our video conferences, making sure that 
if we had any needs they were there to assist us, is important.
    They are one of our partners, but they are in a support 
role.
    Senator Gregg. Admiral Allen?
    Admiral Allen. Mr. Chairman, I would just add one comment 
to the comments that were made, in regards to the Federal 
response. Under Secretary Foresman focused on the need to 
create capability at the State and local level. One of the 
things we are trying to do inside the Coast Guard and the 
Department, and it relates back to my earlier comment, is to 
create what I would call adaptive force packages, where we more 
effectively apply the assets of the Coast Guard, the assets 
inside the Department of Homeland Security and the other 
agencies.
    To the extent you can do that and you become more effective 
at it, you in effect raise the bar when you would have to call 
DOD in. I think we have a responsibility to do that.
    Senator Gregg. Thank you.
    Senator Shelby has arrived.
    Senator Shelby. Thank you, Mr. Chairman. I have an opening 
statement that I would like to be made part of the record in 
its entirety if I could.
    Senator Gregg. Without objection, it will be inserted in 
the record.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Mr. Chairman, thank you for holding this important hearing today. 
Admiral Allen, Under Secretary Foresman and Under Secretary Paulison 
your presence is essential because the Senate needs to hear directly 
from each of you about your agency's needs and the challenges you 
anticipate facing in the future.
    Hurricane Katrina was one of the most destructive natural disasters 
to ever hit our Nation. People's lives were shattered, families broken 
apart, and homes destroyed. In my own State, whole communities were 
devastated by this terrible tragedy.
    But that devastation pales in comparison to our neighboring Gulf 
States where they suffered immensely and are in fact, still trying to 
recover today.
    Alabamians and the entire Gulf community have an amazing resolve 
and they are working to restore the strong economic engines that 
existed in the region prior to Katrina. They could not have made it 
where they are today without the assistance of our Chairman.
    On behalf of the people of Alabama, I would like to thank you, Mr. 
Chairman, for your support of the recovery of the Gulf Coast.
    In addition to the panel before us now, we will also hear from 
Bruce Baughman and Stanley Ellis. These gentlemen represent the 
interests of State and local emergency managers. As Alabama's Director 
of Emergency Management, Mr. Baughman was intricately involved in 
Hurricane Katrina preparation and recovery. His leadership helped 
Alabama move quickly down the road to recovery. His decades of 
experience at both the Federal and local level will provide the 
committee some valuable insights into disaster management and 
preparedness.
    As we move forward we must look carefully at the progress that has 
been made since Hurricane Katrina but we must also carefully examine 
the failures--both in terms of response and recovery. It is critical 
that we, as a Nation, are better prepared to respond to all disasters 
whether they are acts of God or acts of man. While the risk of another 
terrorist attack is just as real today as it was 5 years ago, we must 
also recognize the impact that loss of life, property, and employment 
from natural disasters can have on our communities.
    I hope to hear more today about how the Department is balancing the 
risks, the needs, requirements, tasks and jurisdictions of its roughly 
20 agencies to prepare for the next event--whatever it may be.
    The Senate has a responsibility to make sure the Department is 
adequately funded so that it may carry out the planned response to 
future disasters, but it would be imprudent for us to go about this 
blindly. We want to make sure that you are better organized and that 
you have learned from the mistakes of the past. The government's 
response to Katrina could have been better and I look forward to 
learning about the steps that have been taken to eliminate the response 
shortfalls and what steps remain.
    A plan without proper execution is merely words on paper. Proper 
execution can only occur with well-trained, properly equipped first-
responders. Whether it is a FEMA recovery team, a State emergency 
management group, or a volunteer search and rescue squad, we must do 
everything in our power to ensure that those responsible for executing 
the plan are well equipped, fully trained and prepared to execute the 
plan appropriately in order to save lives and property from further 
destruction.
    Mr. Chairman, I am hopeful that the individuals appearing before us 
today will provide the Committee with a better understanding of the 
remaining needs in all facets of preparedness, response and recovery.
    I am particularly interested in hearing about the Department's 
efforts to effectively train the men and women that are willing to put 
themselves in harm's way when duty calls.
    Again this is a critical hearing and I applaud the Chairman for 
holding it today. It is always important to look back and learn if we 
are to move forward.
    Thank you Mr. Chairman.

                             COMMUNICATIONS

    Senator Shelby. Just following up on Senator Byrd and 
Senator Gregg's initial statement, I believe we are better off 
than we were a year ago as far as being prepared. You will 
certainly be tested sooner or later. We hope it is later and 
not sooner. We wish it would never be. But do you have, still 
have problems with communication at all levels? You had that 
before, you know, the local level all the way up. If you are, 
what are you doing about it and how can we help?
    Mr. Paulison. We have been working for the last several 
months on dealing with that particular issue, Senator, that you 
brought up. You are right on target. There was a major 
communication breakdown. We cannot allow that to happen 
because, as far as I am concerned, I saw that as one of the 
biggest flaws in responding to Katrina. It does not give you 
good visibility of what is happening on the ground. You cannot 
share information.
    So we have been working very hard to repair that. We have 
done tabletop exercises. We have put a system together where we 
know exactly what the communications system is going to be. We 
are strongly enforcing a unified command, where we have a place 
where information is shared and how we are going to share that, 
not only inside the Federal Government but with the States and 
with the local communities.
    We had the opportunity to--although Ernesto was not a big 
storm, we still approached it like it was going to be a big 
storm, because the Hurricane Center was predicting it could be 
a category 3 or 4. The system worked very well. We still have 
work to do, but I was very pleased with how we were able to 
share the communications, how the whole system worked, and how 
that information came in.
    Senator Shelby. Are you responding to a year ago, how it 
worked then, or how it would work now?
    Mr. Paulison. No, I am talking about how it is working now. 
Back then it did not work, is what I am saying.
    Senator Shelby. It did not work at all, did it?
    Mr. Paulison. Yes, sir. We had a major breakdown in 
communications and we recognize that very clearly. I perceive 
that as one of the biggest flaws. So that is what we have been 
focusing on for the last 3 or 4 months, putting a system 
together, testing that system, making sure, regardless of where 
that information comes in, whether it comes in from a 
constituent to you, to the President, whether it comes in from 
the first responders, whether it comes in from our field teams, 
regardless of where it comes in, that information is shared up 
and down, so we know who is responsible for a particular action 
and who is going to be held accountable to make it happen.
    Senator Shelby. But if you cannot talk to each other from 
your standpoint all the way down to the local level, whether it 
be in Louisiana, Alabama, Mississippi, then you have got a real 
problem of carrying out whatever plan you have to deal with the 
disaster; is that correct?
    Mr. Paulison. That is partially correct. That is an issue 
we have. We have purchased a lot of equipment to allow us to do 
that. The National Guard in particular, your State 
particularly, has a very robust communication capability. We 
are working with them to preassign those, prescript those, move 
them in quickly along with our communications system that we 
purchased, so we can do that, so we can talk to the locals.
    We do have the ability to connect people on different radio 
systems. Not perfect, but we can communicate and we can make 
sure that we put people----
    Senator Shelby. How much has it improved since a year ago?
    Mr. Paulison. It is significantly improved since last year. 
Part of it is because of protocols, making sure that we have 
people located in the State emergency management office, 
talking to the governor, talking to the State emergency 
manager, making sure we have people at the local EOCs where we 
know what is going on, and also putting reconnaissance teams 
down on the field. We now have the capability of not only voice 
communications, but video communications, directly from our 
people in the field, back to our headquarters and to the joint 
field office.
    Senator Shelby. Are equipment standards still an issue?
    Mr. Paulison. I think radio, handheld radio issues, are 
still an issue, particularly at the local level; for them to be 
able to talk to each other, police and fire, across 
jurisdictions. That is an issue that has to be dealt with and 
it has not been totally resolved yet. There are quick fixes for 
that, but not the right fixes.
    Senator Shelby. It is not quick, but it has got to be done.
    Mr. Paulison. Yes, sir.
    Senator Shelby. Secretary Foresman, domestic preparedness. 
The Center for Domestic Preparedness (CDP) is the cornerstone 
of our Nation's emergency responder training facilities and it 
is the only civilian live agent training facility in the 
Nation, as you know. The CDP is one of the first of several 
facilities where we train, we are training our Nation's first 
responders in a variety of disciplines.
    This year it is expected that the CDP will train 60,000 
people through on-site, mobile, and the other training 
programs. How do we expand this model and ensure that we 
continue to train first responders in general all-hazards 
capabilities and specific specialties, such as chemical agents 
and emergency management?
    Mr. Foresman. Senator, CDP continues to, as you note, 
provide a value added, and probably one of the most successful 
components of the CDP training program is our ability to export 
that training through the communities. Clearly, the ability to 
be able to bring in State and local officials from across 
America to that facility is without parallel anywhere in the 
country.
    But as we go forward, we also realize we are never going to 
get to the point on bringing everybody to one spot. We have got 
to get it out to them. So we continue to focus on pushing the 
training out. But we are also looking at places like CDP and 
the Noble training facility to expand their mission. We found, 
those created in the immediate aftermath of 9/11 were very much 
focused in a narrow area. We want to make sure we do not have 
any, if you will, down time associated with those facilities. 
So whether it is cybersecurity or weapons of mass destruction 
training, that we continue to utilize, and get full utilization 
out of those facilities.
    But we would not expect to do anything but increase the 
amount of capacity and capability we have through those 
existing training activities.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Gregg. Senator Byrd.

                   PREPAREDNESS AND RESPONSE MISSIONS

    Senator Byrd. Mr. Chairman, I am concerned about the 
administration's decision to divide the preparedness and 
response missions. The fiscal year 2006 Homeland Security 
appropriations conference report directs FEMA to develop 
coordinated guidelines for State and local governments as they 
develop mass evacuation plans. The Preparedness Directorate 
recently published a nationwide plan review that found, quote: 
``The majority of the Nation's emergency operations plans and 
planning processes are not fully adequate, feasible, or 
acceptable. Basic plans do not adequately address catastrophic 
events. The most common deficiency of the plans is the absence 
of a clearly defined command structure.''
    It is disturbing that the Department's assessment has just 
recently been completed. The Department has been around for 
3\1/2\ years. It is even more disturbing to find that we are 
not prepared as a Nation to evacuate or receive mass numbers of 
people in our local communities.
    Director Paulison, I would have thought that the terrorist 
attacks of 9/11 might have been the wakeup call that we needed 
to prepare for a catastrophic event. You have been at FEMA for 
5 years. Why do you think it took Hurricane Katrina to get the 
Department to take this issue seriously?
    Mr. Paulison. I think the administration and the Department 
has taken it very seriously. There was obviously some very 
serious flaws in FEMA's capability as far as responding to an 
event the size of a Katrina. Yes, I have been in FEMA for 5 
years, but as the U.S. Fire Administrator, and I think I did a 
great job of putting that organization back on track and 
bringing it up to the speed where it needed to be.
    I have been at FEMA as far as the head of FEMA for 9 
months, 10 months now, and have taken those lessons learned 
very clearly to understand that FEMA does need to be ready to 
respond to a catastrophic event the size of a Katrina, and I am 
making sure that this organization does that. I think Under 
Secretary Foresman can probably address the evacuation planning 
for the rest of this country.
    Senator Byrd. Preparedness measures recently touted by the 
Department in a press release include the prepositioning of 
supplies, improved asset tracking, and enhanced customer 
service by FEMA. I am concerned that we are preparing for the 
last disaster and not preparing for different kinds of 
disasters, like a dirty bomb, pandemic flu, a biological 
attack, or an earthquake.
    While it is a relief to know that 1 year after Katrina we 
are finally taking steps to deal with a major hurricane, how do 
these touted reforms contribute to successful preparedness and 
response to other potential disasters?
    Mr. Foresman. I think you adequately, clearly pointed out 
what we are trying to do; what we have done since Katrina. 
However, we are not preparing for Katrina; we are preparing for 
the next disaster. All the things that we are doing inside of 
FEMA that you mentioned as far as prepositioning supplies, 
prepositioning people, prepositioning equipment, those things 
are transportable regardless of what type of disaster we have.
    Now, granted it is much easier when you have a notice event 
like a hurricane. But even in a no-notice event, making this 
agency much more nimble, much more flexible than it has been in 
the past will serve us and this country well; regardless of 
what type of disaster.

                     PORT SECURITY AND PREPAREDNESS

    Senator Byrd. Admiral Allen, the House of Representatives 
recently passed a bill to strengthen port security by a vote of 
421 to 2. That bill included $400 million in fiscal year 2007 
for port security grants. The Senate is expected to debate port 
security legislation that also authorized $400 million for port 
security grants. In July, my port security amendment to the 
Homeland Security appropriations bill was approved by the 
Senate to fully fund the $400 million for port security grants. 
It also includes $184 million for the Coast Guard Deepwater 
program to fill critical short-term mission gaps and $23 
million to improve security inspections at foreign and domestic 
ports.
    How would the additional funding for port security improve 
our preparedness for a potential terrorist attack on our ports?
    Admiral Allen. Senator, there is a direct linkage between 
port security and preparedness as it relates to a potential 
event in a port. As previously provided to the committee, and 
we can continue to provide that for the record if you like, the 
funds identified in the port security amendment would allow us 
to increase the frequency of inspection at our U.S. ports, but 
also allow us to go to a 2-year cycle on those foreign ports 
that ship to the United States. In our view that would 
significantly enhance the port security efforts of the Coast 
Guard, not only in our U.S. ports but in our foreign ports. We 
would be happy to provide you any additional information that 
you might want for the record, sir.

        WEST VIRGINIA'S INVOLVEMENT IN MASS EVACUATION PLANNING

    Senator Byrd. West Virginia University did a study 
regarding the potential for a mass evacuation of the National 
Capital Region. 800 people were randomly polled in select 
counties in Virginia, Maryland, and West Virginia, and 
preliminary results of the study concluded that planning for a 
large-scale chaotic evacuation into rural areas and States 
close to the D.C. metro area warrants serious consideration.
    Furthermore, many Federal agencies will relocate to 
facilities in West Virginia during an incident. Despite this 
information, I understand that West Virginia has not been 
included in mass evacuation planning for a potential evacuation 
of the National Capital Region. How about that?
    Mr. Foresman. Senator, I will take that question. There are 
two elements to that. One, as you know, Secretary Spears, the 
Secretary of Public Safety in West Virginia, hosted a session 
just a month ago where we had six States together to talk about 
the whole issue of National Capital Region issues. In my 
previous job, when I was the homeland security adviser in 
Virginia, we were dealing with Secretary Spears on it, and we 
have two rounds of perspectives on how great the number is that 
might spontaneously evacuate.
    Irrespective of that--this goes back to your earlier 
question about the necessity of catastrophic planning. There 
has not been over the last two decades a shared national vision 
for how we should go about preparedness, to include mass 
evacuations. As we work with our State and local partners, we 
will continue to address the issue of West Virginia. We will 
continue to address multi-state coordination.
    The one thing that is promising is this; one example of 
where States and communities are getting together, pooling 
their resources, pooling the resources of $18 billion that this 
Congress has provided to them over the last 5 years for 
preparedness, and working through a number of these issues. We 
are heavily involved with them in that effort in terms of the 
Federal inter-agency coordination, but we are not driving it. 
We are working with them as they drive it themselves.
    But I will tell you, Senator, we do not want to be in a 
situation where we have a mass chaotic evacuation. We want to 
be in a situation where we have the public reacting in a 
reasonable manner to protective action guidelines, some of 
which may be evacuation, some of which may be to shelter in 
place or to shield in place. So we want to look at this in a 
much broader scope and scale.
    Senator Byrd. Mr. Chairman, this can be answered with a yes 
or no. Will you include West Virginia in your mass evacuation 
planning for the National Capital Region?
    Mr. Foresman. Senator, we continue to work with Virginia, 
Maryland, and District of Columbia as the primary statutorily 
designated States of the National Capital Region, but we will 
continue to work with those three State homeland security 
advisers as well as Secretary Spears to make sure that we have 
a fully integrated approach.
    Senator Byrd. Thank you.
    Thank you, Mr. Chairman.
    Senator Gregg. Senator Allard.

                        FIRST RESPONDER TRAINING

    Senator Allard. Thank you, Mr. Chairman.
    I have a couple of questions dealing with training of first 
responders, which we all recognize is vital. But one part that 
we seem to not be mentioning in the discussion is rail, trains 
and mass transit. Do the training programs that you have been 
discussing have a facility dedicated solely to training first 
responders in the rail and mass transit environment?
    Mr. Foresman. No, sir, but the training programs that are 
provided through the Department, the training programs that are 
provided at the State and local level, the vast majority of our 
approach is to get the training out to the communities rather 
than to bring the communities to a facility, with the exception 
of some specialized activities. But all of our training 
programs, all of our funding for our competitive grant training 
programs, are targeted to making sure that a law enforcement 
officer who is a transit officer, who is trained to identify 
suspicious activity gets the same level and type of training 
that the law enforcement officer who is out doing street 
patrol. When we talk about incident command and incident 
management, they are both getting that same level of training 
so that they can operate in a unified function.
    I will tell you that we continue to push transit and rail 
grants out the door. I know of the continuing concern that we 
have from an intelligence standpoint, that the stakeholder 
community has as an operator standpoint. So when we talk about 
training, we do not talk about it by mode; we talk about it by 
function.
    Senator Allard. Can you see a need for a specialized 
training facility in those special circumstances that you 
mentioned, where you can set up a system, a situational 
situation for training?
    Mr. Foresman. Senator, let me offer two things. One, for 
instance, the Metro here in the National Capital Region does 
have training facility for that type of thing. I would be more 
than happy to go back and sit down with our Transportation 
Security Administration folks, grants and training team, and 
our infrastructure protection team and maybe provide you some 
input back on that.
    The clear thing is, we know we need to train as we fight, 
and we need to fight as we have been trained.

               TECHNOLOGY USED FOR REMAPPING FLOOD ZONES

    Senator Allard. Mr. Paulison, to what extent is FEMA using 
current technology, as opposed to simply digitizing old ones, 
to create more accurate flood maps?
    Mr. Paulison. As we digitize the flood maps, we are also 
going back and remapping. We are trying to do the whole 
country, to remap, and not just change the old flood maps to 
digital, but also to remap to make sure we are at the right 
level.
    Senator Allard. Are you using current technology on your 
remapping?
    Mr. Paulison. Yes, sir.
    Senator Allard. To what extent?
    Mr. Paulison. Pardon?
    Senator Allard. Do you want to explain that, and to what 
extent?
    Mr. Paulison. Well, the fact is we are trying to do the 
whole country to make sure that our flood maps are as accurate 
as possible.
    Senator Allard. Are you using aviation photography and GPS 
to help assure those accuracies?
    Mr. Paulison. Yes, sir. We are using different types. We 
are using some of the satellite, some aviation, different types 
of technology. I can bring our expert in to really explain it 
to you more clearly and have him sit down with you; but we are 
using the newest technology we can to redo the flood maps, to 
make sure that they are as accurate as possible, because that 
has a big impact on a community.
    Senator Allard. Well, my concern is that our flood map 
program ought to have been done a long time ago. They are still 
being drug out.
    Mr. Paulison. Yes, sir.
    Senator Allard. We have new technology that I think is less 
expensive than what you have been doing in the past, where you 
have surveyors go out on foot, particularly in rural areas. You 
could do aerial photography, GPS, and get things accomplished 
so much quicker.
    Mr. Paulison. Yes, sir.
    Senator Allard. And for the life of me, I do not understand 
why those are not progressing along faster than what they are.
    Mr. Paulison. If you do not mind then, I will have my staff 
get hold of yours to sit down and discuss that.
    Senator Allard. We have been visiting with them. We are 
going to continue to visit with them on that, sir.
    Mr. Paulison. Yes, sir.

                             NORTH COMMAND

    Senator Allard. Admiral, you are in a new Department, the 
Department of Homeland Security. You also have another new 
branch of the military that you have to deal with, that is 
North Command. So I am curious how you are getting along with 
North Command, if you are comfortable with your relationship 
there, if there are things that could be done better in your 
relationship with North Command?
    Admiral Allen. Senator, I am very comfortable with our 
relationship with North Command. My personal relationship 
started actually on 9/11 when I was the Atlantic area commander 
for our own 9/11 response. I immediately teamed up with General 
Kernan at Joint Forces Command and General Eberhart, who was at 
NORAD at the time. That ultimately turned into the genesis of 
the work team that actually set up the Northern Command that 
was established in Colorado Springs.
    I made significant visits out there tactically after 9/11 
to coordinate what we were doing between the maritime side and 
where General Eberhart was going. We actually put about 10 or 
12 Coast Guard people into the team that actually stood up 
NORTHCOM and we have over 20 people assigned out there now. I 
visit routinely. I am in touch with Admiral Keating and 
Lieutenant General Inge. We participate in conferences 
together. In fact, I was doing a maritime domain awareness 
conference in Colorado Springs as the response to Katrina was 
starting, not knowing that a week later I would be calling 
Admiral Keating and actually working with him.
    So I can tell you that the relationship is very solid, not 
only between the Coast Guard and U.S. Northern Command, but 
between the Department and U.S. Northern Command. A recently 
selected flag officer, who was an O-6 at NORTHCOM, is now the 
military adviser to the Secretary and adds to that liaison and 
that relationship, sir.
    Senator Allard. Mr. Chairman, I see my time has expired. 
Thank you.
    Senator Gregg. Thank you.
    Senator Landrieu.

                          FEDERAL COORDINATION

    Senator Landrieu. Mr. Chairman, first let me thank both you 
and the ranking member for allowing me to participate, as I am 
not a regular member of this committee. This, obviously, is a 
very important topic for the State that I represent and for the 
entire gulf coast.
    So let me just begin by joining you in your compliments of 
Admiral Allen. I wanted to come personally, Admiral, and thank 
you for your leadership--to say, for the record, that the Coast 
Guard was an example of excellence in the middle of a great 
tragedy. I think the Admiral would acknowledge great help from 
the Louisiana Department of Wildlife and Fisheries, which also 
had a small flotilla out there saving people as well. Together 
I believe these two groups helped save thousands of lives.
    But because your agency performed so well, can you focus 
with us for a minute on the communications system that you must 
have had differently, embellished or improved upon relative to 
the other agencies. My question is, if you did, what was it? 
What have you done to improve what you had, and what is your 
recommendation, because that remains still an elusive target, 
to get a communications system that can actually execute the 
plans that we are setting out.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Thank you Chairman Gregg and Ranking Member Byrd for holding this 
hearing on national emergency preparedness. Let me also thank the both 
of you for recognizing the importance of this topic to the State of 
Louisiana in allowing me to participate in this important hearing. As 
you both well know, there was a tremendous amount of criticism of the 
Federal Government's response to Hurricanes Katrina and Rita last year. 
Things are better now and the region is slowly recovering. We marked 
the first anniversary of Katrina last month and are set to mark the 
anniversary of Rita later this month. These two important 
anniversaries, along with the fact that we are well into another 
hurricane season, reminds us that we must be sure that if we have 
another disaster, the Federal and State response will be better this 
time around. Agencies at every level of government must be better 
organized, more efficient, and more responsive in order to avoid the 
problems, the delays, mismanagement, and the seeming incompetence that 
occurred last year.
    I note that Admiral Thad Allen is testifying today and would like 
to thank him for his hard work in coordinating the response and 
recovery operations in the aftermaths of Hurricanes Katrina and Rita. I 
would also like to thank the other witnesses for their participation 
today, especially U.S. Department of Homeland Security (DHS) Under 
Secretary for Preparedness George W. Foresman and U.S. Federal 
Emergency Management Agency (FEMA) Director David Paulison.
    In the numerous Congressional and Federal government 
investigations/reports on the problems that resulted from Federal 
response to Katrina and Rita, three factors are consistently mentioned: 
lack of adequate logistical/personnel preparedness, breakdowns in 
Federal/State coordination, and an initial lack of necessary 
communications equipment. I agree with those general assessments, and 
will continue to work with my colleagues on both sides of the aisle to 
address those systemic problems. I would also like to see some specific 
recommendations enacted from the Senate Committee on Homeland Security 
and Governmental Affairs report ``Hurricane Katrina: A Nation Still 
Unprepared.'' In particular, this bi-partisan report recommends 
incorporating comprehensive coastal protection as part of the Nation's 
hurricane protection plan. I believe without an integrated, world-class 
flood control system with strong levees and wetlands restoration, the 
people of the Gulf Coast will never be secure. That is why it has been 
one of my top priorities since I came to the Congress to secure a long-
term Federal revenue stream from offshore oil and natural gas 
production to protect our coasts. This report also recommends requiring 
the U.S. Army Corps of Engineers to develop a comprehensive emergency 
plan to anticipate levee breaches with real-time monitoring and 
awareness of where potential problems may exist. Such a plan is not 
just important for responding to hurricanes, but would also ward 
against potential terrorist attacks. Lastly, I also support 
recommendations to strengthen State and local planning. It is essential 
to support our State and local authorities because, as we saw following 
Katrina, Federal disaster agencies cannot do it alone and need local 
partners following disasters.
    Katrina was a catastrophic natural disaster but the failure of 
leadership to implement sound preparedness policies to respond to a 
disaster on the scale of Katrina was a manmade disaster much worse than 
Katrina because it can be prevented. I am encouraged by steps taken by 
the Federal Government to prepare for the 2006 Atlantic Hurricane 
season but much more needs to be done to be not repeat mistakes 
following Katrina. For example, we all know the list of Federal 
agencies that struggled following Katrina, including of course FEMA. 
Just a few weeks ago, for example, we learned that FEMA-issued travel 
trailers had a limited number of lock designs in them meaning one key 
could possibly open other trailers. FEMA responded quickly to this 
revelation but it was the latest in a string of post-Katrina 
bureaucratic missteps for the agency. I recognize that FEMA Director 
Paulison came into a tough situation but I have found him to be open to 
making necessary changes at FEMA to address post-Katrina problems like 
this. However, I must say that the problems FEMA and the other agencies 
faced, in most cases can and should be prevented with proper 
accountability and pre-planning.
    On the other hand, the U.S. Coast Guard is an example of an agency 
that had sufficient planning ahead of time and was effective post-
Katrina. According to a recent U.S. Government Accountability Office 
(GAO) report, the Coast Guard was more effective post-Katrina because 
it had contingency plans for technology and personnel. Contingency 
plans led to a pre-placement of communication equipment before Katrina 
which avoided some of the communication problems other Federal/State 
agencies faced and literally saved thousands of lives. Katrina was the 
largest search and rescue mission in history, with almost 6,000 Coast 
Guard personnel deployed and about one-third of the Coast Guard's 
entire fleet was dedicated to rescue efforts in the Gulf Coast. 
According to the White House Homeland Security Council's report on 
Katrina, the Coast Guard retrieved more than 33,000 people along the 
Gulf Coast: 12,000 by air, 11,000 by surface, and an additional 9,403 
evacuated from hospitals. In these operations, the Coast Guard also 
worked hand-in-hand with personnel from the Louisiana Department of 
Wildlife and Fisheries, so provided not only a good example of pre-
planning but also in how to coordinate with State officials.
    In closing, let me say that it is indeed important to utilize 
better planning, coordination, and technology to ensure that problems 
following Katrina are not repeated after future disasters. However, I 
believe that Congress and the Federal government should make the hard 
decisions now, including restructuring FEMA and DHS. I look forward to 
working with this subcommittee, as well as the agencies and groups 
present here today, to implement necessary reforms and provide badly 
needed funds to ensure the Nation is truly prepared for any possible 
disaster.
    I thank the Chairman and ask that my full statement be submitted 
for the record.

    Admiral Allen. Senator, that is an excellent question. If I 
can respond to maybe a couple other questions as an add-on, 
when you talk about communications there are really two 
dimensions of that. One is an organizational perspective and 
how we interact individually, how we are collocated together, 
how we jointly execute doctrine and plans that have been tested 
and understood by everybody. Then there is the actual movement 
of the electrons and how we talk to each other, and you have to 
talk about both of those.
    As Senator Shelby indicated earlier, we have done a very, 
very good job on the coordination, the alignment of where we 
are going to be at the emergency centers, what our principal 
Federal officials are going to do, what the Federal 
coordinating officer is going to do with them.
    The significant challenge that remains is land-mobile and 
maritime-mobile communications and what frequency we are 
talking on, and how do we interoperate at that level. Now, with 
regard to both of those in the Coast Guard operations, we 
operate under a principle of on-scene initiative in the Coast 
Guard that if you are cut off from actually being able to talk 
to the organization our folks know what to do and are empowered 
to act. So the organizational piece of that, even if there is a 
gap or something that needs to be bridged, our people are 
prepared to act and they did.
    But even we experienced communications outages down there. 
We operate in maritime-mobile radio communications whereas the 
other first responders operate on land-mobile radio 
communications. We are currently recapitalizing the Coast Guard 
VHF-FM system for the entire country in our Rescue 21 
acquisition. That is going to improve our ability to 
interoperate on spectrum, in frequency, with the first 
responders and we need to take care of that.
    As the PFO and I recommended it to Dave Paulison he has 
already taken it for action. When we deploy to the FEMA folks 
they need to have land-mobile communications in their merged 
units, which they are moving to do now, because that capability 
did not exist when we were down there. So you have to create 
not only the doctrine, the structure and how you are going to 
act together, but you have to be able to talk across the 
airwaves together. We are better this year than we were last 
year in both of those areas. We were able to deploy emergency 
antennas down at Sulphur and we were able to re-establish 
communications in the lower Mississippi River within a matter 
of days after the event, and that is the type of equipment we 
are buying through this Rescue 21 contract. But we need to 
build that out.
    Senator Landrieu. Is the equipment that you are purchasing 
the same as what Homeland Security is purchasing, and obviously 
FEMA would be purchasing, as well as the same that local 
sheriffs, law enforcement, first responders, health care 
responders? How is that being coordinated? I ask this because I 
am sure other Senators are in the same position. I have a 
steady stream of people coming into my office saying they have 
the best equipment, that their equipment can do x, y, and z, 
and about 20 of them show up every week. I am concerned that 
this system of ``catch as catch can'' is going to catch us all 
where we were last year. That is with maybe some good plans in 
place, except for, Mr. Chairman, the ambulance drivers could 
not talk to the bus drivers, and the bus drivers could not talk 
to the doctors in the emergency room to find out whether they 
had 20 patients that had to be evacuated, whether they were on 
ventilators or not, and what kind of equipment to show up.
    Unless we get this fixed, I can just sit here and see this 
scenario happening again, with good plans in place except 
nobody can talk to anyone.
    Admiral Allen. Yes, ma'am. I will give you the first part. 
I think Under Secretary Foresman would like to address the 
second. In relation to Federal interoperability, in the 3 years 
that the Department has been established, one of the real 
progressive things we have done is through the Joint 
Requirements Council taken a look at all of our wireless 
requirements. Those are all managed out of the Wireless 
Management Office in the CIO's shop at the departmental level.
    The solution for the Federal response is going to be the 
interagency wireless network, which is the land-mobile radio 
solution for Federal responders. We are working on that to make 
sure that works at the Federal level. The local solution that 
has been developed heretofore is the SAFECOM solution and the 
issue is how does the SAFECOM solution interact with inter-
agency wireless network, and I will let Under Secretary 
Foresman follow up.
    Senator Landrieu. Please.
    Mr. Foresman. Senator, of the $18 billion that has gone 
down to State and local governments, about $2.1 billion has 
been used for interoperability solutions. You get 20 people a 
week who say they have got the solution; I get 40.
    I would just offer to you, Senator, that we are pushing 
through the grants process very aggressive parameters for 
States and local governments to use, because the Federal 
Government cannot mandate what the State and local governments 
will or will not do on their communication, but we can 
incentivize it through the way that we administer the Federal 
grants as they go down.
    One of the big pieces that I would offer to you, and this 
goes back to your focus on planning: We went into last 
hurricane season without a basic communications plan in this 
country and, frankly, when I started in this business back in 
the 1980s there was a basic communications plan, but it had 
been allowed to deteriorate over time. We actually sent teams 
down at the tactical level and at the strategic level to 
understand what the frequencies were, what the existing 
capabilities were, whether we are talking about Dave and his 
team, Admiral Allen and his team, whether we are talking about 
the State of Louisiana or the city of New Orleans, and we went 
into this hurricane season with an intuitive understanding of 
who has what.
    So as we have looked at technological solutions we have 
made sure that, whether it is through the grant programs in 
SAFECOM or whether it is through the programs that Dave has 
been administering on disaster recovery, that we are shooting 
for that interoperability.
    Senator Gregg. Senator, we are going to have to move on.
    Senator Landrieu. Go ahead. I am sorry.
    Senator Gregg. Senator Domenici has been very patient.
    Senator Domenici. Well, thank you very much.
    I came today for two reasons----
    Senator Gregg. You have got to turn the mike on.
    Senator Domenici. Thank you. I do not get charged for time 
that they do not hear, right?
    Senator Gregg. The time is yours, Senator.
    Senator Domenici. Thank you.

                         FLOODING IN NEW MEXICO

    I just wanted to say I came for two reasons, the first of 
which is to compliment you, Mr. Chairman, because I believe in 
the last 18 months this subcommittee under your leadership has 
done the country a real service. While everybody has been 
arguing and talking about who is going to do what and whose 
bill is going to govern border security, you have produced 
through the appropriation process the kind of assets that our 
borders needed and assets that those who are in charge of our 
borders were crying out for, and you have put our operational 
entities on the border in a far better position than they ever 
were in terms of manpower, in terms of training, and in terms 
of equipment.
    It is just something to watch. While everyone is still 
arguing about whose rules govern where, we have funded in the 
last three appropriation bills, including one supplemental--if 
you can fund border activities any better, any quicker than 
that, I would like to see it. So I commend you for it and I am 
glad to be on the subcommittee to help you with that, and I 
hope you know that.
    I think we ought to get our bill done. If nobody else wants 
to get theirs done on the floor, we ought to get this done. 
This is a big problem for America, but it is also terribly 
difficult for those who are called upon to take action under 
the new laws that we put together. They are complicated and 
they require that these people have a management skill that we 
have not asked of any entities before.
    I am very pleased to see the witnesses here with smiles on 
their faces and it appears that you are really willing to go to 
work. With that I am terribly pleased. I just wish you would 
take care of New Mexico as well as your smile appears your 
readiness to take care of the country. My little State has had 
a freak situation, I say to you, Mr. Secretary. New Mexico went 
from a drought State to a flood State in a period of 30 days. 
We are in a flood situation, if you can imagine.
    Senator Byrd, if you went to New Mexico today you would not 
recognize it as the same State that you have visited three or 
four times in your life. It is green pastures everywhere 
because we have had over a month in which we have had rain 
every other day. Everything is green. The problem is that with 
that has come tremendous floods.
    I just want you people in charge to know that this Senator 
is very worried about how effective you are going to be in 
responding to New Mexico, because we have a very peculiar 
problem. I am going to put the question to you and just ask you 
to talk with me a minute about how you do this. We have not had 
one downpour that just racked up the city of Alamagordo. We had 
a series, one following on another with time in between. At any 
particular time it was not a disaster, but when you start 
looking at the cumulative effect of five or six huge rainfalls 
they have a disaster situation in my home State.
    We have filed for disaster relief and I would like to just 
find out from you, in evaluating requests for Federal 
assistance from the State of New Mexico that relate to these 
summer floods, will FEMA consider that the rainfall did not 
cease for weeks on end and consider the cumulative effect of 
these intense storms, and what additional information should we 
provide to you, if any, so that we can get maximum exposure of 
our problems to you so that you can take care of what you are 
obligated to do, no favors asked?
    Mr. Paulison. No, sir. In fact, the State has applied for 
two declarations. The first was denied and the State has 
appealed. The second one, for the floods that you are talking 
about, we approved everything the State asked for, individual 
assistance and public assistance. But we are still working with 
the State because I know there is maybe another county they 
want to add to that, looking at that very carefully.
    We are working with the State very closely. We know very 
clearly that you have a lot of issues there and we want to make 
sure that we can give you everything that is legally due. But 
we are in contact with the State, making sure we work with 
them, making sure that if there is more information needed they 
know what it is. We want to approve everything we can possibly 
approve. This is not one of those issues where we do not want 
to approve it. We want to give them everything that we possibly 
can.
    When the last declaration came in I signed off on it and 
sent it over to the President and the President approved 
everything the governor asked for.
    Senator Domenici. I understand that, in spite of your 
having other big problems, New Mexico is going to be looked at 
from the standpoint of what it is actually entitled to?
    Mr. Paulison. Absolutely, sir, absolutely.
    Senator Domenici. All right.

                      HARMONY IN WORKING TOGETHER

    My last question is again an observation. Maybe I could 
just ask going down from you, Admiral, down the line. In terms 
of cooperating and working together in all respects, have we 
got--have things been put in the position that there is harmony 
and working together at every level in your opinion, Admiral?
    Admiral Allen. I think Under Secretary Foresman stated in 
his comments we have what I would call the Chertoff team in 
place. All the senior leadership in the Department have all 
been picked under Secretary Chertoff's tenure as the Secretary. 
We meet regularly. The operating components, which we call the 
gang of seven, meet on a weekly basis unless there is some 
reason for us not to. We are exchanging information, and I just 
signed an MOU with Ralph Basham of Customs and Border 
Protection about interoperability and how the Coast Guard and 
CBP are going to work together, sir. I think things are going 
fine in that regard.
    Mr. Foresman. Senator, I would echo what Admiral Allen has 
had to say in the context of inside of the Department and, 
frankly, across the Federal inter-agency. The series of 
exercises that we did from the Cabinet on down through the 
assistant secretary level, the level of cooperation between the 
Federal inter-agency is from my perspective as someone who has 
been in the business and spent a lot of time in Washington 
dealing with the Federal family before I came to this position 
much better than it has ever been before.
    We still have more work to do to strengthen our 
partnerships with the State and local governments and with our 
private sector partners out there, but I would just remind the 
committee, 4 weeks ago we managed to turn on a dime in response 
to the British airline plot. The one thing I will tell you is 
we were finally able to tell our State and local partners a 
critical piece of information before they saw it on the news 
media.
    So our system is getting better. The components inside the 
Department from Admiral Allen to Kip Hawley at TSA to Dave 
Paulison, with very short order the issue was put in front of 
them, the contingencies needed to be developed and they needed 
to be implemented, and we did that in the space of about 8 or 
10 hours. You do not do that unless you have got phenomenal 
levels of cooperation inside the Department and across the 
Federal inter-agency.
    Senator Domenici. Thank you.
    Mr. Paulison. Yes, I have to echo that also. When I was 
asked to take this job I knew I needed support from the 
Secretary and the President, but I also needed support from my 
fellow managers inside of Homeland Security. If I did not think 
I would have gotten that, I would not have taken the job. It 
has been a phenomenal amount of support that I have personally 
received, not only as a professional, but also we develop 
friendships.
    What you see here, we are not here by accident. We work 
together. We visit each other's offices. We meet on a regular 
basis several times a week usually to make sure that we are on 
the same page and we are all supporting each other. It is 
coming together, especially since Hurricane Katrina, better 
than I have ever seen. I am just very appreciative of the 
support that I personally get out of this organization.
    Senator Domenici. Thank you.
    Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Senator, and thank you for your 
kind comments, but really what this committee has done is a 
reflection of the membership of the committee and especially 
your leadership, especially on border issues, has been the 
essence of the exercise and critical to it. Of course, Senator 
Byrd has been extraordinary in his support of the efforts to 
try to get the Homeland Security Department fired up in the 
right direction, especially on border issues.
    We appreciate the panel's attention today. We do have a 
second panel and I do not want to hold you guys up from what is 
a very important job, and since I see there is another 
hurricane in the Caribbean we want to get you out there and 
make sure you can get ready for it. Thank you very much. We 
appreciate your testimony and appreciate your hard work, your 
service.
    Senator Cochran. Mr. Chairman, can I just say thank you 
also?
    Senator Gregg. We are joined by the chairman of the 
committee. Did you want to--did you have any questions?
    Senator Cochran. I just wanted to commend them for the good 
work they are doing. Thank you for cooperating with our 
committee. You have done a great job on the gulf coast of 
Mississippi and we appreciate it.
    Senator Gregg. Thank you.
    We are going to move now to our second group of 
professionals. These are the folks who are on truly the front 
lines. They manage the first responder effort of our Nation in 
various areas. Our first witness will be Bruce Baughman, 
President of the National Emergency Management Association, who 
is currently the Director of Alabama's Emergency Management 
Agency; and our second witness will be Ellis Stanley, a 
certified emergency manager, who is the principal manager for 
the City of Los Angeles Emergency Preparedness Department.
    We appreciate you gentlemen taking the time to come here 
today. Obviously what we are interested in is hearing your 
thoughts as to how you are interfacing with and how well you 
think the Federal Government is doing in giving you the 
resources and support you need to deal with a major catastrophe 
since you folks are on the front line and are the people who 
are going to have your individuals who work for you be the 
first responders at the event.
    We will start with you, Mr. Baughman.

STATEMENT OF BRUCE BAUGHMAN, PRESIDENT, NATIONAL 
            EMERGENCY MANAGEMENT ASSOCIATION
    Mr. Baughman. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, Ranking Member Byrd and members of the committee. 
What I want to do this morning is to provide you with a 
statement on kind of a record of our Nation's status of 
preparedness from my perspective. In my statement I am 
representing the National Emergency Management Association. As 
you mentioned before, I am currently the president of that 
association and director of the State of Alabama's emergency 
management organization. However, prior to that I did spend 30 
years with FEMA and did have the opportunity to respond to over 
100 major disasters, to include the Oklahoma City bombing, the 
World Trade Center, and Northridge earthquake.
    There are a couple of areas I would like to make some 
suggestions on today that need to be resolved to enhance our 
Nation's preparedness in several areas. One is addressing 
funding gaps that exist in State and local emergency 
preparedness. Second is strengthening and empowering FEMA 
through strong reform and clear organizational structures; and 
third is developing a consistent and timely method for State 
and local emergency management to provide input into DHS and to 
FEMA on policy and emergency management issues.
    Let me start off by talking about funding. One of the most 
important, critical components in strengthening our national 
preparedness response capability to natural disasters. The 
primary funding mechanism for that is the emergency management 
performance grant. The emergency management performance grant, 
however, has suffered from lack of attention in the last 10 
years. It is the only funding source--and I want to emphasize 
that, the only funding source--for natural disaster 
preparedness that State and local government has.
    Last year that was funded at $185 million. The current 
House mark is I think at $187 million, an increase of a couple 
million dollars over last year. The Senate mark--and we 
appreciate this--is somewhere around $220 million, which is a 
substantial down payment in making some advances in that area.
    I want to use this as an example to show the disparity 
between funding for terrorism preparedness, and we have plunked 
billions of dollars, as this committee knows, into terrorism 
preparedness for State and local government in the last few 
years. In the State of Alabama we get $22 million to prepare 
ourselves for terrorists. We get $25 million to prepare 
ourselves for the chemical stockpile in Anniston, Alabama. We 
get less than $3 million to prepare ourselves for natural 
disasters. Yet 31 times in the last 10 years our State has been 
hit by natural disasters. Something is wrong with the funding 
formula.
    A couple other things I need to mention is that EMPG, so 
many things are coming out of that pot right now that it was 
not intended to do. Some new mandates this year: the States had 
to revise State and local plans to comply with the national 
response plan. They had to adopt a National Incident Management 
System. They had to implement the national preparedness goal 
and target capabilities list. They had to update their 
evacuation plans and they had to participate in the national 
plans review, again with no increased level of funding, as a 
matter of fact in some cases reduced levels of funding.
    One of the things that State and local government does with 
an emergency management performance grant, which is the 
backbone for emergency management organizations--there have 
been a lot of complaints that emergency management only funds 
personnel. They fund the personnel to develop the plans, the 
exercises, the corrective action. They educate the public. They 
maintain our Nation's emergency response network at the State 
and local level.
    Right now these plans are being used to create and update 
plans for receiving distribution of commodities. In Hurricane 
Katrina that did not get done by the Federal Government. That 
was done by State and local governments. Debris removal plans, 
evacuation plans, sheltering plans, search and rescue plans, 
emergency medical plans, all of which are done by State and 
local government.
    It also funds the emergency management assistance compact. 
There were 65--it was a success story coming out of Hurricane 
Katrina--over 66,000 State and local personnel responded to 
Louisiana and the other affected States under that compact. 
Those personnel, the civilian personnel on those teams, were in 
fact trained under the emergency management performance grants.
    Right now, EMAC was funded at a level of $201 million in 
2003. I actually did that while I was still at FEMA. That grant 
runs out November of this year. We need additional moneys to 
help keep that compact going. NEMA is the custodian of that 
compact. Again, the response under that compact agreement far 
exceeded what the Federal Government provided.
    Reform of FEMA. Let me just cut to the chase and recommend 
three things. First, our opinion is that FEMA is really the 
right agency with the right authorities and the right 
relationships with the State and local government and with the 
other Federal agencies to coordinate disaster response. 
However, some of the things that need to be strengthened within 
FEMA and some roles that need to be clarified are as follows.
    One, the Federal Coordinating Officer. I have been a 
Federal Coordinating Officer out in the field. In the last 
couple of years, since FEMA has been put under the Department 
of Homeland Security, the ability of that Federal Coordinating 
Officer to make a timely decision in the field has been 
curtailed. As an FCO I did not have to do ``mother, may I'' 
with the Secretary to make a decision in the field. The FCOs 
now currently have to do that. I know our governor, Governor 
Bob Reilly, in testimony has said time and again: Put a person 
in the field that is empowered to make a decision and let them 
get on with it.
    We also strongly oppose the position of primary Federal--
Principal Federal Official. We feel that that adds a layer of 
bureaucracy that was not there before and in fact slows down 
the decision-making process.
    Director of FEMA. Director of FEMA needs to have a direct 
reporting relationship with the President. That does not mean 
it has to come out from under the Department itself, but, as 
the Chairman of the Joint Chiefs has the direct reporting 
relationship with the President in times of war, so should the 
director of FEMA. As an emergency manager in the State and a 
member of the Governor's cabinet, I report directly to the 
Governor and that works out great. I think that the Director of 
FEMA ought to have the same relationship. Also, we feel that 
there should be some recommended knowledge base established for 
the director of FEMA as well.
    Connecting preparedness with response and recovery. We feel 
it was a mistake and we went on record, we sent a letter to 
Congress and talked with Secretary Chertoff, that pulling 
preparedness out of FEMA was a wrong move. Preparedness as it 
relates to response and recovery to a disaster belongs in FEMA. 
You cannot have different people writing plans and then turn to 
FEMA and expect them to execute those plans when a disaster 
occurs.
    We feel that all-hazards funding to support that 
preparedness function also needs to be returned to FEMA. FEMA 
needs to have that direct relationship with State and local 
government. Right now, the way it stands, the only time I see 
FEMA is in the middle of a disaster. They have no preparedness 
function with State and local government, so we are there 
exchanging business cards in the middle of a disaster. It is 
not a way to run a railroad.
    The other thing that we feel is there should be a firewall 
put around FEMA, the way it is with the Coast Guard and with 
Secret Service. What has been the problem with FEMA is 
continual dickering with the structure of FEMA itself. The time 
has come for that to cease. Put it back together. Allow it to 
function the way it was designed to function.
    Let me talk a little bit about the State and local 
government. State and local governments are real players when 
it comes to the establishment of a national response system. We 
talk about a national response plan, which appears to be going 
back to a Federal response plan. There is little or no input 
from State and local government into that process.
    For example, the national response plan was just changed 
without any significant input or meaningful input on the part 
of State and local governments. We need to have a forum that 
promotes the input of first responders and State and local 
governments into any changes to the national response plan.
    In conclusion, I would like to emphasize that disaster 
preparedness begins with State and local governments, and 
assistance to enhance that preparedness is in dire need of 
Federal financial assistance. Long before the Federal 
Government shows up for a disaster, State and local government 
is shouldering the burden of emergency response. The better 
prepared State and local governments are to carry out that 
function, the less the burden on the Federal Government.
    Thank you, Mr. Chairman.
    [The statement follows:]

                  Prepared Statement of Bruce Baughman

Introduction
    Thank you Chairman Gregg, Ranking Member Byrd, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on our nation's preparedness. I am 
Bruce Baughman, the Director of the Alabama Emergency Management 
Agency. In my statement, I am representing the National Emergency 
Management Association (NEMA), whose members are the State directors of 
emergency management in the States, territories, and the District of 
Columbia. Currently, I am the President of NEMA and prior to my 
appointment in Alabama, I served in various positions at the Federal 
Emergency Management Agency (FEMA) for almost 30 years. This includes 
service as the Director of the now dissolved Office for National 
Preparedness and as Director of Operations on over 100 disasters 
including Oklahoma City, the Pentagon, and World Trade Center in 2001. 
I also worked on the development of the initial Federal Response Plan, 
which is the precursor to the new National Response Plan, and the U.S. 
Government Interagency Domestic Terrorism Concept of Operation Plan 
(CONPlan) during my tenure at FEMA. I bring over 32 years of experience 
in emergency management and I understand how emergency management is 
intended to work.
    I very much appreciate the opportunity to testify before your 
Committee today. This is the first time in 5 years that State and local 
emergency management leaders have been invited to publicly testify 
before the Appropriations Committee and we welcome this as a chance to 
share with you the preparedness priorities of State and local 
governments. There are several key areas that I wish to discuss with 
you today that need to be resolved in order to secure our preparedness:
  --Addressing the funding gaps that exist for State and local 
        emergency management;
  --Strengthening and empowering FEMA through strong reform and clear 
        organizational structures; and
  --Developing an outlet for consistent and timely input to Federal 
        partners on Federal policy and interpretation on emergency 
        management issues.
    Before I begin discussing those subjects, I want to note the 
efforts that Under Secretary Foresman and Under Secretary Paulison have 
made sure to work together to ensure that preparedness is closely 
linked with response and recovery within the Department of Homeland 
Security. However, we must continue to look at ways to prevent 
separation of emergency management functions and join preparedness with 
response, recovery, and mitigation to re-link the cycle of emergency 
management.

Funding for Emergency Management--A National Priority Issue
    One of the most important and critical components for strengthening 
our national preparedness and response to disasters is Federal funding. 
While multi-billion dollar investments have been made in securing our 
homeland and preparing for acts of terrorism, funding for natural 
hazard preparedness has suffered. The current fiscal year 2007 proposed 
funding level for the Emergency Management Performance Grant (EMPG) is 
only $170 million, though the Senate approved amount is $220 million. 
After modest increases, EMPG's growth rate has not kept pace with 
inflation or increased Federal requirements. Some of these mandates 
include: updating State and local plans to reflect the new National 
Response Plan, adoption of and training on the new National Incident 
Management System (NIMS), requirements to implement the National 
Preparedness Goal and Target Capabilities List, updates of emergency 
evacuation plans, and participation in National Plan Reviews as 
mandated by Congress. This year, of all years, the Administration is 
proposing to cut EMPG by $13.1 million, despite the $260 million 
shortfall identified by NEMA in a 2004 study. NEMA just completed the 
2006 NEMA Biennial Report, which will be published at the end of 
September, and new survey numbers are available. Now, the shortfall has 
reached $287 million, which means another 10.3 percent more is needed 
for the program.
    While the House of Representatives proposed to address this year's 
EMPG funds with a $3 million increase over the fiscal year 2006 level, 
significant resources must be allocated to this vital program to ensure 
our nation's preparedness levels and we believe that the Senate 
approved amount makes a serious down payment to address the shortfall. 
NEMA is appreciative of Congress' recognition of the EMPG program, but 
this year we respectfully ask that Congress aggressively address the 
programs shortfalls with any additional funding possible.
    Natural disasters are certain and often anticipated. While Federal 
support to State and local governments is critical in disasters, we 
must be investing more resources to improve State and local capability. 
All disasters are local. Improving local emergency management 
capability will decrease the need for a comprehensive Federal response. 
The Federal Government, by its nature, is bureaucratic and cumbersome. 
Every State must be able to plan for disasters as well as build and 
sustain the capability to respond. EMPG is the only source of funding 
to assist State and local governments with planning and preparedness/
readiness activities associated with natural disasters. EMPG is the 
backbone of the Nation's all-hazards emergency management system and 
the only source of direct Federal funding to State and local 
governments for emergency management capacity building. EMPG is used 
for personnel, planning, training, and exercises at both the State and 
local levels. EMPG is primarily used to support State and local 
emergency management personnel who are responsible for writing plans, 
conducting training, exercises and corrective action, educating the 
public on disaster readiness and maintaining the Nation's emergency 
response system. EMPG is being used to help States create and update 
plans for receiving and distribution plans for commodities and ice 
after a disaster, debris removal plans, and plans for receiving or 
evacuating people--all of these critical issues identified in the 
aftermath of Hurricane Katrina.
    The State and local government partnership with the Federal 
Government to ensure preparedness, dates back to the civil defense era 
of the 1950s, yet increased responsibilities over the last decade have 
fallen on State and local governments without increased EMPG funding. 
NEMA completed a Quick Response Survey in March 2006 to assess the 
impacts of the proposed cut to the EMPG program. Of the 42 States 
responding, 90 percent of the States will have to cut staff ranging 
from one person to more than 50 positions. If the cut is included in 
the budget: 20 States will have to cut between 1-10 positions; 10 
States will have to cut between 11-30 positions; 4 will have to cut 
between 31-50 positions; and 4 will have to cut more than 50 positions. 
In the same Quick Response Survey, 83 percent of responding States 
report that the majority of EMPG funds go to local grants, so the 
impact of the cut would be greatest on local governments.

State and Local Match
    EMPG is the only program in the Preparedness account within the 
Department of Homeland Security that requires a match at the State and 
local level. The match is evidence of the commitment by State and local 
governments to address the urgent need for all- hazards emergency 
planning, to include terrorism. EMPG requires a match of 50 percent 
from the State or local governments. According to the NEMA 2004 
Biennial Report, budgets for State emergency management agencies 
nationally were reduced by an average of 23 percent in fiscal year 
2004, yet at the same time States were continuing to over match the 
Federal Government's commitment to national security protection through 
EMPG by $96 million in fiscal year 2004, which is a 80 percent State 
and 20 percent Federal contribution.

Appropriate Support Needed to Strengthen Program
    Clearly, Congress wants to understand what is being built with 
these investments, especially in tight fiscal conditions. The 2006 
Quick Response Survey found that if States were to each receive an 
additional $1 million in EMPG funding for fiscal year 2007, States 
would use the following percentages for the following activities: 88 
percent of States responding would use the funding to update plans 
including evacuation, sheltering, emergency operations, catastrophic 
disasters and others; 83 percent would provide more training 
opportunities for State and local emergency preparedness and response; 
88 percent would provide additional preparedness grants to local 
jurisdictions; 69 percent would conduct more State and local exercises; 
and 61 percent would use funding for State and local NIMS compliance.

All-Hazards Approach
    The Federal Government must continue its commitment to ensuring 
national security though all-hazard preparedness. Without adequate 
numbers of State and local personnel to operate the all-hazards 
emergency management system, the infrastructure used to prevent, 
prepare for, respond to, and recover from all disasters will collapse. 
Unfortunately, Hurricanes Katrina and Rita illustrated the need for 
adequate emergency management systems from the ground up. Instead of 
making unbalanced investments towards terrorism preparedness, we must 
maintain an all-hazards approach and shore up the foundation of our 
response system for all disasters regardless of cause. We strongly 
encourage Congress to ensure predictable and adequate funding levels 
for the EMPG in fiscal year 2007 and beyond.

Mutual Aid
    Mutual aid is another key area that is supported by EMPG funds. The 
mutual aid assistance provided during 2005 vividly exposes the 
interdependencies of the Nation's emergency management system. For 
Hurricanes Katrina and Rita, the Emergency Management Assistance 
Compact (EMAC) has currently fulfilled over 2,174 missions with 49 
States, the District of Columbia, the U.S. Virgin Islands and Puerto 
Rico providing assistance in the form of 65,919 civilian and military 
personnel and equipment assets to support the impacted States. The 
estimated costs of this assistance may exceed $829 million. Many of the 
civilians sent to provide assistance were supported by the EMPG 
program. The nature of the Nation's mutual aid system demonstrates the 
need for all States to have appropriate capabilities to respond to 
disasters of all types and sizes. EMPG allows States and local 
governments to build this capacity both for their own use and to share 
through EMAC. The increased reliance on mutual aid due to catastrophic 
disasters means additional resources are needed to continue to build 
and enhance the Nation's mutual aid system through EMAC.
    NEMA is the administrator of the Emergency Management Assistance 
Compact (EMAC). The State-to-State mutual aid system, referenced as a 
key achievement and best practice to be built upon in many of the 
reports on Hurricane Katrina, is not a perfect system and strives to 
achieve continuous improvement. NEMA's members are proud of the success 
of the system and support initiatives to bolster operational response 
and elevate awareness of how EMAC works.
    In 2006 after Hurricane Katrina and Rita operations slowed, NEMA 
began the After Action Review for the 2005 Hurricane Season. In 
January, key State staff that were deployed or assisting from their 
home State as part of requests from impacted States were brought 
together in a focus group to begin identification of issues. In March, 
State and local staff deployed including representatives of a variety 
of national emergency response organizations including the National 
Sheriffs' Association, the International Association of Fire Chiefs, 
and many others, participated in a meeting to further cultivate the 
issues that went well and the issues for improvement for the 2006 
season. The final After-Action Report is anticipated later this year, 
however NEMA has already identified issues for immediate action 
including: revision and adaptation of the Requisition A to an online 
format; development of outreach programs to share information on EMAC 
with State and local government agencies and national organizations 
representing various emergency response disciplines; integrating EMAC 
into State training exercises; enhancing EMAC's resource tracking 
system; updates to the EMAC protocols and guidelines to implement 
lessons learned; and development of additional training materials and 
development of a cadre of trained EMAC personnel to deliver the EMAC 
field courses aimed at educating both State and local level emergency 
responders on the EMAC system.
    While EMAC is a State-to-State compact, FEMA funded the program in 
2003 with $2.1 million because of the national interests in mutual aid. 
The EMAC grant will end on November 30, 2006 and no additional funds 
have been committed at this time. We call on this Committee to urge 
DHS/FEMA to continue to fund EMAC, especially to implement the lessons 
learned from Hurricane Katrina.

Interoperability Remains a Problem
    Hurricane Katrina revealed that the issue of interoperability--the 
ability of various emergency responders to talk to each other through 
both voice and data systems--still has not been resolved. Over a 5-year 
period, DHS invested an estimated $11 billion in grants to improve 
communications systems. Larger cities were able to take advantage of 
Urban Area Security Initiative Program (UASI) grants to enhance their 
systems. However, less populous States or those with smaller to mid-
size communities that didn't qualify for these programs, faced a 
distinct disadvantage.
    Comprehensive interoperable communication is expensive and requires 
long-term financial investments. According to the 2006 NEMA Biennial 
Report, States estimate that it will require more than $7 billion to 
either achieve state-wide interoperability or reach levels required in 
each State's homeland security strategy. Of those States providing a 
dollar figure, this total averages in excess of $160 million per State.

Emergency Operation Centers
    During emergencies and disasters, emergency operations centers 
(EOCs) serve as the nerve center for State and local coordination. 
Federal agencies as well use these facilities as a central point for 
communication during response and recovery phases. After the 2001 
terrorist attacks, Congress provided some funding to States to update 
their EOCs. However, it only allowed for limited planning and a needs-
assessment.
    States continue to require more monies to enhance State primary and 
alternate EOCs. New data in the 2006 NEMA Biennial Report, it is 
estimated that almost $393 million would be needed to build, retrofit 
and upgrade the facilities. For local EOCs, that number increases to 
$1.1 billion, for a total of almost $1.5 billion. This includes the 
costs to upgrade equipment and software, train personnel, and conduct 
operations during emergency and non-emergency situations.

Ensuring Appropriate Reform for FEMA
    Unfortunately, the Administration, Congress, and all of us have 
stood by and watched as FEMA has become a shell of its former self. We 
are at the same point as the Nation was after Hurricane Andrew in 1992, 
questioning organizational structures, leadership, the roles of 
Federal, State, and local government, and even citizen preparedness.
    No Federal agency is more qualified structurally and statutorily 
than FEMA to help our Nation respond to and recover from disasters. 
FEMA has the direct relationships with State and local governments 
because of the grant programs and the disaster relief programs 
authorized through the Stafford Act. FEMA is the only Federal agency 
authorized under the Robert T. Stafford Disaster Relief and Emergency 
Relief Act (42 U.S.C. 5121 et seq.) to carry out duties on behalf of 
the President. The 1978 Reorganization Plan 3, which created FEMA, also 
gives FEMA the responsibility for all of the functions of emergency 
preparedness and response. The plan states:

    This reorganization rests on several fundamental principles. First, 
Federal authorities to anticipate, prepare for, and respond to major 
civil emergencies should be supervised by one official responsible to 
the President and given attention by other officials at the highest 
levels. The new agency would be in this position.

    FEMA is and should be the agency of choice to coordinate the 
functions of the Federal Government in response to disasters, 
regardless of their cause.
    FEMA has the ability to tap into the emergency responder community 
to build relationships through training and exercises. FEMA also has 
the skills to work cooperatively with State and local elected and 
appointed officials to work towards comprehensive recovery. FEMA has 
the coordinating function in the Federal Government and should have the 
ability to tap all the resources at the Federal level to respond to a 
disaster. However, all these areas need to be strengthened with an all-
hazards focus to ensure that Federal, State, and local governments are 
building relationships before a disaster and understand how to work 
together cohesively. Leadership is not a matter of one person in the 
agency, but requires systematic understanding and vision on how to 
assist State and local governments to undertake the recovery process.
    The time to stop the cycle of degradation of emergency management 
functions by reorganization after reorganization is now and we must 
systematically improve our Nation's emergency response system through 
verified lessons learned and not reactionary decisions. We hope that as 
we surpass the 1 year Anniversary of Hurricane Katrina and the coming 
close of the 109th Congress that action will be taken to strengthen 
FEMA that is thoughtful and immediate, but not merely action for the 
sake of action. NEMA must play a significant role in any compromise 
that is sought on FEMA reorganization.

Clarity in the Role of the Federal Coordinating Officer
    The Federal Coordinating Officer (FCO) must have the authority in 
the field to carry out the responsibilities of the position. The FCO's 
authority and responsibilities are clearly delineated in the Robert T. 
Stafford Disaster Relief and Emergency Relief Act (41 U.S.C. 5143 
Section 302). The statute outlines the functions and appointment of the 
FCO and the NRP must follow the Stafford Act authorities that empower 
the FCO to serve on behalf of the President in a declared disaster 
area;
    NEMA strongly supports eliminating the role of the Principle 
Federal Official (PFO). In NEMA's view, the position is duplicative. 
NEMA opposed the creation of this position in the drafting process for 
the NRP. Initially, the PFO was included in the NRP to address an 
incident prior to a formal disaster or emergency declaration. The PFO 
role adds additional bureaucracy and confusion to any disaster. The PFO 
position should be eliminated, consistent with the Senate report on 
Hurricane Katrina.

FEMA Director Criteria and Roles
    In any organization, leadership is a critical ingredient for 
success. However, when we are talking about FEMA, several reforms must 
be made to ensure that the FEMA Director is successful. Regardless of 
where FEMA is located, NEMA recommends that the FEMA Director has a 
direct reporting relationship to the President of the United States. 
The relationship could be structured like that of the Chairman of the 
Joint Chiefs of Staff reporting to the President in times of war or 
crisis. Criteria and a recommended knowledge base should be established 
for the FEMA Director position, to include:
  --Emergency management or similar related career at the Federal, 
        State or local government level;
  --Executive level management experience, governmental administration 
        and budgeting;
  --Understanding of fundamental principles of population protection, 
        disaster preparedness, mitigation, response and recovery, and 
        command and control;
  --Understanding of the legislative process; and
  --Demonstrated leadership including the ability to exert authority 
        and execute decisions in crisis situations.
    The President should continue to nominate and the Senate should 
continue to confirm the Director of FEMA, but more Congressional 
consideration and scrutiny should be given to the nomination to ensure 
the appointed official meets established criteria. Further, a fixed 
term appointment for not less than 5 years should be considered, so the 
nomination is not political. This would be similar to the model for the 
FBI Director. Finally, a vetting process should be established that 
includes a role for input by emergency management constituency groups 
similar to the American Bar Association role in judicial nominations. 
In order to attract candidates who can meet these criteria, salary 
levels must be adjusted, as the Second Stage Review changes made 
modifications reducing the FEMA Director salary.
    Most importantly, consideration needs to also be given to the 
connectivity between FEMA and the Preparedness Directorate within DHS, 
since all FEMA's preparedness functions were moved out into this new 
Directorate. When the Second Stage Review proposal was announced, NEMA 
articulated grave concern in a July 27, 2005 letter to the Department 
of Homeland Security regarding the Second Stage Review (2SR) creating a 
Preparedness Directorate that would be primarily focused on terrorism. 
The letter to Congress highlighted the lack of the Department's focus 
on natural-hazards preparedness and the inability to connect response 
and recovery operations to preparedness functions, as any unnecessary 
separation of these functions could result in a disjointed response and 
adversely impact the effectiveness of Departmental operations. 
Nevertheless, we are working to find ways to connect the new 
Preparedness Directorate with FEMA. Yet, confusion exists with the 
proposed National Preparedness Integration Program/Preparedness Task 
Force and regional preparedness officers roles in the FEMA regional 
offices. States are dealing with FEMA, the Preparedness Directorate, 
FEMA Regional Offices, Federal Preparedness Officers, and Protective 
Security Advisors, and it is all very confusing and we don't know who 
is in charge.
    In recent months, some of States that face regular hurricanes have 
looks at reorganizing their own functions within the State to ensure 
the proximity of emergency management functions to the Governor. Both 
Florida and Louisiana have made structural changes to their emergency 
management divisions to have the State emergency manager report 
directly to the Governor. It is my belief that Federal structures 
should mirror this organizational reporting chain and States should 
also take this into consideration for their own composition.
    Further, I personally believe that true all-hazards grants related 
to preparing for, responding to, and recovering from disasters belong 
back within FEMA in order to ensure the programmatic mission of the 
organization and maintenance of relationships at the State and local 
levels. Restoring these grants will also ensure that FEMA can 
effectively measure State and local government capabilities so they 
better understand where the Federal Government needs to play a role.

Roles of Federal, State, and Local Governments
    Preparedness is a continuum that must include buy-in from Federal, 
State, and local governments, and the private sector. A larger role 
must be developed for State and local governments to provide input on 
preparedness issues. In the past year, Congressional requirements with 
no funding were placed on DHS and State and local governments to 
complete the National Plan Reviews. Further, changes were made to the 
National Response Plan that did not even consult State and local 
governments who are players and have critical roles in a national plan. 
We have been told that we will have the opportunity to provide input 
later in the fall when DHS undertakes a full rewrite; however we remain 
concerned that our input will not be taken seriously. Finally, policy 
directives coming from DHS are often coming with very little advance 
notice, or with a very short time for State and local governments to 
provide input, this making it impossible to impact the process or 
provide meaningful input if there is disagreement with the policy 
decisions. We strongly urge this Committee and the Congress to look at 
strong stakeholder input vehicles that allow for the State and local 
governments who have to abide by new requirements to honestly be 
consulted in a serious way.
    The Federal Government must never become a first responder, but 
should remain focused on providing stronger funding for preparedness, 
emergency response, maintaining capabilities, and extraordinary 
resources that can be drawn on in a catastrophic event. The Federal 
role is a support and coordination function that assists with 
resources, expertise, and response capabilities when State and local 
governments are overwhelmed or do not have the resources to respond. 
Federal efforts should only augment State and local operations and 
never supersede the authorities given to the Governor in the Stafford 
Act.
    State and local governments should develop the capabilities to 
respond through strong emergency operations plans and tying the use of 
Federal funds to established standards. For example, in Alabama as we 
allocate EMPG funding locally, we require local governments to tie 
their funding to building performance capabilities in the Emergency 
Management Accreditation Program and if local governments don't perform 
with the funds given, we don't continue the funding streams and 
implement corrective actions. With this approach, we are looking 
broadly at the risks we face and not just at the last disaster. State 
and local governments must have the capacity to develop their own plans 
and execute these plans when it comes to distribution of resources and 
emergency supplies. State and local governments understand the unique 
needs of their communities and the threats they face. One of the things 
we ask our locals to do with EMPG funding is to create plans for 
receiving and distribution of ice, water, food, and other commodities 
from the Federal Government in the event of a disaster. In addition, 
emergency contracts should continue to be permitted, since State and 
local governments know who best can meet their needs after a disaster.
Issues for Federal Improvement
    While the House, Senate, and the White House have completed reports 
outlining the Lessons Learned and recommendations for improvement for 
Federal response to disasters, I feel it is important to articulate the 
issues that I saw as most important in those reports and the Federal 
Government's response to these issues relative to Hurricane Katrina.
            Federal Logistics Planning
    One thing that impacted States learned during Hurricane Katrina is 
that the Federal supply system did not and could not meet the State and 
local burn rates for commodities such as food, water, ice and other 
immediate needs. Recognizing this shortfall, the Federal Government has 
undertaken a massive effort to repair this system. My concern is that 
States recognized this Federal failure and have undertaken many efforts 
on their own to fix these logistical shortfalls. While this work is 
taking place at the national level, there is no clear understanding of 
what to expect from the Federal Government and how it will be 
integrated into State and local logistical plans.
            Regional Hurricane Exercises
    In the spring, DHS/FEMA announced their sponsorship of regional 
hurricane exercises to prepare the upcoming season. While this would 
appear to be a tremendous opportunity, the manner in which the Federal 
Government proposed to complete these exercises limited participation 
and could have adverse effects on a comprehensive objective assessment 
of our Nation's capability. First, the Federal Government proposed 
hosting these exercises in Atlanta or Miami with key State and local 
officials traveling to these central locations for tabletop exercises. 
We should ``train as we would fight'' with State and local governments 
activating and operating Emergency Operations Centers (EOCs) just as we 
would do in a real event. This approach would allow all of the State 
and local government representatives to test continuity of operations 
plans (COOP), communications systems, message flow and equipment and 
commodity tracking and other critical components of our response 
system. While we understand the need to test these vital systems, the 
last thing State and local governments need less than 2 weeks from the 
start of hurricane season is to travel out of State for the purpose of 
conducting a hurricane exercise in a cosmetic environment and under 
unrealistic conditions that do not reflect or test true capabilities.
            FIRST Teams
    This spring, some of my fellow State emergency managers had the 
opportunity to participate in a briefing in Baltimore, MD on new FEMA 
FIRST Teams. These teams, first on the ground during a disaster to 
provide the Secretary of Homeland Security with situational awareness, 
have the potential to provide improved coordination and unity of 
effort, similar to what led to the successes during Katrina in 
Mississippi. The concept is good but the pre-deployment coordination 
and reporting protocol raises some issues. Teams should never be 
deployed directly to a local jurisdiction; rather deployment should be 
requested and coordinated by the State EOC based on a State's 
operational capability and magnitude of the event. The teams should 
also work with existing ERT-A and ERT-N as part of the unified command 
system, and never outside that system. We recommended that through 
existing video teleconference capabilities that deployment of these 
teams be discussed and coordinated well before deployment and only at 
the State's request.
    The plan also calls for Federal law enforcement officers to be on 
the ground before the FIRST teams and that these officers would report 
back to the Secretary directly. States expressed their non-support for 
this initiative. While these individuals could be a valuable asset to 
the first team concept, operating outside the unified command concept 
(local, State, Federal-PFO, FCO, Emergency Response Teams, and National 
Response Plan), as it is proposed will undermine the unified command 
structure and breed an environment of mistrust between local, State and 
Federal partners.
    State representatives also urged FEMA to integrate the FIRST teams 
and any associated element of this concept into the existing unified 
command structure. Any other approach will only undermine the local-
State-Federal partnership and mutual respect and trust that is critical 
to the success in any joint effort.

Conclusion
    We appreciate Congress' increased attention and focus on disaster 
preparedness, response, recovery, and mitigation efforts. We ask that 
Congress look at ways to immediately influx the system with resources 
and innovation in order to face the challenges of the day. We cannot 
afford to repeat history and turn around to face the very same issues 
we faced with Hurricane Andrew as we did with Hurricane Katrina in 
2006, or in the next decade. We must face these issues now and resolve 
ourselves to ensure that Federal, State and local governments have 
adequate funding for baseline emergency preparedness so exercises and 
training can ensure that plans and systems are effective before a 
disaster. I thank you for the opportunity to testify on behalf of NEMA.

    Senator Gregg. Thank you. There is a lot of good thoughts. 
We appreciate that.
    Mr. Stanley.

STATEMENT OF ELLIS M. STANLEY, SR., CERTIFIED EMERGENCY 
            MANAGER, GENERAL MANAGER, EMERGENCY 
            PREPAREDNESS DEPARTMENT, CITY OF LOS 
            ANGELES
    Mr. Stanley. Chairman Gregg, Ranking Member Byrd, and 
members of the committee: Thank you for allowing me the 
opportunity to be here today to talk with you about emergency 
preparedness. My name is Ellis Stanley. I am the General 
Manager of Emergency Management for the City of Los Angeles. I 
am also here today as a representative of the International 
Association of Emergency Managers, of which I am a past 
president and formerly and currently the vice chair of the 
governmental affairs committee. I have over 32 years of 
emergency management in my career, from rural, medium, and 
large jurisdictions, over North Carolina, Georgia, and 
California.
    I said that to indicate that, no matter where you are, what 
size organization you are in, emergency preparedness is a key 
component and it deserves all the support that we can give, 
both local, Federal, and State. As stated, the most important 
and critical component in strengthening the Nation's response 
to disasters is Federal funding. Los Angeles has focused a 
significant amount of Federal funds that it has received 
through the urban areas security initiative into planning and 
prevention.
    While these funds are generally more focused on the threat 
of terrorism, it is not lost on us that much of the equipment, 
the training and exercises that we use the urban areas security 
initiative to finance have a dual use to assist in our 
preparedness against threats from natural hazards as well.
    Emergency management performance grants, as you just heard 
about their funding, is singly the most effective use of 
Federal funds in providing emergency management capacity to 
State and local government. As was mentioned, thank you for 
including the $220 million for EMPG in the Senate version of 
the DHS appropriation bill. The International Association 
certainly hopes that the Senate will prevail in the conference 
with the House. This funding is vital for improving 
preparedness, response, recovery, and mitigation, the entire 
emergency management process.
    It also supports people who have had added responsibility 
of administering homeland security funding programs and 
additional planning efforts since 2001. Some of the additional 
mandates you heard Mr. Baughman talk about with the NEMS, the 
national preparedness goal, target capabilities, et cetera.
    At the Federal level, it is time to begin building on what 
we have rather than continuing to reinvent the process. We are 
pleased that Chairman Collins' bill was amended to maintain the 
FEMA name. FEMA, which has many dedicated and hardworking 
employees, was once one of the most respected agencies in 
government and with strong leadership, given appropriate 
authority and the help of Congress, it can be again.
    Preparedness is what emergency managers do every day and in 
the process we are constantly working to improve. It is an 
integral part of that integrated system and we are pleased that 
the legislation which passed the Senate rejoins preparedness 
under FEMA as a critical element of this system. There are key 
steps that could be taken to improve the integrated emergency 
management process at the Department of Homeland Security and 
that would increase the level of partnership between those at 
the Federal, State, and local government responsible for the 
day to day emergency management processes.
    State and local emergency managers must be provided the 
opportunity to have significant continual and meaningful 
participation in the policy development process. The 
involvement of key stakeholders in the decisionmaking process 
leads to greater buy-in on decisions and better decisions 
overall.
    The Director of FEMA needs the maximum amount of access to 
the White House possible, especially in times of a disaster.
    FEMA should clearly be responsible for the coordination of 
Federal response to disasters. To be successful, FEMA needs to 
be given the authority to do the job. Adequate funding, 
resources, and personnel need to be provided for FEMA in such 
fashion that they cannot be reallocated without legislative 
action. A level of protection that is similar to that provided 
for the U.S. Coast Guard needs to be provided for FEMA within 
the Department of Homeland Security.
    All the key leadership positions in FEMA need to be filled 
with experienced, qualified, knowledgeable personnel. Officials 
within FEMA should have the maximum level of autonomy possible 
in order to take appropriate independent actions necessary 
during the response and recovery from a disaster.
    The Principal Federal Official, officer, position should be 
abolished, as was stated earlier.
    The FEMA regions should be strengthened. We are concerned 
about the role of the recently created regional preparedness 
offices. They seem to be operating independently from the FEMA 
regional directors. We believe these offices should be fully 
integrated into the existing regional process.
    There are a number of successful recent emergency 
management ventures. Director Baughman talked about the 
emergency management assistant compacts. They also include the 
Emergency Management Accreditation program, the Certified 
Emergency Program. For the first time we have a way to provide 
a metric for assessing preparedness in our country. We have 
only to look at the State of Florida, one of the first States 
in the Nation to receive emergency management accreditation, as 
a great example of a successful emergency management program.
    There have also been great strides in public-private 
preparedness initiatives around the country. Organizations such 
as the Business Executives for National Security, Business and 
Industry Council on Emergency Planning and Preparedness, DRI 
International, Emergency Management Accreditation Program, 
Global Partners in Preparedness, and more are recognizing the 
absolute necessity to incorporate the private sector into the 
planning, the training, and exercising process within our 
communities.
    It is time to look at creating a private sector assistance 
compact similar to the emergency management assistance compact. 
It is under consideration and we need to support that. It 
deserves our merit.
    Mr. Chairman, I thank you for giving me the opportunity to 
testify today and I will be happy to answer any questions you 
may have.
    [The statement follows:]

                 Prepared Statement of Ellis M. Stanley

    Chairman Gregg, Ranking Member Byrd, and distinguished members of 
the Committee. Thank you for allowing me the opportunity to provide 
testimony on the subject of emergency preparedness.
    My name is Ellis Stanley and I am the Vice-Chair of the Government 
Affairs Committee of the International Association of Emergency 
Managers (IAEM). I am also the General Manager of the city of Los 
Angeles' Emergency Preparedness Department. My 32 years of experience 
in emergency management cover jurisdictions from Brunswick County and 
Durham (city and county), North Carolina to Atlanta/Fulton County, 
Georgia to the second largest city in our Nation--Los Angeles, 
California. My experiences have covered emergency management from rural 
counties to metropolitan cities.
    The most important and critical component for strengthening our 
national preparedness and response to disasters is Federal funding. As 
the tragedies of 9/11 and Hurricane Katrina well illustrated, 
weaknesses in preparedness can undermine even the best resourced 
responses to disaster. These lessons echo what we have learned in Los 
Angeles through experience with earthquakes, floods, and fires. That is 
why Los Angeles has focused a significant amount of Federal funds that 
it has received through UASI into planning and prevention. And while 
these funds are generally more focused on the threat of terrorism, it 
is not lost on us that much of the equipment, training, and exercises 
that we use UASI to finance have a dual-use--to assist in our 
preparedness against threats from natural hazards as well.
    The city of Los Angeles conducts over thirty (30) exercises 
annually and even more training sessions not only for the city 
departments but for our mutual aid/urban area partners as well, to 
include private sector and non-governmental organizations. We've 
developed an ERT Challenge program for our CERT (Community Emergency 
Response Team) program that helps to keep trained community responder 
skills sharp. We've conducted Emergency Management workshops for all of 
the Los Angeles Urban Area partners as well as develop an Urban Area 
Response Plan. For this reason, the City of Los Angeles strongly 
supports continued funding for the UASI program for fiscal year 2007.
    In representing IAEM's Government Affairs Committee as well as the 
City of Los Angeles, I am committed to provide information spanning the 
concerns of our association's membership--which are primarily, although 
not exclusively--the city and county emergency managers across our 
great Nation.
    Let's tackle directly the issue of how prepared we are. I think the 
statement best summarizing our position on this topic comes from my 
colleague in Maine and Chairman of the IAEM Government Affairs 
Committee, Bob Bohlmann who said, ``We are better equipped than we have 
been in the past, but we may not be better prepared.''
    Mr. Bohlmann was making reference to the fact that we have 
successfully concentrated on the need to provide equipment to better 
prepare our Nation for response to disasters. Now, however, we need to 
turn our attention to the equally important task of re-establishing an 
effective emergency management system which links Federal, State and 
local partners in the integrated emergency management process--
consisting of mitigation, preparedness, response and recovery.

Funding Issues
    We would like to personally thank you for including $220 million 
for Emergency Management Performance Grants ( EMPG) in the Senate 
version of HR. 5441, the bill making Appropriations for the Department 
of Homeland Security for fiscal year 2007. IAEM certainly hopes that 
the Senate will prevail in the conference with the House. This funding 
is vital for improving mitigation, preparedness, response and 
recovery--the entire emergency management process.
    This funding is the single most effective use of Federal funds in 
providing emergency management capacity to State and local governments. 
No other source of homeland security funding is based on a consensus 
building process determining outcomes and specific deliverables 
backstopped by a quarterly accountability process. This program, which 
is cost shared, provides the funding for the emergency managers who 
perform the role of the ``honest broker'' at the State and local level 
and who establish the framework for preparedness, response, recovery 
and mitigation. EMPG is used for personnel, planning, training, and 
exercises at both the State and local levels. It also supports the 
people who have had the added responsibility of administering homeland 
security funding programs and additional planning efforts since 2001. 
Some of the additional mandates include: updating our local plans to 
reflect the new National Response Plan, training and adoption of the 
new National Incident Management System (NIMS), requirements in the 
National Preparedness Goal and Target Capabilities List, updates of 
emergency evacuation plans, and participation in National Plan Reviews 
as mandated by Congress.

Functional Issues
    At the Federal level, it is time to begin building on what we have 
rather than continuing to reinvent the process. We are pleased that 
Chairman Collins' bill was amended to maintain the FEMA name. FEMA, 
which has many dedicated and hardworking employees, was once one of the 
most respected agencies in government and with leadership and the help 
of Congress it can be again.
    Preparedness is what emergency managers do every day and is a 
process we are constantly working to improve. It is an integral part of 
an integrated system and we are pleased that the legislation which 
passed the Senate rejoins preparedness under FEMA as a critical element 
of this system.
    There are nine broad steps that could be taken to improve the 
integrated emergency management process at the Department of Homeland 
Security--and that would increase the level of partnership between 
those at the Federal Government, State governments and local 
governments responsible for the day-to-day emergency management 
processes.
    The Director of FEMA needs the maximum amount of access to the 
White House possible--especially in times of disaster.
    IAEM firmly believes in the need to retain the FEMA name and 
identity in conjunction with the Senate-proposed structure.
    FEMA should clearly be responsible for coordination of the Federal 
response to disasters.
    To be successful, FEMA needs to be given the authority to do its 
job. Many of us applauded how well the Coast Guard performed in 
Katrina--they were an agency with a mission and were given the 
authority to perform it. FEMA should be given the same.
    Failure to provide a clear and direct line to Federal resources and 
expertise in a disaster will lead to critical confusion and delays. 
This increases the potential for a response that isn't adequate to the 
disaster. We've seen a definite withering of the relationships between 
the Federal Government and State and Local Governments that has been 
helped along by unclear and ambiguous relationships. These need to be 
crystal clear and they need to originate with and pass through FEMA.
    Adequate funding, resources and personnel need to be provided for 
FEMA in such fashion that they cannot be reallocated without 
legislative action.
    A level of protection similar to that provided for the U.S. Coast 
Guard needs to be provided for FEMA within the Department of Homeland 
Security.
    All of the key leadership positions in FEMA need to be filled with 
experienced, qualified and knowledgeable personnel.
    A culture of empowerment established and maintained within FEMA 
that promotes the maximum level of autonomy and supports the 
independent actions necessary to deal with the consequences of a 
disaster.
    State and local emergency managers have great difficulty dealing 
with policies as ``moving targets'' during the response to and recovery 
from a disaster. In order to be credible representatives of the Federal 
Government, officials within FEMA should have the maximum level of 
autonomy possible in order to take appropriate independent actions 
necessary during the response to and recovery from a disaster.
    The Principal Federal Officer (PFO) position should be abolished, 
as it leads to confusion and contributes to the difficulties I have 
mentioned above.
    The role of the PFO remains unclear in comparison with the Federal 
Coordinating Official (FCO). We agree with both the House and Senate 
Committees that this position should be abolished.
    The FEMA regions should be strengthened.
    There continues to be discussion of creating a new DHS regional 
structure. FEMA has an existing regional structure and the resources 
required in creating and maintaining a duplicate DHS regional structure 
should instead be devoted to strengthening and integrating the 
emergency management process in the existing structure. As an example 
of the need for greater integration, the recently created regional 
Preparedness Officers seem to be operating independently from the 
current FEMA regional directors. Our members are already experiencing 
confusion and uncertainty as a result of this. We believe these 
officers should be fully integrated into the existing FEMA regional 
structure. Or, in the alternative, the duties of the Preparedness 
Officer should be incorporated into existing FEMA regional personnel--
for example, the FEMA Regional Director.
    State and Local emergency managers must be provided the opportunity 
to have significant, continual, and meaningful participation in the 
policy development process.
    The involvement of key stakeholders in the decision-making process 
leads to greater ``buy in'' on decisions, and better decisions overall. 
All levels of government are partners in the operation of integrated 
emergency management. Therefore, it is of the utmost importance to make 
sure that those who have responsibility for day-to-day emergency 
management operations in our cities, counties and States are consulted 
on matters of policy, its implementation, and operations. This means 
more than consulting with Law Enforcement, Fire, and Emergency Medical 
Services--they are important, but they do not represent the entire 
emergency management picture. Actual day-to-day emergency managers--
responsible for mitigation, preparedness, response and recovery during 
a disaster--have yet to be adequately represented in Department of 
Homeland Security decisions. The emergency managers we're describing 
are those responsible for the entire integrated emergency management 
processes in our local jurisdictions during a disaster. Please notice 
that the complete spectrum of emergency management activities is 
represented in this system--and that preparedness is not artificially 
divorced from the rest of the emergency management process.
    Another great example of the need to involve genuine local 
emergency managers in decision-making processes was the National Plans 
Review. Had all the stakeholders--including local emergency managers--
been involved in the review of this decision, there would have been 
more opportunity to discuss some of the assumptions underlying the 
National Plans Review (NPR). The assumption implicit in the NPR that 
every jurisdiction in the United States needs to create a jurisdiction-
wide evacuation plan is simply unwarranted and not based in reality. 
Inclusion of local emergency management stakeholders in this discussion 
would have brought this to light immediately. As my colleague in 
Johnson County, Kansas and IAEM President Elect Mike Selves points out, 
``One size does not fit all.'' Therefore, it is not only necessary to 
include day-to-day emergency managers in the review of these decisions, 
but to make sure those emergency managers represent both small rural 
jurisdictions as well as urban jurisdictions.

Successful Preparedness Initiatives
    In response to interest expressed regarding improved preparedness, 
I would like to share with you some positive developments in the 
emergency management community.
    There are a number of successful recent emergency management 
ventures. These include the Emergency Management Accreditation Program 
(EMAP), the Emergency Management Assistance Compact (EMAC), and the 
Certified Emergency Manager credential (CEM).
    For the first time we have a way to provide a metric for assessing 
emergency preparedness in our country. We have only to look at the 
State of Florida, one of the first States in the Nation to receive an 
Emergency Management Accreditation, as a great example of a successful 
emergency management program.
    The preparedness of our communities for natural and human-caused 
disasters is of vital and growing importance to public health and 
safety, to the environment and to the economy. State and local 
emergency management programs--the entities responsible for planning 
and coordinating disaster prevention, mitigation, preparedness, 
response and recovery--play a crucial role in creating safer 
communities and in reducing losses to residents, businesses, and 
important infrastructures. In an effort to assure that State and local 
emergency management capabilities are as strong as they can be, a dozen 
national organizations have worked together to create an accreditation 
process for emergency management programs: the Emergency Management 
Accreditation Program, or EMAP.
    The goal of EMAP is to provide a meaningful, voluntary 
accreditation process for State, territorial, and local programs that 
have the responsibility of preparing for and responding to disasters. 
By offering consistent standards and a process through which emergency 
management programs can demonstrate compliance, EMAP will strengthen 
communities' capabilities in responding to all types of hazards, from 
tornadoes and earthquakes to school violence and bioterrorism. 
Accreditation is voluntary. Its intent is to encourage examination of 
strengths and weaknesses, pursuit of corrective measures, and 
communication and planning among different sectors of government and 
the community.
    The CEM or Certified Emergency Manager program is a certification 
program for individuals and EMAP assesses organizations/programs. CEM 
is administered by IAEM with the objective of producing professional 
emergency managers who can effectively accomplish the goals and 
objectives of any emergency management program in all environments with 
little or no additional training or orientation.
    EMAC, the Emergency Management Assistance Compact, is a 
congressionally ratified organization that provides form and structure 
to interstate mutual aid.
    Through EMAC, a disaster impacted State can request and receive 
assistance from other member States quickly and efficiently, resolving 
two key issues upfront: liability and reimbursement.
    There have also been great strides in the Public-Private 
preparedness initiative around the country. Organizations such as BENS 
(Business Executives for National Security), BICEPP (Business and 
Industry Council on Emergency Planning and Preparedness), DRII, and 
EMAP, GPP (Global Partners for Preparedness) and more are recognizing 
the absolute necessity to incorporate the private sector into the 
planning, training, and exercising process within our communities.
    Creating a Private Sector Assistance Compact similar to the 
Emergency Management Assistance Compact (EMAC) is under consideration 
and merits our support. There are many reasons why the government 
should be invested in engaging the private sector in its strategy for 
homeland security.
    More than 80 percent of information systems are owned by the 
private sector. Approximately 90 percent of critical infrastructure is 
owned by the private sector, including banking, finance, 
transportation, and intelligence systems, utilities and water supplies, 
and communication networks. Some of the most valuable institutions, and 
therefore the most desirable targets, are owned by the private sector.
    There are equally great reasons why the Private Sector should also 
invest. The private sector should be invested and engaged in domestic 
preparedness programs for reasons stemming from obligation to self-
interest.
    The clearest reason for private sector involvement in emergency 
preparedness is to ensure employee safety. After September 11, senior 
executives and boards recognized a ``heightened sense of 
responsibility'' for the safety of their people and consequently 
addressed the ``human factor'' of business. Many businesses realized 
that their greatest asset was their people, and that the greatest loss 
to the company was not the loss of revenues, but the loss of human 
life.
    Preparedness is an ongoing process. All across the country local 
and State emergency management offices are taking numerous steps to 
improve their ability to respond and recover from all hazards.
    Los Angeles has many examples of successful emergency management 
programs to include creating a community preparedness section that 
works directly with the neighborhoods to assure a strong and 
coordinated emergency management effort. We are developing a Special 
Needs Assistance Program that assists in our preparedness, response and 
recovery process.
    The creation of Emergency Network Los Angeles to coordinate and 
work directly with our community based organizations has proven very 
successful.
    Another example would be the great improvements that the 
Mississippi Emergency Management Agency made in their evacuation 
efforts in coordination with their local emergency managers following 
their experience in Ivan in 2004. Significant problems were identified 
and corrected. Three major evacuation routes I 0959, US 49 and US 98 
all converge in Hattiesburg. The new planning corrected the traffic 
flow around the city. Local emergency managers also worked with the 
State on details such as determining which exits needed to be open for 
fuel, which needed to be open for shelters so that small communities 
lacking in resources would not be overwhelmed, where wreckers should be 
positioned. Efforts were coordinated with the Red Cross to try to have 
the shelters opening early as far north as possible so that some space 
would be left nearer the coast for later evacuees. These and other 
changes greatly improved their evacuation for Katrina. However, there 
are more lessons learned from Katrina and additional issues to address 
such as accommodating emergency vehicles during contra flow of the 
interstate highways.
    In order to capitalize on the numerous successful initiatives by 
State and local emergency managers we are willing and anxious to 
partner with the Federal Government in reestablishing a truly 
coordinated, integrated, and collaborative national emergency 
management system.
    Thank you for giving me the opportunity to testify today. I will be 
happy to answer any questions you may have.

    Senator Gregg. Thank you, Mr. Stanley.
    I was interested in the overlap between your 
recommendations and Mr. Baughman. You must have negotiated 
that.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much again 
for organizing this hearing and inviting these witnesses to 
come before the committee. I know we learn a lot each time we 
have an opportunity to listen to those who have personal 
experiences in natural disasters on how we can respond in a 
more effective way at the Federal level organizationally and 
through financial opportunities through the appropriations 
process. We want to learn from this hearing, as we have from 
others.
    I was interested in Mr. Baughman's comments about the 
ability of the coordinating officers at the local level to be 
able ought make decisions. What are some examples of 
impediments to the decisionmaking process that exist now that 
did not exist before?
    Mr. Baughman. It used to be that a Federal Coordinating 
Officer could make decisions on, funding decisions in the 
field, as far as eligibility for the public assistance program, 
for the individual assistance program, to add counties on to a 
disaster declaration. Normally what happens is, like in 
Hurricane Ivan in our State, we started out with about 30 
counties that were added on and then each one of those had to 
be on it. So we finally got 67 counties designated in the 
disaster area.
    Each and every time, it used to be as a Federal 
Coordinating Officer I could make those decisions in the field. 
Now it has to be run up to headquarters, in some cases to the 
Secretary's office, before a decision is made. In the mean 
time, the rare occasions that did happen, it would be back to 
you in probably a day's time with a decision. Now it is taking 
weeks for a decision to be made and counties to be added. So 
that is delaying assistance.
    In the State of Mississippi, I know during Katrina that 
there were counties that needed to be added on that took 
sometime, a couple of weeks, before those were added on.
    Senator Cochran. I think one of the surprises from people 
around the country was how many counties in our State of 
Mississippi were affected by Katrina.
    Mr. Baughman. Right.
    Senator Cochran. People just assumed it was the coastal 
area that was the area that was really suffering the major 
damage. But there were even damages occurring up on the 
Tennessee line.
    Mr. Baughman. Yes, sir. We had the same thing in Hurricane 
Ivan in the State of Alabama. What is causing delays in the 
process is the FCO has to go to the PFO, who has to go to the 
director of FEMA, who has to go to the Secretary, before a 
decision is made. It used to be those kinds of decisions were 
made in the field.
    Senator Cochran. What do you recommend that we do? Try to 
put language in our appropriations bill or establish a new 
rulemaking process and change the rule?
    Mr. Baughman. I think that there has to be something that 
either deletes the role of the PFO or limits that to being what 
it was originally intended to do, and that was being a 
spokesman for the Secretary in the field and providing 
information to the Secretary on situational awareness. Right 
now that is evolving daily into an operational position which 
is an impediment to decisionmaking in the field.
    Senator Cochran. Mr. Stanley, when you began your testimony 
I could not help but have a flashback to Los Angeles and the 
earthquake that occurred several years ago out there. Were you 
in Los Angeles when that occurred or had responsibilities for 
recovery and response?
    Mr. Stanley. Actually, Senator, I was in Atlanta as the 
director in Atlanta, Fulton County. However, I have had some 
recovery situations as a result of the Northridge earthquake.
    Senator Cochran. That was a terrible event, unbelievable 
seeing the images on television and all the rest.
    Mr. Baughman. Senator, I did work that disaster.
    Senator Cochran. Did you really? Bad luck follows you 
around, does it not?
    Senator Cochran. What were some of your learning 
experiences from that in terms of sharing of Federal and local 
and State responsibilities?
    Mr. Baughman. The response operations in Northridge really 
were handled quite adequately by State and local government, 
primarily because the California Office of Emergency Services 
and Los Angeles has always had strong programs. However, had 
that been catastrophic in nature along the lines of Katrina, I 
think that there has been some workshops--like everybody talks 
about Hurricane Pam. There was actually a workshop held in 
California for a scenario in the L.A. Basin and some of the 
same issues, as Ellis knows, were identified for search and 
rescue and other things.
    If he had the money those things would be taken care of, 
because plans need to be developed. How do you get search and 
rescue teams in if you have got debris blocking the roads? And 
I do not talk about trees, where you can saw it up with chain 
saws. I am talking about structural collapse debris. How do you 
get search and rescue into those areas? That is one of the 
areas that I know California and Los Angeles have been working 
on.
    But again, I do not think that there is adequate plans in 
place or there is need for additional funding for that level of 
planning.
    Mr. Stanley. We have had some learnings obviously from 
Northridge. When we look at our critical infrastructure, we 
have had to change the law to reinforce the need for 
retrofitting of our hospitals. That would be the levies as a 
corollary if we had our catastrophic event, the loss of 
hospitals. So we are looking at how we can reinforce those 
hospitals.
    At the same time, we are looking at surge capacity, being 
able to work with the public hospitals, the private hospitals, 
and our private partners around there to create a system for 
surge, to be able to deal with field hospitals if necessary and 
other components.
    We have learned that the citizens emergency preparedness 
program, something started in the Los Angeles area to get 
citizens trained, was something that was definitely needed. 
Public education. We see a need now nationally for public 
education standards, so that whether we are in Mississippi or 
whether we are in California we are all speaking the same 
language as relates to public education.
    Senator Cochran. Thank you very much for your assistance to 
our committee.
    Senator Gregg. Senator Byrd.
    Senator Byrd. The Department of Homeland Security says, 
quote: ``The Emergency Management Performance Grant program 
funding request for fiscal year 2007 is sufficient for States 
to continue to develop intra- and interstate emergency 
management systems that encourage partnerships among 
government, business, volunteer and community organizations.'' 
Yet, the Department's nationwide plan review found, and I 
quote: ``The majority of the Nation's emergency operations 
plans and planning processes are not fully adequate, feasible, 
or acceptable. Basic plans do not adequately address 
catastrophic events. The most common deficiency is the absence 
of a clearly defined command structure.''
    Well, do you agree, Mr. Baughman, that the administration's 
proposed level of $170 million, a $13 million cut from fiscal 
year 2006, is adequate?
    Mr. Baughman. No, sir. And as I said in my testimony, our 
statistics at NEMA show that as of this year we are looking at 
a need of $287 million in EMPG. So no, it is not adequate. I 
think that the lack of preparedness is reflected in the plans 
review. I mean, the plans review, frankly I think it was an 
honest assessment. They came to my State. It was an honest 
assessment of the capabilities and I think it shows the 
deficiencies in State and local government.
    You do not get better planning by cutting money. Not only 
that, but the emergency management performance grant is 
supposed to be a 50-50 matching cost share on that. Right now 
local governments are putting in an average of about 80 percent 
to that. In Ellis's case in the city of Los Angeles, it 
probably constitutes less than 10 percent of his budget. So it 
is probably the best grant program in town. The other homeland 
security grants are at 100 percent; there is no State and local 
contribution. For EMPG there is. So for every dollar that is 
spent you probably get $3, $4 in return from local governments 
in the preparedness arena.
    So no, it is not adequate, in answer to your question.
    Senator Byrd. Well, what do you consider to be adequate?
    Mr. Baughman. Our figures have said that $287 million is 
what we feel that we need to address the shortfall.
    Senator Byrd. Will you say that again?
    Mr. Baughman. $287 million I think is the figure that--and 
let me doublecheck my figures there--on top of $183.1 million. 
It is an additional $287 million. Obviously, we do not expect 
that overnight, but an incremental down payment. I think what 
the Senate has done by having a mark of $220 million gives us a 
down payment. So I think that over time as we build up, I 
think--and frankly, when I was with FEMA I was head of the 
Office of National Preparedness. We had worked with Congress in 
2002 to get a $48 million bump-up in EMPG and the intent at 
that time was to continue to increase funding until we got to 
what we thought we would need to address the shortfall.
    Senator Byrd. Mr. Stanley, what preparedness benefits have 
you seen from the EMPG program in a large urban area like 
yours?
    Mr. Stanley. Senator, as Mr. Baughman indicated, EMPG 
represents less than 10 percent in my budget. But what we are 
seeing is that I am not in this thing alone. I have to work 
with all the jurisdictions. We have 88 cities within Los 
Angeles County. Obviously the city of Los Angeles is the 
largest. But it is critical that the 88th city has a program, 
that they have somebody that we can point to to coordinate that 
response, to be able to talk about mutual aid. If that 
jurisdiction has no capability to have those representatives or 
individual or that is a third responsibility for some other 
function, it lessens the capability.
    The same thing in rural America and other cities. That 
position is critically important. EMPG is one of the only ones 
that will allow you to hire people, to put bodies in the seats, 
as it were, to be able to do the necessary planning, 
preparedness, exercising, training, mitigation.
    Senator Byrd. What benefits have you seen?
    Mr. Stanley. Well, we have seen the increased planning. We 
have seen better trained individuals. We have seen the citizens 
be able to have a direct impact, bringing them to the table and 
getting them trained, letting them understand what their roles 
and responsibilities are, letting them be able to be part of 
that process.
    We have seen that element being able to incorporate the 
private sector locally so that you build that whole level up as 
you go up to the State and the Federal opportunities. We have 
seen in rural communities that before EMPG they did not have 
anyone, we have seen programs being developed. So there has 
been tremendous benefit with EMPG.
    Senator Byrd. Mr. Chairman, I commend you for restoring the 
President's proposed cuts in the EMPG program. I commend you.
    Senator Gregg. Thank you.
    Senator Byrd. It is not always so easy to do, but you do 
it. Thank you for that.
    Senator Gregg. I appreciate that, Senator, and I appreciate 
your support in that effort and we will try to hold that in 
conference or maybe improve on it a little if we are 
successful.
    This has been excellent testimony. I regrettably have a 
meeting I have to be at with the leader. But you both have made 
essentially the same points about how we should be reorganizing 
FEMA. You talked about giving the Federal Coordinating Officer 
more authority and reducing the role of the Federal principal 
officer and giving a direct line of authority to the President 
from the FEMA director and basically walling off FEMA in the 
way that the Secret Service is and a variety of other 
initiatives.
    There is presently floating around here, rather 
aggressively, a FEMA reorganization plan. You both represent 
very important elements of the entire preparedness effort and 
represent the national community in this area. It would be 
useful to this committee if you could have your organizations 
give us a critique of the proposal that is coming out of the 
oversight committee, because--our bill may end up being the 
vehicle that carries the authorizing language. At least there 
is some representation that that may occur. If that does occur, 
then I would like to get your critique and language that you 
think should be part of it to address those areas that you have 
highlighted for us. Is that possible?
    Mr. Stanley. Yes, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Gregg. If you could get that to our staff that 
would be very useful.
    We thank you very much. It has been very informative. We 
appreciate your time, appreciate your coming here. We 
appreciate your service and appreciate what you do out there on 
the front lines.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Richard C. Shelby

               USCG PREPAREDNESS AND RESPONSE CAPABILITY

    Question. The Coast Guard, like many Federal agencies after 
September 11, have seen a dramatic increase in their already expansive 
core responsibilities.
    Admiral, when you look at Coast Guard assets and the Deepwater 
program do you believe the Coast Guard is well placed to have an 
effective preparedness and response capability?
    Answer. As envisioned, the Deepwater program ensures that we will 
be able to meet our core responsibilities in a post September 11 
environment.
    The Integrated Deepwater System is absolutely critical to building 
a more ready and capable 21st-century Coast Guard; one equal to the 
challenging tasks we face today and anticipate tomorrow. The fiscal 
year 2007 Deepwater program request reflects the Administration's 
continued commitment to the recapitalization of the Coast Guard's 
aircraft and ships and the network linking them together in an 
integrated system. More capable and reliable cutters, boats, aircraft 
and associated systems will enhance safety and security in U.S. ports 
by improving the Coast Guard's ability to perform all missions.
    The Coast Guard is committed to maintaining a proper balance 
between its ``traditional'' and post 9/11 homeland security duties. 
Full funding of the President's fiscal year 2007 budget request, as 
well as on-going support for the Deepwater project, are essential to 
maintain Coast Guard traditional roles and its ability to act as lead 
Federal agency for maritime homeland security.
    Question. What are your shortfalls? Do you have the funding, 
manpower, and equipment required to fill all of the responsibilities of 
the Coast Guard?
    Answer. If properly funded, the $24 billion/25-year Deepwater 
sustainment, modernization, conversion and recapitalization project 
will equip Deepwater cutters and aircraft with systems and capabilities 
that will enhance successful execution of all mission areas in the more 
challenging post-9/11 threat environment. While recapitalization does 
result in modest near-term operational hour shortfalls for patrol boats 
and maritime patrol aircraft, it should lead to long-term gains in 
operational capability and capacity as new Deepwater assets enter 
service. The Coast Guard is pursuing patrol boat design and 
construction options to advance asset delivery dates and has revised 
the Deepwater implementation plan, keeping HC-130H aircraft in service 
longer while accelerating the purchase of CASA Maritime Patrol 
Aircraft, to try and mitigate these operational hour gaps.

                        PORTS AND COASTAL WATERS

    Question. I have recently been made aware that foreign vessels 
servicing offshore oil and gas facilities in the Gulf of Mexico are not 
required to register with Customs or the Coast Guard. Nor do they 
report on their activities and whereabouts while they are in the Gulf.
    Do you see this as a security threat to our Nation's ports and 
coastal waters?
    Answer. The Coast Guard employs threat-based, risk-managed 
decision-making in conducting all of its missions. Risk includes 
Threat, Vulnerability, and Consequences. While vulnerabilities exist in 
the given scenario, the Threat and Consequences are currently ranked as 
relatively low. Since the Coast Guard resources are limited, we employ 
a system of layered security which includes coordination and 
partnership with the oil and gas industry to create and oversee an 
effective maritime security regime. The Coast Guard also meets with 
representatives from the Offshore Marine Service Association (OMSA) and 
other smaller groups to address offshore industry issues. This 
coordination, along with Coast Guard activities to lead and conduct 
effective maritime security and response operations (boardings, 
inspections, etc.), allows the Coast Guard to identify and mitigate 
potential threats long before they increase the overall risk to 
maritime critical infrastructure and key resources (MCI/KR).
    Question. What is the Coast Guard doing to contain this possible 
threat?
    Answer. Currently the Nation addresses the risk to vessels and 
facilities on the Outer Continental Shelf (OCS), by requiring certain 
vessels and facilities to comply with the security regulations found in 
33 CFR 104 (Vessel requirements) and 33 CFR 106 (OCS facility 
requirements). Vessels engaged in the mineral and oil service (OCS 
activity), are required to have vessel security plans under 33 CFR 104. 
Additionally, production platforms that host 150 persons for 12+ hours 
continuously for 30 days or more, produce greater than 100,000 barrels 
of oil per day, or produce greater than 200 million cubic feet of 
natural gas are required to have facility security plans. Foreign 
vessels of 500 g.t. and foreign Mobile Offshore Drilling Unit's 
(MODU's) are required to comply with the International Ship and Port 
Facility Security Code.
    In addition, regulations require vetting of those vessels using the 
Louisiana Offshore Oil Port (LOOP) (33 CFR 150.325) using the advanced 
notice of arrival process.

                        INTELLIGENCE INFORMATION

    Question. As we have seen in recent weeks, intelligence is a 
critical piece to the prevention of terrorist attacks.
    In your opinion does the Coast Guard receive and accurately digest 
intelligence information in order to protect our maritime assets here 
at home and abroad?
    Answer. Yes, the Coast Guard does receive and accurately digest 
intelligence information in order to protect our maritime assets here 
at home and abroad. The role of the Coast Guard Intelligence and 
Criminal Investigations Program is to provide timely, accurate and 
actionable maritime border related information and other pertinent 
intelligence information so that decisions can be made and actions 
taken in support of the Coast Guard operational commanders, other 
members of the Intelligence Community and law enforcement agencies. 
Some of these efforts include:
  --Ongoing efforts to limit maritime vulnerabilities in the wake of 
        the 9/11 terrorist attacks. The MTSA of 2002 established a 
        number of measures designed to deter terrorist acts against the 
        U.S. maritime infrastructure, such as vessel and mariner 
        screening and port security planning.
  --Compiling information from around the United States to discern 
        patterns of suspicious incidents having a maritime nexus.
  --Program activities have been enhanced to assist in countering 
        potential maritime threats:
  --Creation of Field Intelligence Support Teams (FISTs) in key U.S. 
        ports.
  --Development of a Maritime Intelligence Fusion Center (MIFC) under 
        each Area Commander, to provide actionable intelligence to 
        Coast Guard operational commanders, while also sharing that 
        analysis with interagency partners.
  --Development of a joint support effort, COASTWATCH, with the Office 
        of Naval Intelligence. COASTWATCH does vessel, mariner and 
        passenger screening on Advance Notice of Arrival to U.S. ports.
  --Permanent presence on the FBI National Joint Terrorism Task Force 
        (JTTF) and select Regional JTTFs.
  --As a complement to the MTSA-mandated Port Security Assessments, the 
        Coast Guard Intelligence and Criminal Investigations Program 
        conducted Port Threat Assessments (PTA). PTAs provide threat 
        analysis for specific ports, inclusive of both terrorism and 
        crime--foreign and domestic--using law enforcement and 
        intelligence information.
    Question. Is the Coast Guard's intelligence operation sufficiently 
funded and running effectively?
    Answer. Yes, the Coast Guard Intelligence Criminal and 
Investigations Program is sufficiently funded. Additionally, the Coast 
Guard is also working closely with the Office of the Director of 
National Intelligence and the Department of Homeland Security to 
improve its intelligence programs and better integrate them with the 
Federal intelligence apparatus in accordance with the National 
Intelligence Strategy (NIS).

                            AVIAN INFLUENZA

    Question. There have been recent reports concerning the 
effectiveness of anti-virals that are cheaper and more plentiful than 
Tamiflu and seem to be effective against the bird flu virus.
    Is the government making plans to stockpile any of these 
alternative drugs?
    Answer. The Strategic National Stockpile (SNS) is maintained and 
updated by the Centers for Disease Control and Prevention. While 
oseltamivir (Tamiflu) is the most widely-discussed antiviral to be used 
for pandemic influenza, other options may be considered. Older and 
cheaper medications such as amantadine, have recently been shown to 
have reduced efficacy against seasonal influenza, and have been 
supplanted by oseltamivir. In the event of a pandemic, detailed 
analysis of the causative virus will be required to determine the most 
effective antiviral. We will work closely with Federal and private 
partners to optimize the SNS for this and other events.
    Question. Where is the Department in its mission to acquire the 
needed bio-defense countermeasures to protect us from a pandemic bird 
flu outbreak?
    Answer. Biodefense countermeasures in the event of a pandemic will 
include a combination of antivirals, vaccines, improved health care 
surge capacity, and social distancing measures. The Strategic National 
Stockpile is adding antivirals and will continue to improve these 
stockpiles as the manufacturers improve capacity. The Department of 
Health and Human Services has provided funding to a number of groups to 
improve vaccine production technology to improve our ability to create 
large amounts of pandemic vaccine. There is no specific vaccine now 
against the causative agent, and will not be until a pandemic occurs 
and a causative agent is identified. We are working closely with our 
Federal partners, principally HHS, to analyze methods for improving 
surge capacity, and to model the optimal social distancing and 
community shielding strategies.
    Question. Is the Strategic National Stockpile equipped to defend 
the American people from such a catastrophe?
    Answer. An accounting of the specific supplies within the Strategic 
National Stockpile (SNS) is available from the CDC. The SNS is adding 
supplies on a continual basis, and DHS is cooperating closely with HHS 
and other agencies in evaluating prioritization.

                COMMUNICATION WITH STATE AND LOCAL LEVEL

    Question. While I believe this has generally been addressed in your 
statements today, I believe one of the biggest shortfalls we had during 
Katrina was a lack of a clear chain of command and poor communication 
with government agencies at the State and local level as to the Federal 
Government's role.
    One example was the confusion over debris removal contracts how 
how's FEMA addressed this issue specifically and on a broader scale 
ensured that policies are clear and widely available to community 
leaders?
    Answer. FEMA's challenge is to educate communities and local 
governments across the county during periods of non-disaster activity 
on the programs and processes that will be used if and when disasters 
occur. Since disasters can strike anywhere in the country, this is a 
challenge for the Federal and local governments alike.
    To address the debris removal process specifically, a number of 
policies and other guidance documents addressing debris clearance 
issues have been issued since the Katrina-Rita hurricanes. Three have 
dealt with debris removal from private property, and two dealt with the 
specific issues of hazardous stump removal, and measuring capacity of 
hand-loaded trucks. In addition, a checklist for local governments 
contracting for debris removal and a summary of the authorities of 
other Federal agencies for debris removal were issued to clarify roles 
and responsibilities at all levels of governments in the debris removal 
process. A Memorandum of Understanding is being developed with the 
Federal Highway Administration to clarify the responsibilities of each 
agency for removal of debris from highways.
    In the area of oversight of debris removal work, two guidance 
documents are being developed for monitoring of debris operations for 
Federal, State and local monitors. All of the documents are or will be 
available on FEMA's Public Assistance web page. Also on the web is a 
registry page for debris contractors to list their information for use 
by State and local governments wishing to arrange for services by these 
contractors.
    FEMA believes that our regulations and policies that govern the 
Public Assistance Program (which includes debris removal) should be as 
transparent as possible. To this end, we provide State and local 
governments an opportunity to review draft policies, procedures and 
guidance documents before we finalize them. After reviewing all 
comments, we provide copies of the final documents to the National 
Emergency Management Association (NEMA) and other national associations 
for distribution to their member jurisdictions. We also publish these 
documents on our Public Assistance Program webpage. In addition, at the 
beginning of each disaster, we provide copies of relevant documents to 
State and local officials.
    Also, as FEMA reviews, updates and develops policies based on the 
lessons learned from Katrina, we are sharing these policies with 
national stakeholder organizations and with the States through our 
Regional Offices. Whenever possible, we are also providing a chance for 
stakeholders to review and comment upon our policies as they are 
developed.

                 DHS STANDARDS ON ENVIRONMENTAL THREATS

    Question. In light of recent reports about the environmental 
hazards associated with natural and manmade disasters, for example; the 
pollutants in the air at the site of the World Trade Centers or the 
toxic substances in New Orleans after Hurricane Katrina.
    Does DHS have standards by which they can measure environmental 
threats to first responders and local residents when an incident 
occurs?
    Answer. Standards for occupational safety are established by the 
National Institute for Occupational Safety and Health (NIOSH), a 
division of the Centers for Disease Control and Prevention. General 
environmental monitoring is under the purview of the Environmental 
Protection Agency.

                     URBAN AREA SECURITY INITIATIVE

    Question. The Urban Area Security Initiative provides funding to 
the largest most vulnerable municipalities in the hope of matching 
funding levels with risk.
    In light of the ``all hazards'' planning method, what is the 
department doing to ensure that funding and resources are properly 
focused on the most disaster prone areas of the Nation?
    Answer. The Department remains committed to providing all States 
and territories across the Nation with Federal funding to build the 
necessary capabilities for any kind of catastrophic incident, whether 
man-made or natural. Urban Area Security Initiative (UASI) funds are 
unique as they address the special planning, equipment, training and 
exercise needs of high threat, high density Urban Areas, and assist 
them in building an enhanced and sustainable capacity to prevent, 
protect against, respond to and recover from acts of terrorism. 
Nevertheless, in light of several major new national planning 
priorities, which address such issues as pandemic influenza and the 
aftermath of Hurricane Katrina, the allowable scope of UASI activities 
has broadened to include catastrophic events, provided that these 
activities also build capabilities that relate to terrorism.
    To further focus fiscal year 2006 homeland security funding, 
including the identified UASI participants, the Office of Grants and 
Training (G&T) facilitated a ``Risk and Effectiveness'' funding 
process. This process was predicated on the concept that Risk = Threat 
+ Consequence + vulnerability and involved the following factors:
  --Analysis of relative risk to assets as well as risk to populations 
        and geographic areas;
  --The anticipated effectiveness of State and Urban Area grant 
        proposals in addressing their identified homeland security 
        needs.
    Additionally, G&T began to strongly emphasize the importance of 
preparing for catastrophic incidents in fiscal year 2005 to all States 
and urban areas by allowing grant expenditures that aligned with the 
National Response Plan's Catastrophic Incident Response Annex (CIRA). 
This emphasis was restated in fiscal year 2006.
    The Department has also embarked upon a strong capabilities based 
planning approach for all States and urban areas to include the 
Nation's most disaster prone areas. Working through G&T and in 
accordance with Homeland Security Presidential Directive #8, the 
Department required all States, territories and urban areas to realign 
their existing State and/or Urban Area Homeland Security Strategy in 
fiscal year 2006 with the National Priorities listed below:
  --Expanded Regional Collaboration
  --Implement the National Incident Management System and National 
        Response Plan
  --Implement the Interim National Infrastructure Protection Plan
  --Strengthen Information Sharing and Collaboration Capabilities
  --Strengthen Interoperable Communications Capabilities
  --Strengthen Chemical, Biological, Radiological/Nuclear, and 
        Explosive (CBRNE) Detection, Response, and Decontamination 
        Capabilities
  --Strengthen Medical Surge and Mass Prophylaxis Capabilities
  --National Review of Emergency Operations Plans and the Status of 
        Catastrophic
    This approach directly links to and supports the National 
Preparedness Goal, the four homeland security mission areas it 
outlines, and the 37 key elements included in the Target Capabilities 
List (TCL) which are all-hazard in nature, encompassing the full 
spectrum of activities necessary to address the entire range of threats 
and hazards faced by the Nation. In fact, only six of the 37 
capabilities in the TCL focus strictly on terrorism; the remaining ones 
cut across all types of hazards, whether natural or manmade. G&T's 
portfolio of assistance programs support the development and 
sustainment of all capabilities across all four mission areas.
    Additionally, the Department recently reviewed UASI catastrophic 
planning through the Nationwide Plan Review. The Nationwide Plan Review 
focused on the planning capability within the TCL. The results of this 
review, which examined planning from an all-hazards perspective, are 
serving to guide the development and deployment of technical assistance 
resources and planning guidance to UASI sites. Additionally, the 
results will factor into eligible planning activities in the fiscal 
year 2007 grant guidance to allow for key issues identified during the 
review to be addressed. These efforts will prove invaluable to areas 
that are particularly prone to disaster.

                           OPERATIONS CENTERS

    Question. I know FEMA engages pre-staging as a hurricane is 
approaching or before the start of hurricane season, but I am 
interested in any plans that might be in place to permanently locate an 
operations center where pre-staging of commodities will take place.
    Does FEMA have any plans in progress to implement a program to 
strategically locate supplies and equipment within certain geographical 
regions?
    Answer. FEMA is working hard to develop a sophisticated, efficient, 
agile national logistics supply system capable of meeting emergent 
needs, responsive to trends, and anticipatory of long-term 
requirements. We want to ensure that the right commodities such as 
food, water and ice, can be provided at the right time and at the right 
place to meet victim needs. A great deal of progress has been made.
    As part of its Logistics program implementation, FEMA has 
strategically positioned resources in warehouses geographically 
dispersed across the country. Strategically located, these facilities 
are called Logistics Centers (LCs) which operate daily and carry 
initial response resources for an all hazards environment. FEMA is 
currently working with the Drug Enforcement Administration on an 
initiative to strategically locate pharmacy caches in these Logistics 
Centers. Currently FEMA has LCs located at Atlanta, GA; Fort Worth, TX; 
Moffett Field, CA; Frederick, MD; Cumberland, MD; Guam, Puerto Rico, 
Hawaii and at Berryville, VA (known as the Disaster Information Systems 
Clearinghouse, which contains electronic equipment such as laptops). In 
addition to these permanent facilities, FEMA uses commercial storage 
facilities to store additional ice, water and meals ready to eat. These 
commercial facilities are also located throughout the country in 
geographically dispersed areas. FEMA has plans to conduct further 
analyses to determine the optimum number and locations of Logistics 
Centers.
    FEMA also has a Pre-Positioned Disaster Supply (PPDS) program that 
was developed in 2003 to place life sustaining disaster equipment and 
supplies as close to a potential disaster site as possible. There are 
several types of PPDS containers. Two types are used to store Initial 
Response Resources (IRR): a 20 foot container that serves 250 people 
and a 40 foot container that serves 500 people. The containers hold 
blankets, cots, pillows, first aid kits, personal hygiene supplies, a 
small generator, power cords, and lighting. A Home Recovery Kit (HRK) 
contains equipment to aid in an initial emergency home repair with 
plastic sheeting, hammers, saws, nails, rope, personal safety 
equipment, a ladder, lighting sets, and a small generator.
    FEMA also operates the Pre-Positioned Equipment Program (PEP). PEP 
consists of standardized equipment pods and a Special Events Pod (SEP). 
The pods include equipment such as personal protective, 
decontamination, detection, technical search and rescue, law 
enforcement, medical, interoperable communications and other emergency 
response equipment and can be deployed, upon formal request, to support 
State and local governments in responding to a major chemical, 
biological, radiological, nuclear, explosives or natural hazard events. 
Pods can be deployed within 10 to 12 hours and are also deployable to 
supplement FEMA response operations to include the National Disaster 
Medical System (NDMS) and Urban Search and Rescue (US&R). Pod Support 
Teams consisting of specialized teams of responders staff the PEP pods. 
Additionally, since the SEP is provisioned with some civil disturbance 
equipment, it is available to Federal agencies to support National 
Special Security Events.
    Additionally, for the 2006 Hurricane Season, FEMA Logistics 
embarked on a massive pre-positioning effort in coordination with at-
risk coastal States. FEMA worked with the hurricane-prone States in 
Regions I, II, III, IV, and VI to determine their potential disaster 
response-related needs and subsequently developed and finalized pre-
positioning requirements for critical commodities. Pre-positioning 
requirements were determined based on individual discussions with each 
of the States concerning their anticipated shortfalls as well as 
analysis using standard disaster response models such as the United 
States Army Corps of Engineers (USACE) models. FEMA also has signed an 
Inter-Agency Agreement with the Department of Transportation (DOT) to 
lease trailers for pre-positioning. Over 1,100 trucks have been pre-
positioned. FEMA Logistics also developed a concept of operations for 
the 2006 Hurricane Season, which can be found as an annex to the 2006 
Hurricane Seasons CONOPS. FEMA will continue to review the lessons 
learned to aid in determining future pre-positioning efforts.

                     EDUCATION AND OUTREACH EFFORTS

    Question. Mr. Paulison, in your written statement you mentioned 
many new initiatives that have been taken to communicate with citizens 
as predictable events such as hurricanes approach and immediately 
afterwards. I believe the communication gap was one of the most 
frustrating issues for individuals and community leaders. I would like 
to hear more about your education and outreach efforts and the 
communication.
    What is FEMA doing to make sure that the public understands what 
the government's capabilities are and what they as individuals should 
be doing?
    Answer. FEMA has been working closely with the Department of 
Homeland Security's Office of Public Affairs updating its Emergency 
Support Function's (ESF 15) Standard Operating Procedures (SOPs), which 
serves as the Federal communications plan during incidents. Several 
States have indicated that they will incorporate ESF 15 SOPs into their 
own communications plans to ensure consistency and coordination of 
communications efforts. And, DHS and FEMA have initiated a quarterly 
conference call with all State communications officers, established an 
emergency communications protocol with State representatives, and 
through the regional public affairs officers, emphasized Federal-State 
relationship building regularly.
    In addition, FEMA has developed both a Concept of Operations for 
hurricane season communications that will ensure dissemination of key 
messages throughout the readiness, response and recovery phases, as 
well as a comprehensive library of communications products (such as 
news release templates, fact sheets on programs, public service 
announcement scripts) for use in all disaster operations.
    FEMA Public Affairs is working in coordination with its Recovery 
Division to improve its communication efforts to disaster victims. A 
contract is in place to assess all current Individual Assistance 
communication products for disaster victims. With feedback from a broad 
spectrum of FEMA staff, as well as State and local input, communication 
products such as letters, call center scripts and fact sheets will be 
reviewed, assessed and then modified as needed to ensure we are 
effectively communicating with those needing disaster assistance 
information.
    FEMA actively conducted outreach during the months leading up to 
the 2006 hurricane season. This communication strategy worked to 
generate media interest and engage State and local officials in 
communicating disaster preparedness, damage prevention and new 
initiatives and improvements that are in progress to enhance and expand 
FEMA's capabilities. A primary goal of this effort is to raise the 
awareness of individual responsibility and the roles of voluntary 
organizations, and the local, State and Federal Government in preparing 
for, responding to, and recovering from disasters.
    To achieve this FEMA worked to communicate relevant information 
through many forums and venues. Examples of this include, but were not 
limited to the following:
  --Extensive outreach (e.g. press release, fact sheet, interviews) 
        regarding FEMA's retooling efforts about initiatives being 
        undertaken by the agency to improve operations.
  --Participating in hurricane conferences across the Gulf and Mid-
        Atlantic States, with Director Paulison speaking about FEMA 
        initiatives in progress, and the roles and responsibilities at 
        all levels of government. Booths at the larger conferences 
        supplied extensive preparedness materials to attendees as well 
        opportunity to speak directly with FEMA representatives.
  --Partnering with NOAA for their annual Hurricane Hunter Tour, which 
        this year included the States of Texas, Alabama and Florida. 
        The week-long tour included media and the opportunity to reach 
        out to groups such as children, local officials and 
        congressional offices to convey preparedness information.
  --A FloodSmart campaign, encouraging individuals to purchase flood 
        insurance before the start of the 2006 hurricane season. This 
        campaign included press releases, talking points and a 
        satellite media tour to TV and radio stations.
  --An emphasis on public service announcements (PSAs), both TV and 
        radio on preparing for disaster, specifically hurricanes. The 
        National Association of Broadcasters assisted in distributing 
        the TV PSA to their members and FEMA pushed regionally as well.
  --FEMA featured a Media Day at the Fort Worth Logistics Center, and 
        has been promoting coverage of response capabilities and 
        operations during events such as the recent Tropical Storm 
        Ernesto. Our goal is to promote stories on preparing for 
        disasters, specifically hurricanes, as well as educating media 
        representatives about response capabilities so that they better 
        understand--and are able to clearly convey--the system and 
        process when disasters strike.
    FEMA has conducted extensive outreach to the media, including 
segments on national shows like Face the Nation, Meet the Press and the 
Dr. Phil show. A key element in these appearances has been a concerted 
effort to explain what FEMA has done to improve its preparedness for 
future disasters and responsiveness to disaster victims. The outreach 
has also allowed the opportunity to explain the important role that 
personal preparedness plays in the emergency management cycle.
    Communication is critical to emergency management--by those who are 
potential victims as well as to first responders and FEMA is working 
aggressively to be more transparent in what we do to prepare, respond 
and recover from disasters.

                   DISBURSEMENT OF AID TO COMMUNITIES

    Question. Another issue was disbursement of aid to communities, I 
heard regularly about some communities having too much and others 
having none at all for a period after landfall.
    Is FEMA working to coordinate aid at all levels of government and 
with the NGO's like the Red Cross?
    Answer. In the area of delivery of commodities to affected 
communities, FEMA is working hard to develop a sophisticated, 
efficient, agile national logistics supply system capable of meeting 
emerging needs, responsive to trends, and anticipatory of long-term 
requirements. All of the actions underway to improve FEMA's logistics 
capabilities are designed improve coordination and delivery of services 
to the disaster victims. We want to ensure that the right disaster 
relief commodities can be provided at the right time and at the right 
place to meet the needs of States, communities, and disaster victims.
    FEMA's logistics and commodity distribution capabilities have been 
improved by replenishing and restocking essential disaster commodities 
at logistics and staging facilities. Stockpiles of disaster 
commodities, namely food, water and ice, have been greatly increased. 
An agreement was signed in March with the Defense Logistics Agency to 
provide enhanced procurement, delivery, and vendor managed inventory 
capabilities to ensure stockpiles of emergency meals, water, and 
plastic sheeting are available. There is now more emphasis on providing 
commercial type meals better matched to the general population's 
nutritional and caloric requirements. In addition to replenishing and 
restocking essential disaster relief commodities at logistics and 
staging areas across the United States, FEMA continues to work with 
vendors to have a ready supply of needed commodities and assets for 
surge capability beyond FEMA's ``on hand'' capacity.
    FEMA has implemented a new tracking system to improve visibility of 
disaster assets and commodities from requisition to delivery of 
disaster commodities within hurricane-prone States, thus enhancing 
logistics management. This new capability will provide FEMA with an 
improved ability to manage its inventory of certain commodities and to 
track the location of trailers carrying commodities such as water, ice, 
emergency meals, plastic sheeting, tarps, generators, cots, and 
blankets. This tracking will provide real time status to FEMA and the 
States being assisted and will result in more effective and efficient 
delivery of relief supplies to disaster victims. FEMA will continue its 
efforts to expand this tracking system and plans to eventually expand 
it nationwide. Building on a strong system of strategic pre-positioning 
of Federal commodities developed in the last 2 years for quick 
deployment of assets to hurricane-prone States, FEMA has been closely 
coordinating with the States to improve commodity delivery. States have 
provided detailed information to FEMA regarding precise staging areas 
and points of distribution to the most valuable pre-determined 
locations to best reach populations in need. States will take ownership 
of Federal commodities and are charged with their distribution to 
individual citizens.
    The National Response Plan (NRP) applies a functional approach that 
groups the capabilities of Federal Departments and Agencies and the 
American Red Cross into Emergency Support Functions (ESF) to provide 
the planning, support, resources, program implementation, and emergency 
services that are most likely to be needed during disaster response. 
The ESF structure provides mechanisms for interagency coordination both 
for declared disasters and emergencies under the Stafford Act and for 
non-Stafford Act incidents.
    The American Red Cross (ARC) is the primary agency for any mass 
care issues during an Incident of National Significance under ESF #6. 
The functions under ESF #6, Mass Care, Housing, and Human Services, 
have been expanded to incorporate recovery elements that are initiated 
under the response phase. ESF #6 is designed to identify, focus, and 
support operations for the immediate, short-term, and long-term needs 
of victims of an Incident of National Significance in an effort to 
reduce human suffering. ESF #6 supports State, regional, local, and 
tribal government and nongovernmental organization (NGO) efforts to 
address the non-medical mass care, housing, and human services needs of 
individuals and/or families impacted. This function involves 
identifying the incident requirements and shortfalls and coordinating 
Federal resources to support all mass care services as part of a broad 
program of disaster relief. It also involves assisting with the 
identification and coordination of non-medical mass care services for 
sheltering and feeding operations, emergency first aid at designated 
sites, disaster welfare information collection, and bulk distribution 
of emergency relief items with appropriate agencies.
    FEMA has invested substantial time in meeting with the ESFs in both 
group and one-on-one meetings, including ESF #6, to discuss disaster 
response roles and responsibilities and address issues relating to 
functional and operational procedures and assignments. The meetings 
have also focused on ensuring that ESFs can maintain situational 
awareness and common operating picture capabilities. Furthermore, the 
recently revised NRP Catastrophic Incident Supplement (NRP-CIS) 
outlines an aggressive concept of operations, establishes an execution 
schedule and implementation strategy, and, in the supporting 
appendices, provides functional capability overviews and outlines key 
responsibilities of interagency partners. The Basic Plan provides a 
general strategic overview and outlines the tactical concept of 
operations at local, State, and Federal levels of government, to 
include detailed Federal logistical and transportation support actions 
and responsibilities. FEMA reached out to the American Red Cross (ARC) 
to ensure that their comments/concerns were addressed in the recently 
issued, revised NRP-CIS.
    Ultimately, FEMA is working toward implementing a supply chain 
management platform to support disaster logistics capabilities that 
will allow DHS to manage and track the sourcing, deployment, arrival, 
and demobilization of commodities, equipment, transportation assets, 
and response teams employed within the disaster theater of operations. 
All of our actions to improve logistics capabilities are being 
coordinated with our partners at all levels of government.
    With respect to disbursement of funds, Public Assistance funds are 
obligated into an electronic funds transfer account from which States 
can then disburse funds to applicants at the local level. Payment 
through the State is required by the Common Rule regulation (44 CFR 
part 13). FEMA assists the States and local communities in properly 
completing and submitting Public Assistance project requests, and 
ensures that eligibility criteria are equitably applied to each 
applicant, but the requirements for applicants to obtain funds from the 
States are determined by the States. Loans under the Community Disaster 
Loan Program are made directly to local governments as provided in 
Section 417 of the Stafford Act and based on equally applied 
eligibility criteria and the annual operating costs of the local 
government which will vary from local government to local government.

                           FEMA REIMBURSEMENT

    Question. In the aftermath of Hurricanes Ivan and Katrina 
communities in Alabama have been struggling with the time it takes FEMA 
to reimburse localities in the wake of these storms.
    Do you have a plan to remedy this situation?
    Answer. Although FEMA provides assistance to local governments in 
developing scopes of work and cost estimates for applicants to 
accomplish eligible work, FEMA does not reimburse the local governments 
directly. All reimbursements are provided to the States, who then 
reimburse the local governments. To provide some perspective, it is 
important to note that in the past year FEMA has processed 33,088 
project worksheets (PWs) for the five States impacted by the Katrina-
Rita hurricanes (Alabama, Florida, Louisiana, Mississippi and Texas) 
for a total of $5,989,788,800. This equates to an average reimbursement 
rate of over $16.4 million per day. For Alabama alone as a result of 
Hurricanes Ivan and Katrina, FEMA processed 5,192 PWs for a total of 
$328,511,817.
    Even with this unprecedented number of PWs processed, FEMA is 
committed to improving the reimbursement process. In coordination with 
the State, FEMA deploys staff with the appropriate skill sets 
immediately after a disaster strikes to assist local applicants in 
developing their project applications. We also assist applicants with 
supporting documentation that must be submitted to the State, and 
provide guidance to applicants on proper contracting procedures to 
minimize the number of errors to speed reimbursement. FEMA is 
continuing to review its processes and look for ways to further 
streamline the grant approval process to ensure funds are available to 
applicants as quickly as possible while still safeguarding against 
waste, fraud and abuse.
    Question. Are there plans in place to expedite the reimbursement 
process?
    Answer. We have established a Public Assistance Steering Committee 
to review and recommend standardized procedures and improvements to all 
Public Assistance policies and procedures, which will include a 
thorough review of the reimbursement process.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                  SPLITTING PREPAREDNESS AND RESPONSE

    Question. Hurricane Katrina proved that, as currently organized, 
the Department of Homeland Security is not prepared to deal with a 
major disaster.
    Why is it that you are comfortable with the decision to split the 
preparedness and response missions between the Preparedness Directorate 
and FEMA?
    Answer. The Department of Homeland Security's Second Stage Review 
realigned Preparedness activities under a single directorate to allow a 
steady focus on preparedness activities, enabling FEMA to focus on the 
core mission of coordinating the response to, and assisting the 
recovery from, disasters and emergencies regardless of cause. These two 
offices, while organizationally separated, were integrated towards a 
common purpose within the Department.
    With the passage of the fiscal year 2007 Homeland Security 
Appropriations Bill, these two entities will be combined into one DHS 
component office. The Department supports the organizational 
integration of FEMA and Preparedness; under the new structure, these 
offices can maintain dedication to their respective missions while 
increasing coordination for their complementary duties.

                         MEASURING PREPAREDNESS

    Question. Since fiscal year 2004, we have spent over $18 billion on 
Homeland Security grants to State and local governments.
    Yet we are holding this hearing today and asking--Are we prepared?
    Answer. Since the attacks of September 11, 2001, the Department of 
Homeland Security has invested more than $18 billion in terrorism 
preparedness and other first responder support including planning, 
training, specialized equipment, technical assistance and exercises in 
order to help meet the needs of our Nation's stakeholders and 
preparedness partners. This funding is provided for the development of 
national preparedness initiatives that further the DHS mission of 
preparing the Nation to prevent, protect against, respond to, and 
recover from incidents of terrorism or catastrophic events. The funding 
assists in filling identified capability gaps for our Nation's first 
responders and other disciplines, including governmental entities, 
nonprofits, faith-based organizations, medical personnel, and citizens.
    First responder training is also a critical element in 
preparedness. For example, since September 11, 2001, the DHS 
Directorate for Preparedness' Office of Grants and Training (G&T) has 
dedicated approximately $900 million to training first responders and 
the Nation's emergency response community. To date, G&T training 
activities have resulted in the training of thousands of first 
responders, emergency response personal and public officials. 
Currently, G&T has over 70 courses available to support the Nation's 
preparedness efforts.
    Other examples of G&T's training efforts include training programs 
developed through the Competitive Training Grant Program (CTGP). 
Training developed under CTGP is required to be innovative and non-
duplicative of current training offered by the National Domestic 
Preparedness Consortium (NDPC), other G&T training partners, or other 
disseminated training in the field. The CTGP is unique since it 
specifically allows for the target population needing the identified 
training to have a role in the development of the training to address 
their specific needs in homeland security preparedness. This 
involvement is a true partnership in homeland security. The end result 
is greater knowledge, increased involvement, and a wider distribution 
of the training.
    The Department of Homeland Security has also invested in the 
development of exercises and evaluation procedures that allow for 
cross-cutting assessments of the Nation's preparedness identifying 
strengths and weaknesses and creating future training, planning and 
investments. These exercises provide national leaders with the 
opportunity to work together, identify key policy issues, refine key 
incident management procedures, and improve their ability to respond to 
Incidents of National Significance. They also allow responders from 
different jurisdictions and agencies to form the professional 
relationships that are critical during responses to real incidents. The 
Directorate for Preparedness has established the National Exercise 
Program and the Homeland Security Exercise and Evaluation Program, 
which provide the means to conduct periodic evaluations in performance-
based exercises.
    All of these efforts tie directly to the common planning and 
strategic approach found within the all-hazards National Preparedness 
Goal (Goal). Preparedness requires a coordinated national effort 
involving every level of government as well as the private sector, non-
governmental organizations and individual citizens. It addresses 
capabilities for the full range of homeland security missions, from 
prevention through recovery. By identifying mission areas, national 
priorities, and target capabilities, the Goal facilitates systematic 
resource allocation to close capability gaps, thereby enhancing the 
effectiveness of preparedness efforts.
    Funding from Homeland Security grants to State and local 
governments has been allocated to strengthen State and local level 
capabilities in line with the capabilities-based planning emphasis of 
the National Preparedness Goal. Examples that support the Goal and 
national preparedness priorities include the following:
  --Urban Search and Rescue teams (USAR) that are fully equipped, 
        trained, exercised;
  --State Agricultural Response Teams (SART) that are fully equipped, 
        trained, and exercised;
  --Regional Interoperable Communications vehicles that are fully 
        equipped, trained, and exercised;
  --Information Sharing activities that include fusion centers that are 
        equipped and are operational;
  --Chemical Biological Radiological/Nuclear Explosive-Hazardous 
        Materials teams (CBRNE-HAZMAT) that are fully equipped, trained 
        and exercised.
    The development of tools such as the National Preparedness Goal and 
all-hazards capabilities-based planning provide a framework to 
effectively measure progress as we continue to improve the Nation's 
preparedness.
    Question. There is still a real tension between terrorism and 
natural disasters when we discuss preparedness. This tension is present 
despite the fact that the very same people--our firefighters, police, 
medical personnel, public works officials and emergency managers--show 
up no matter if the disaster is man-made or natural. I wonder if the 
Department can lead us toward preparedness if we are still struggling 
with what to prepare for.
    Under Secretary Foresman--two questions--how do you define 
preparedness?
    Answer. In HSPD-8 (National Preparedness) Preparedness is defined 
as ``the existence of plans, procedures, policies, training and 
equipment necessary at the Federal, State, and local level to maximize 
the ability to prevent, respond to, and recover from major events.'' In 
support of HSPD-8 implementation, DHS developed a list of all-hazards 
Target Capabilities (the ``Target Capabilities List, or TCL'') that 
concretely defines preparedness for four common and thirty-three 
specific prevention, protection, response and recovery capabilities. 
These capabilities define measurable outcomes, identify critical tasks, 
and establish target levels of performance. They reinforce the premise 
that all-hazards preparedness is a shared responsibility and 
encompasses deterrence, prevention, protection, response, recovery and 
mitigation against threats to the homeland. These capabilities are 
fully interchangeable (all-hazards), with the exception of five 
prevention mission capabilities that are specific to the threat of 
terrorism. The General Accountability Office (GAO) concluded in a July 
2005 Report (GAO-05-652, ``DHS' Efforts to Enhance First Responders' 
All-Hazards Capabilities Continue to Evolve'') that a review of the TCL 
(which at the time included 36 rather than 37 capabilities) that: ``Our 
analysis of the target capabilities established by DHS showed that most 
of DHS's targeted capabilities--30 of 36--are common to both terrorist 
attacks and natural or accidental disasters.''
    Lastly, it is not the sole responsibility of FEMA or the 
Preparedness Directorate, it is a mission shared among DHS, the Federal 
interagency community, our State, local, territorial, tribal and 
private sector partners and, most importantly, with the American 
people.
    Question. How do you measure it so that we know if we are getting 
somewhere?
    Answer. DHS' Directorate for Preparedness (``Preparedness 
Directorate'') was constituted during 2005 as one of the major outcomes 
of the Department's Second Stage Review. Preparedness assets from 
across DHS are now congregated in the Preparedness Directorate. The 
Preparedness Directorate bolsters the Nation's security through a 
multi-layered system of preparedness measures based on risk assessment 
and management. Over 1,000 employees in the Directorate are at work to 
improve our ability to manage and measure our Nation's preparedness. In 
response to HSPD-8, (National Preparedness), the Directorate developed 
a National Preparedness Goal and national preparedness priorities that 
establish guidance and targets for strengthening and measuring the 
Nation's preparedness. As part of HSPD-8 implementation, DHS adopted a 
capabilities-based planning approach, and developed a comprehensive 
library of thirty-seven capabilities (the ``Target Capabilities List, 
or TCL'') that establish the foundation for measuring preparedness by 
defining required target levels of performance. Fiscal year 2006 DHS 
Grant Guidance included Target Capabilities as the construct for 
investment justifications. The Preparedness Directorate's Office of 
Grants and Training has conducted a pilot capabilities assessment to 
determine best practices for capability measurements and readiness 
determinations.
    The National Preparedness Goal and TCL comply with the HSPD-8 
requirement to ``establish readiness benchmarks and targets to 
strengthen the Nation's preparedness.'' The Goal includes eight 
national preparedness priorities that are linked to specific 
capabilities. Each capability is clearly defined, has a specific 
outcome, includes both preparedness and performance measures and 
metrics, and identifies national target levels which provide a common 
methodology to measure preparedness across the Nation.
    Together, the National Preparedness Goal and Targeted Capabilities 
List reinforce the Directorate's primary focus on ``risk management,'' 
which involves an analysis of threat, vulnerability and consequence. 
Working with State, local and private sector partners, the Directorate 
identifies threats, determines vulnerabilities, and targets resources 
to reduce risk where it is greatest. Through grant programs, the 
Directorate is able to invest in building capabilities which reduce 
vulnerabilities and thereby reduce all-hazard risk.

                          MEDICAL PREPAREDNESS

    Question. According to the Census Bureau, the National Capitol 
Region's daytime population is estimated at over 982,000 people. A 
potential threat to this area is detonation of nuclear weapon. The 
Administration is so worried about a nuclear attack they created a 
whole office, called the Domestic Nuclear Detection Office, in the 
Department of Homeland Security to mitigate this threat.
    If a nuclear attack was launched on the United States today, how 
many people could be treated for Acute Radiation Syndrome with the 
medication that we currently have in the stockpile?
    Answer. As the Strategic National Stockpile is managed by the 
Department of Health and Human Services, this question should be 
directed to HHS.
    Question. The current Bioshield solicitation provides for only up 
to 100,000 courses, with no assurance that even 100,000 will be 
purchased.
    Why are you only seeking 100,000 courses of medicine?
    Answer. As acquisitions for Project Bioshield are managed by the 
Department of Health and Human Services, this question should be 
referred to HHS.

                         CONCLUSION OF HEARING

    Senator Byrd. You do a great job, Mr. Chairman.
    Senator Gregg. Thank you, and I enjoy working with you.
    [Whereupon, at 11:40 a.m., the hearing was concluded, and 
the subcommittee was recessed, to reconvene subject to the call 
of the Chair.]

                                   - 

</pre></body></html>
